<html>
<title> - BEYOND TRANSFORMATION: REVIEWING CURRENT STATUS AND SECONDARY EFFECTS OF VBA TECHNOLOGY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                    BEYOND TRANSFORMATION: REVIEWING

         CURRENT STATUS AND SECONDARY EFFECTS OF VBA TECHNOLOGY

=======================================================================

                                HEARING

                               before the


       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, FEBRUARY 5, 2014

                               __________

                           Serial No. 113-51

                               __________

       Printed for the use of the Committee on Veterans' Affairs


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                                   ______
                                     
                      U.S. GOVERNMENT PUBLISHING OFFICE 

86-727 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
BILL FLORES, Texas                   DINA TITUS, Nevada
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
JON RUNYAN, New Jersey               RAUL RUIZ, California
DAN BENISHEK, Michigan               GLORIA NEGRETE McLEOD, California
TIM HUELSKAMP, Kansas                ANN M. KUSTER, New Hampshire
MIKE COFFMAN, Colorado               BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               TIMOTHY J. WALZ, Minnesota
PAUL COOK, California
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS


                    JON RUNYAN, New Jersey, Chairman
DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida                Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
DAVID JOLLY, Florida                 GLORIA NEGRETE McLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              
                                                                   Page

                      Wednesday, February 5, 2014

Beyond Transformation: Reviewing Current Status and Secondary 
  Effects of VBA Technology......................................     1

                           OPENING STATEMENT

Hon. Jon Runyan, Chairman........................................     1

                               WITNESSES

Statement of Mr. Gerald T. Manar, Deputy Director, National 
  Veterans Service, Veterans of Foreign Wars of the United States     5
    Prepared Statement...........................................    37
Statement of Mr. Jeffrey C. Hall, Assistant National Legislative 
  Director, Disable American Veterans............................     7
    Prepared Statement...........................................    41
Statement of Mr. Zachary Hearn, Deputy Director for Claims, 
  Veterans Affairs and Rehabilitation Division, The American 
  Legion.........................................................     9
    Prepared Statement...........................................    46
Statement of Mr. Frank Logalbo, National Service Director, 
  Wounded Warrior Project........................................    10
    Prepared Statement...........................................    49
Statement of Mr. Eric Jenkins, Rating Veterans Service 
  Representative, Winston Salem Regional Office, American 
  Federation of Government Employees, AFL-CIO and the AFGE 
  National VA Council............................................    12
    Prepared Statement...........................................    53
Statement of Ms. Diana Rubens, Deputy Under Secretary for Field 
  Operations, U.S. Department of Veterans Affairs................    24
    Prepared Statement...........................................    57

    Accompanied by:

        Mr. Richard Hipolit, Assistant General Counsel, U.S. 
            Department of Veterans Affairs

    Accompanied by:

        Ms. Lorraine Landfried, Deputy Chief Information Officer 
            for Product Development, Office of Information 
            Technology, U.S. Department of Veterans Affairs
Statement of Richard W. Thomas, Director, Healthcare Operations, 
  Defense Health Agency..........................................    26
    Prepared Statement...........................................    61

    Accompanied by:

        Mr. Dave Bowen, Director, Health Information Technology, 
            Defense Health Agency

                   MATERIALS SUBMITTED FOR THE RECORD

Paralyzed Veterans of America....................................    63
Vietnam Veterans of America......................................    64
Letter From: Hon. Dina Titus, Ranking Minority Member to Hon. 
  Eric K. Shinseki...............................................    69
                 QUESTIONS AND RESPONSES FOR THE RECORD

Questions For the Record.........................................    69
Questions From: Dina Titus and Responses From: VA................    71

 
BEYOND TRANSFORMATION: REVIEWING CURRENT STATUS AND SECONDARY EFFECTS 
                           OF VBA TECHNOLOGY

                              ----------                              


                      Wednesday, February 5, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial 
                                           Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 3:30 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[chairman of the subcommittee] presiding.
    Present: Representatives Runyan, Lamborn, Bilirakis, Cook, 
Titus, O'Rourke, Ruiz, Negrete-McLeod.

           OPENING STATEMENT OF JON RUNYAN, CHAIRMAN

    Mr. Runyan. Good afternoon, and welcome, everyone. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    Today's hearing will focus upon technological initiatives 
of the Veterans Benefits Administration as well as the 
secondary effects of those initiatives.
    Specifically we will hear information on the status of the 
Veterans Benefits Management System 6.0 release and the 
Veterans Relationship Management System including e-benefits.
    We will also address the recently implemented secure 
electronic transmission of service treatment records between 
healthcare artifacts the image management solution of the 
Department of Defense and VA's VBMS.
    Additionally, the subcommittee will seek information on 
VA's work credit system within the new electronic framework of 
their regional offices, the national work queue, and the 
proposed rule of VA as to standardized forms.
    Many of these new technology solutions will reduce reliance 
on paper-based processes and were designed to simplify and 
streamline the VA's services to veterans, their families, and 
survivors.
    To the extent that they increase efficiency, they lead to 
faster and more accurate outputs to beneficiaries. I remain 
eager to work alongside the VA to implement this reasonable 
path forward.
    I am optimistic that many of the efforts the VA has 
employed to date have made a positive change. However, I 
caution that in the department's efforts to reach the numeric 
goal of the 125 days pending for claims in 2015, VA must not 
prioritize an appearance of success above actual qualitative 
improvement.
    And I assure you that this subcommittee will labor to hold 
focus upon the quality of both VBA's process and outcomes.
    We will hear today that there have been both progress and 
problems. VBMS consistently experiences serious latency 
problems with regular weekly, sometimes daily outages. Why do 
these latency issues continue and how are the regional offices 
dealing with this complication?
    VA indicates that VBMS has been successfully deployed the 
Board of Veterans' Appeals. I believe that to be true at a 
superficial level, but I am aware of the functional quagmire of 
VBMS at BVA.
    If we take your statements at face value, it would appear 
that BVA is productively chugging along with no problems. 
However, we know that BVA does not have the necessary 
functionality in VBMS for indexing and file maintenance and 
continues to experience issues with load time, misplaced 
documents, and, again, latency.
    Additionally, VA's obligation to properly safeguard 
personal information is paramount. VA represents that the 
technology tools are accredited and secured under VA's strict 
security standards to combat evolving cyber security threats. 
Yet, in recent weeks, e-benefits was compromised to an unknown 
extent.
    The personal information of thousands of veterans was 
revealed and this simply was unacceptable. It would go without 
saying, but I will say it nonetheless, this lack of security is 
of tremendous concern.
    One other area that we will hear about today is VA's 
proposed rule that would require claims to be filed on a 
standard form and would also require appeals to be initiated 
using a standard form.
    Finally, we will be examining VA's transition to what it 
refers to as a national work queue, meaning that claims are 
processed by the next available VA employee, not necessarily 
the next local VA employee, and in particular examining the 
effects that such model has on local representation.
    I look forward to hearing both the department's explanation 
of the desired change as well as the comments of the various 
interested organizations that are seated in our first panel 
this afternoon.
    And with that, I will begin the introductions. Will the 
first panel be seated at the witness table.
    Our first panel today will include Mr. Gerald Manar, deputy 
director of National Veterans Service with the Veterans of 
Foreign Wars of the United States; Mr. Jeffrey Hall, assistant 
national legislative director with Disabled American Veterans; 
Mr. Zachary Hearn, the deputy director for Claims, Veterans 
Affairs and Rehabilitation Division with The American Legion; 
Mr. Frank Logalbo, the national service director with the 
Wounded Warrior Project; and Mr. Eric Jenkins who is here in 
representation of the American Federation of Government 
Employees, AFL-CIO, and the AFGE National VA Council.
    Once we conclude with panel one, we will move on to panel 
two which consists of representatives from the Department of 
Veterans Affairs and the Department of Defense.
    For VA, we will hear from Ms. Diana Rubens, deputy under 
secretary of Field Operations, accompanied by Richard Hipolit, 
the assistant general counsel, and by Ms. Lorraine Landfried, 
deputy chief information officer for Product Development, 
Office of Information Technology.
    And from the Department of Defense, we will hear from Major 
General Richard Thomas, director of Healthcare Operations, 
Defense Health Agency, who is accompanied by Mr. Dave Bowen, 
director of Health Information Technology, Defense Health 
Agency.
    With those introductions complete, I thank you all for 
being with us today and now yield to the ranking member, Ms. 
Titus, for her opening statement.
    Ms. Titus. Thank you very much, Mr. Chairman.
    I think some of the things I am going to say in the opening 
statement echo some of the points that you have already made, 
but sometimes it does not hurt to hear them twice. This is a 
very important hearing and I appreciate your calling it.
    I want to commend the VA for its efforts to address the 
claims backlog. I know last fiscal year, the VA completed a 
record 1.7 million claims. You reduced the time veterans have 
to wait for their claims and you cut the backlog by 35 percent.
    So if you continue along these lines, I suspect that at 
this rate, you'll reach the secretary's ambitious goal by next 
year.
    But I also want to thank the stakeholders who have joined 
us today because we would not be where we are in reducing the 
backlog if it were not for the help that you have been giving 
our veterans and the advice that you gave us and the VA on how 
to tackle this challenge. Your help is very much appreciated by 
both the veterans and by us.
    We are confident that the VA has seen an increase in 
production due to some of the mandatory overtime and the 
implementation of provisional ratings, but results of the new 
electronic claims system, the VBMS, are unfortunately mixed 
reviews and despite the promises that we heard of how they were 
going to make the system more efficient and effective.
    According to the strategic transformation plan, the VA 
expected to reduce the backlog by 345,000 claims based on the 
efficiencies from utilizing this system alone, just because of 
that. We're hopeful that that occurs.
    However, we remain concerned about that because as VBA 
staff and stakeholders continue to question the efficiencies 
that have been gained during this system, there have been 
excessive down times, latency, lack of access to the system for 
the VSOs via that stakeholder enterprise portal, and these are 
all problems that we hope will be able to be addressed.
    And as the chairman pointed out, just last week we learned 
of yet another VBMS outage and then a few days later the media 
reported that a data breach in e-benefits had led to the 
release of personal information for some 1,400 veterans.
    So needless to say we are not overly impressed by the 
system's security, efficiency, or effectiveness at this point 
and we are looking to see some improvements as we move forward.
    Adding to this challenge has been the VA's continued lack 
of transparency regarding the performance of specific VA 
regional offices. For months, the VA has shuffled claims among 
the ROs and then reported that the struggling offices have been 
improving.
    Now, I have dealt with this firsthand with the performance 
of the Reno regional office which serves all the veterans in 
Nevada and some in California. It was one of the worst in the 
country, had one of the longest delays and one of the biggest 
backlogs.
    Well, now I have learned that half of their workload was 
brokered to other stations around the country. That work was 
actually completed in those other stations, but the Reno RO was 
given credit for reducing its backlog.
    Now, because of that, I wonder, and it remains unclear, if 
the poor performers have really gotten any better or if they 
are going to improve in the future or if we are addressing the 
real cause of the problem and not just the symptoms.
    While veterans might be served in a timelier fashion 
through brokering, and it is a good thing in the short term, it 
is not a solution in the long term. It is imperative that we 
know not only how well our veterans are being serviced but how 
well the VA regional offices that are serving them are really 
performing.
    This is particularly important as you move towards this 
national work queue where many veterans' claims will be sent to 
other states or other parts of the country to be worked on.
    Just in closing, I would like to state that earlier this 
year, our subcommittee worked on a bipartisan package of bills 
that was designed to speed up the benefits process for 
veterans. The House has passed most of these bills, and I hope 
that the Senate will soon address them and send them to the 
President for his signature.
    Some of these will be very important as you move towards 
that national work queue including my bill, Pay As You Rate. So 
I hope that we can work on those to provide a more timely 
delivery of payments.
    Additionally, I hope that the VA is looking towards the 
national work queue as a way not just to moving cases from the 
under performing to places where they can be addressed more 
quickly but as a way to specialize in medical conditions in 
certain offices that are especially challenging like military 
sexual trauma and traumatic brain injury. That could be a 
potential game changer if you focus on specializing and not 
just on shuffling the chairs around.
    So with that, I would like to restate and emphasize our 
commitment to the VA, proud of the good work that you do. I 
know VA employees work hard and this is not an easy process. 
This committee wants to be your partner. We want you to tell us 
if something works, help us understand if something is not 
working, and then be forthright when there are problems so that 
we can try to address it.
    So thank you all for being here, and thank you, Mr. 
Chairman.
    Mr. Runyan. Thank you, Ms. Titus.
    And with that, I know Mr. O'Rourke does have an opening 
statement, but protocol says I ask Mr. Cook first.
    Mr. Cook. [Nonverbal response.]
    Mr. Runyan. Mr. O'Rourke is recognized.
    Mr. O'Rourke. Mr. Chairman, I just ask unanimous consent to 
submit my opening statement for the record.
    Mr. Runyan. Without objection, so ordered.
    Mr. O'Rourke. Thank you.
    Mr. Runyan. Ms. Negrete-McLeod, anything?
    Mrs. Negrete-McLeod. [Nonverbal response].
    Mr. Runyan. We welcome our first panel, and, Mr. Manar, you 
are now recognized for five minutes for your oral testimony.

STATEMENTS OF GERALD T. MANAR, DEPUTY DIRECTOR, NATIONAL 
    VETERANS SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
    STATES; JEFFREY C. HALL, ASSISTANT NATIONAL LEGISLATIVE 
    DIRECTOR, DISABLED AMERICAN VETERANS; ZACHARY HEARN, DEPUTY 
    DIRECTOR FOR CLAIMS, VETERANS AFFAIRS AND REHABILITATION 
    DIVISION, THE AMERICAN LEGION; FRANK LOGALBO, NATIONAL 
    SERVICE DIRECTOR, WOUNDED WARRIOR PROJECT; ERIC JENKINS, 
    RATING VETERANS SERVICE REPRESENTATIVE, WINSTON-SALEM 
    REGIONAL OFFICE, AMERICAN FEDERATION OF GOVERNMENT 
    EMPLOYEES, AFL-CIO AND THE AFGE NATIONAL VA COUNCIL

                  STATEMENT OF GERALD T. MANAR

    Mr. Manar. Chairman Runyan, Ranking Member Titus, and 
Members of the subcommittee, thank you for the opportunity to 
present to you the views of the members of the Veterans of 
Foreign Wars of the United States and its auxiliaries on these 
important topics.
    While workload remains near historic highs and quality 
remains problematic for VA, these are not VA's biggest problems 
in our view. What confronts VBA is a problem in leadership, 
leaders at the top so intent on meeting arbitrary goals by 2015 
that they have systematically suborned the legal, regulatory, 
and policy protections granted veterans over the last 75 years.
    I say this today with the full knowledge that the Veterans 
of Foreign Wars has largely supported this leadership as they 
move to transform the claims processing system. However, VBA 
policies and practices in claims processing have increasingly 
become hostile to the interests of veterans.
    Secretary Shinseki established aggressive goals for VBA in 
both claims processing and timeliness by declaring 125 days as 
the maximum time in which to process a claim with 98 percent 
quality by 2015. It appears that VA leadership long ago 
realized that they could not process all claims within 125 
days.
    In the past few years, the true workload has reached over 
two million claims and appeals. Today there are over 1.7 
million compensation, pension, and education claims and 
appeals.
    Instead of fully fixing its problems, VA leaders redefine 
them. Since VA could not reduce the entire 1.7 million workload 
of claims and appeals to a reasonable level by 2015, they 
decided to define the workload as only disability claims 
requiring rating action.
    Like a mantra, they have repeated that redefinition over 
and over until the media and Members of Congress use it when 
talking about the backlog.
    Seven hundred thousand disability claims are pending today, 
just 41 percent of all the claims and appeals VA has to work in 
its regional offices.
    Next VA decided to focus its entire workforce on reducing 
pending disability claims, leaving nearly 60 percent of the 
workload nearly untouched. The cost of this neglect is found in 
two examples.
    In the past three and a half years, dependency claims, 
perhaps the simplest of claims that VA can process, have grown 
from about 40,000 to nearly 235,000.
    Because appeals do not fall within the definition of 
backlog, VBA has consistently diverted appeals' staff to work 
disability claims. As a consequence, appeals have grown from 
252,000 to over 268,000 in just the past year.
    The definition of quality has also changed in several ways. 
VA's central office directives have relaxed development 
requirements to allow rating specialists to make decisions 
using evidence considered inadequate just a few years ago. 
Claims are decided faster but often less favorably to veterans.
    In addition, VA is moving to an issues-based method for 
determining quality levels. This is significantly different 
than the case-based method used when Secretary Shinseki set his 
goal of 98 percent quality. The new method makes VA look better 
while making the same number of mistakes.
    What you see here is a cold-blooded assessment by VA 
officials that if they cannot achieve their goals under the 
current standards, they will change the rules to meet their 
goals. VA is proclaiming vast improvements when, in fact, they 
have only changed the way they look at quality.
    Proposed regulation AO81 styled standard claims and appeals 
forms is another attempt by VA to change the playing field. We 
discuss this at length in our written testimony. This 
regulation change is not about requiring standardized forms. VA 
has had standardized forms since at least the 1930s. It is 
about reducing incoming claims and depriving thousands of 
veterans each year of millions of dollars in earned benefits.
    There will be a profound and negative effect on veterans 
seeking benefits if VA implements these changes.
    Congress has spent 75 years or more working to construct a 
benefit system which is veteran friendly, a system which 
recognizes the contribution of the men and women who have worn 
the uniform of the United States.
    VA proposed to make rigid a claims processing system which 
was constructed with the purpose of helping veterans who may 
not know every rule and policy. VA leaders have apparently 
decided to ignore the injunction of Omar Bradley, administrator 
of the Veterans Administration following World War II, who 
stated we are dealing with veterans, not procedures, with their 
problems, not ours.
    And, finally, we ask this committee to examine what VA 
leadership is doing. Examine the methods they are using to 
redefine problems so they can reach their self-created 
artificial goals.
    We ask Congress to block any attempt by VA to reduce rights 
that veterans and other claimants currently have to submit 
informal claims to VA and we ask this committee to force VA to 
address all pending issues and appeals, not just disability 
claims.
    America's veterans did not sacrifice their time, their 
bodies, or their lives to be run over by a bureaucratic train 
racing to declare victory by 2015. They deserve more respect 
than that for their service to our great Nation.
    Thank you for the opportunity of speaking to you today, and 
I will be happy to answer any questions you may have.

    [The prepared statement of Gerald T. Manar appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Manar.
    With that, I will recognize Mr. Hall for five minutes for 
his testimony.

                  STATEMENT OF JEFFREY C. HALL

    Mr. Hall. Thank you.
    Chairman Runyan, Ranking Member Titus, and Members of the 
subcommittee, on behalf of DAV and our 1.2 million members, we 
appreciate the opportunity to testify today regarding VBA's 
technology initiatives.
    Let me begin today by sharing some insights from a recent 
unannounced visit to the Newark VA regional office which is the 
only fully electronic regional office within the VA.
    All claims processing performed in Newark today is for all 
intents and purposes completely paperless. During my visit to 
Newark, I was able to see virtually every step of the process 
from the intake processing center through the steps of the 
development in the core lane concluding with a fully digital 
claim file being reviewed in the VBMS and a final rating being 
prepared in the VBMSR program.
    Not having seen more than a demonstration of VBMS prior to 
my Newark visit, I now have greater confidence in the overall 
performance of VBMS and I am reassured that it actually works 
as promised.
    In speaking with many of the employees at the Newark VA 
regional office, morale was much higher than it was in the past 
and it is growing every day. Employees I visited with feel VBMS 
and the new organizational model while not perfected allow for 
greater productivity, speed, accuracy, and accountability in 
completing their work, albeit they do realize there will be 
routine improvements in the VBMS system and not without 
problem. Yet, they are optimistic that as their proficiency 
using the new system escalates, they will be able to 
demonstrate the increases in all measurable activities.
    Recognizing the fact that no modern IT system or software 
is ever truly finished, it is vitally important. So in addition 
to the funding required for maintenance of the VBMS system, VBA 
must continue to make significant investments in the VBMS 
development for as long as this system is capable of meeting 
VBA needs.
    Like VBMS, the e-benefits system has been in place for more 
than a year and while the e-benefits system is working and 
claims are being submitted and received electronically as 
intended, it is certainly not without obstacles which must be 
overcome as they arise and without delay.
    One of the first obstacles encountered within the e-
benefits system was veterans not being able to set up their 
account due to problems with the inaccurate information 
maintained by the Defense Enrollment Eligibility Reporting 
System or DEERS. This remains a major problem for many 
veterans, especially older veterans, and must be resolved.
    Mr. Chairman, clearly VBA would like to see more veterans 
file their claims electronically and DAV has been the leader 
amongst VSOs in increasing the number of claims filed 
electronically. However, more than a lack of interest from a 
veteran is the problem of gaining access which the veteran 
cannot resolve on his or her own.
    Simply put, if more veterans filing claims electronically 
is desired by VBA, then their system needs to be capable of 
basic matters such as access.
    Certainly there are some ongoing issues with the 
technology. However, DAV remains supportive of VBA's 
transformation efforts and veterans being able to submit claims 
electronically through the e-benefits system or on their behalf 
through the stakeholder enterprise portal with the assistance 
of our national service officers.
    However, the SEP is dependent upon a veteran being required 
to have an e-benefits account which means without e-benefits 
access, we cannot file electronic claims for our clients. We 
are hopeful that changes will occur in the near future so that 
we can file electronic claims directly with the VBA through the 
SEP system without the need of going through the e-benefits.
    With new technology in place, VBA is now looking at the 
prospect of a national workload management model which we 
believe falls in line with similar VBA strategies such as 
centers of excellence and centralized mail centers.
    When considering a major change to the claims process such 
as a national workload management model or anything of a 
centralizing nature, thoughtful deliberation must be given to 
the impact of removing the benefit of face-to-face interaction 
with VBA which at the very least could be hindered.
    As we have done for nearly 100 years, DAV will continue to 
evolve and adapt to any changes in the claims process. However, 
any change to the claims process must include VSOs from the 
earliest planning stages possible.
    And, finally, Mr. Chairman, with respect to VA's proposal 
to require all claims and appeals to be filed on standard VA 
forms, DAV understands the stated intent of VA's proposed 
amendments to promote submission of claims and appeals in 
standard formats in order to capture data for a paperless 
claims and appeals system. However, we have concerns about the 
proposed rule and the consequential adverse effect upon 
veterans.
    To be clear, DAV takes no issue with the veterans being 
required to submit their claims and appeals on standardized 
forms. It is not new. We do, however, take exception to 
eliminating the informal claims processing which is also 
contained within the proposal, thereby causing veterans to lose 
their rightful entitlements such as retroactive monetary 
benefits just so the VBA can speed the process.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions.

    [The prepared statement of Jeffrey C. Hall appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Hall.
    With that, I will recognize Mr. Hearn for five minutes for 
his testimony.

                   STATEMENT OF ZACHARY HEARN

    Mr. Hearn. Good afternoon, Chairman Runyan, Ranking Member 
Titus, and Members of the committee. On behalf of our national 
commander, Dan Dellinger, and the 2.4 million proud veterans 
serving veterans in The American Legion, I want to take a 
moment to thank you for bringing us here to share our views and 
insights about VA's technological transformation.
    Really this is not a pro forma thank you, but we generally 
want to say thank you for listening. You treat us as partners. 
This committee recognizes that we are in a unique position to 
speak for what the veterans in America want. We are the voice 
of those veterans and you listen to us. You think about what we 
have to say and you consider our experience.
    You are working together with us to try to make this work 
for the veterans because that is what we are all here for. We 
are trying to make the system work for the veterans. This is a 
partnership and partnership includes dialogue.
    You have received our testimony, the testimony of all my 
colleagues, and VA's testimony. The way technology impacts the 
office environment for VA is going to change a lot of things. 
Some of those changes are going to be good. Some of those 
changes may not be so good. We know we are all probably going 
to see changes that nobody saw coming.
    But I have talked to veterans. I have talked to many of the 
over 2,900 American Legion accredited representatives 
throughout the country. I have talked to my colleagues here and 
we can see a lot of flags that come up when we think about how 
some of these things will affect veterans' claims. Our voice is 
important.
    We stated in our testimony the most important factor going 
forward is what changes are going to make the system better for 
veterans, not easier for VA, better for veterans.
    Is it better for veterans to force them to use an 
electronic process when according to the Census Bureau roughly 
half of elderly Americans, a large and vulnerable portion of 
the veterans' population do not have regular Internet access? 
Does that make things better for veterans or easier for VA?
    The American Legion is honored to help bring veterans to VA 
in a manner that makes things easier for VA. We are partners 
serving veterans. VA and The American Legion are partners 
designed to advocate on behalf of the 21 million veterans.
    The American Legion took the lead in promoting the fully 
developed claims process with veterans and enabled VA to report 
a reduction in how long it takes to process claims. We do the 
work up front and hand it off to VA. VA turns things around 
faster for veterans and the veterans get their results faster. 
That is the ultimate win. That is why we do this.
    But the choice has to stay with the veteran. First and 
foremost, we have to make sure that any changes implemented are 
there to serve the veteran. VA can assure they are making the 
right decisions to serve veterans by expanding the inclusion of 
The American Legion and other VSOs as full partners in this 
process.
    Very early on in the planning of what would later become 
VBMS, VA used to regularly work with the VSOs and we were able 
to point out things like that early versions did not include an 
integrated power of attorney to ensure veterans' 
representatives were seeing the information needed to help 
veterans with their claims. We worked together and helped to 
keep the focus on what was going to help the veteran.
    You have reviewed the written testimonies. You have seen 
some specific issues we have raised. We recognize the 
importance of technological advances to improve the VA claims 
process. However, any process implemented must be advantageous 
to the veteran. We appreciate VA's efforts to expedite the 
claims process, but it cannot be on the backs of veterans.
    The most important thing I want everyone here to take away 
from this is how important it is to recognize all of us as 
fully participating partners, veterans, VSOs, VA, Congress, and 
to keep the goal as what is the best way to deliver benefits to 
veterans who have been disabled serving their country. That 
more than any number or metric needs to be the target.
    Again, I offer my sincere thanks for recognizing the 
importance of the voices of 2.4 million veterans and the 
greater community of veterans they serve and for giving us a 
share in the dialogue at this table, and I will be happy to 
answer any questions. Thank you.

    [The prepared statement of Zachary Hearn appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Hearn.
    With that, I will recognize Mr. Logalbo for five minutes 
for his testimony.

                   STATEMENT OF FRANK LOGALBO

    Mr. Logalbo. Chairman Runyan, Ranking Member Titus, and 
Members of the subcommittee, thank you for holding this hearing 
and for inviting Wounded Warrior Project to testify today.
    In working daily with wounded warriors, we appreciate what 
advanced technology can bring to claims and adjudication, but 
the efficiency that technology delivers is not an end in 
itself. Fundamentally this system must serve our veterans.
    Let me provide some context by reference from our most 
recent annual survey. With almost 14,000 responses, nearly all 
the warriors we surveyed were injured during post 9/11 service. 
Almost 60 percent of those injured resulted from IEDs, other 
blasts, and more than 44 percent reported traumatic brain 
injury. Seventy-five percent of the respondents had PTSD, the 
most commonly reported condition.
    While many of our warriors rely on computers, many do not. 
Some with invisible wounds like PTSD, anxiety, TBI have 
comprehension difficulties or experience anxiety, frustration 
with computer technology. Many have high anxiety relating to 
information security. The recent data breach on VA's e-benefits 
Web site will very likely heighten that concern, maybe even 
irreversibly.
    VBA must meet the veterans where they are. Technology may 
be the way to reach optimal efficiency, but VA's highest 
obligation must be to the veteran and it must accommodate the 
veteran, not the other way around, even at modest cost to peak 
efficiency.
    The principle would seem beyond question and a system long 
celebrated as for its pro-claimant, veteran-friendly policy, 
but a recent rule making proposal would abandon the core tenet 
of that policy.
    Under that proposal, VA would throw out current rules that 
aim to minimize the burden initiating a claim and allow 
benefits to be paid at the earliest possible date. It would 
abolish rules that permit a veteran to file an informal claim 
and receive benefits paid from the date of informal claim that 
is filed. Instead, it would push the veterans to file claims 
electronically and penalize those who do not.
    VA would levy that penalty by setting new effective date 
rules on benefit awards with one rule for electronic filers and 
a different harsh rule for filing claims via paper.
    Here is how it would work. A warrior who suffers from 
multiple injuries from an IED would have to list specific 
disabilities on a claims form. If the veteran could not 
identify all the disabilities and simply wrote multiple 
injuries, VA could not consider that, they would consider it as 
an incomplete claim.
    If the veteran had filed electronically, VA would preserve 
the effective date of filing as that date. If the veteran had 
submitted that same incomplete claim on paper, the veteran 
would be penalized by deferring establishment of an effective 
date until the claim becomes complete. The difference could 
mean a loss of thousands of dollars for that veteran.
    In essence, pro-claimant VBA policies would abandon any 
attempt to achieve efficiency and speed. We certainly do not 
oppose VA's becoming more efficient and timely, but it must 
comply with the laws centered on serving a veteran.
    If new policy is that efficiencies trump veterans' rights, 
then Congress must make the judgment, not the secretary. VA's 
proposal would also undermine that safeguard to appellate 
rights.
    Regulations that now permit any expression of disagreement 
to be taken as a notice of disagreement would be discarded. 
Instead, veterans would have to use specific forms to file a 
notice of disagreement. Omitting any required information would 
render the veteran's notice incomplete.
    And a veteran who is unable to complete a form successfully 
within 60 days would forfeit the right to appeal. Individually 
and collectively, these changes go much too far.
    Moreover, the department's single-minded pursuit of 
efficiency fails even to acknowledge that applicants for 
veterans' benefits have a constitutionally protected property 
interest in their application for benefits and are entitled to 
due process.
    Rather than protecting that property interest, VA aims to 
establish procedures that would shrink it. And for the first 
time, it would create a substantial distinction between 
electronic and non-electronic claims. We see no basis in law to 
establish this two-tiered discriminatory system.
    In striving for efficiency, the proposed rule would create 
barriers that would deny veterans benefits to which they are 
entitled. While Congress may elect to take steps to streamline 
claims and appeals processes, a department charged with 
administering the law may not unilaterally block statutory 
pathways to veterans' benefits.
    VA describes the effect of the rules it wants to abolish as 
time consuming, but Title 38, the laws VA administers say 
nothing about speed.
    VA's statutory authority to establish online tools to 
facilitate claims and processing is not in doubt. Its authority 
to develop standard forms is not questioned. Many veterans may 
find online tools helpful, but VA goes too far in trying to 
establish procedures that will result in veterans losing 
benefits to which they are entitled.
    In the final analysis, the secretary's duty is to 
administer the law, not to rewrite it. Several important 
interests are at stake here. The first is adherence to the law. 
The second is preserving pro-claimant adjudication system.
    The third is protecting veterans who for a reason including 
disability, hardship, remoteness, or fear, they do not have 
online access to a computer cannot reasonably be expected to 
communicate through that modality, and, finally, preserving 
congressional prerogatives.
    Given the importance of each of those interests, we ask the 
subcommittee to press the VA to withdraw its proposed rule 
making.
    Thank you, Mr. Chairman.

    [The prepared statement of Frank Logalbo appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Logalbo.
    With that, I will recognize Mr. Jenkins for five minutes 
for his testimony.

                   STATEMENT OF ERIC JENKINS

    Mr. Jenkins. Chairman Runyan, Ranking Member Titus, and 
Members of the subcommittee, thank you for the opportunity to 
share views, discuss our concerns, and provide recommendations 
regarding the VBMS implementation on behalf of AFGE members 
working daily processing these claims.
    I am a rating specialist at the Winston-Salem regional 
office where I worked for the past nine years. I am a disabled 
marine and a combat veteran who served during Operation Desert 
Storm, Enduring Freedom, and Iraqi Freedom. I have a deep 
personal and loyal commitment to serving veterans.
    I work with VBMS and VBMSR on a daily basis. The constant 
latency, technical issues, and frequent VBMS shutdowns make it 
difficult for me and others to serve veterans accurately and 
effectively.
    In the last week, the VBMS system was shut down for more 
than a day and VBMS was restarted four other times during the 
week. Because I work in a completely paperless system, all of 
the work I had completed during the day was now inaccessible 
until the system restarted.
    AFGE recommends the formation of an ongoing stakeholder 
work group to allow AFGE and veteran service organizations to 
work with management to address these serious implementation 
issues.
    VBA employees, many of whom are veterans themselves, are 
deeply committed to completing claims as quickly and accurately 
as possible for our brothers and sisters who served so 
honorably. But during these shutdowns, the employees I speak 
of, many managers do not give them excluded time needed even 
though they are already facing intense production quotas, 
performance improvement plans, and possible termination.
    Excluded time is a longstanding policy in VBA that not only 
protects employees but also ensures that they have the 
sufficient time to focus on their work serving veterans.
    AFGE recommends that VBA work with all the stakeholders to 
develop an effective contingency plan for VBMS shutdowns. 
Improvements to VBMS go hand in hand with fixing VBA's 
currently work credit system.
    I am a current member of the National RVSR Performance 
Standards Work Group which is a joint venture with both 
management and labor that created the most recent RVSR 
standards.
    The current work credit system creates performance 
standards that are arbitrary, inconsistent, and focus too much 
on quantity over quality. VBA has never had a formal work 
credit system based on actual data that reflects the amount of 
time required to process specific types of claims and their 
components.
    Given VBA's current transformation strategy, AFGE believes 
that the timing is ideal for a time motion study to be created, 
a formal work credit system. AFGE recommends that the committee 
adopt an approach similar to the one proposed by S. 1982 to 
form a stakeholder work group to overhaul the current system.
    AFGE also should have a more meaningful role in the 
implementation of veterans' relationship management initiative. 
It is always good policy to include employees' perspectives in 
any new initiatives. AFGE has not been given the opportunity to 
contribute to this implementation.
    We also recommend better integration of DoD's file system 
named HAIMS for greater ease in transmitting medical evidence 
between DoD and VA for claims processing.
    AFGE remains cautious regarding VBA's national work queue 
strategy including the methods VBA will use to assign work. If 
an office is considered under performing by VBA, there are 
concerns that they will now be starved for cases.
    Employees in these offices might lose certain essential 
skill sets if they are deprived of special issue cases.
    We were pleased to hear of Under Secretary Hickey's 
commitment to improving VBA's current resource allocation model 
so that struggling ROs are not arbitrarily deprived of 
resources. Therefore, we urge the committee to review the 
current resource allocation model and encourage VBA to expedite 
reforms, especially in light of the rollout of any national 
work queue strategy.
    Finally, AFGE is very troubled by a recent announcement 
that VBA is considering the use of outside contractors for 
dependency claims instead of continuing to use the experienced 
VBA employees.
    VBA intends to begin the program in March. AFGE strongly 
urges Congress to prohibit this counterproductive and illegal 
solution to the claims backlog. Past evidence with other 
contracts such as the ACS contract demonstrates that contracts 
can actually add to the backlog.
    The ACS contract was cancelled after only nine months. It 
wasted VA resources and taxpayer money and forced veterans to 
wait longer for their benefits.
    Once again, I would like to thank the committee for 
providing AFGE the opportunity to share our views, and I will 
be happy to answer any questions.

    [The prepared statement of Eric Jenkins appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Jenkins.
    And with that, I will start a round of questions, giving 
each Member five minutes.
    And my first question is actually for you, Mr. Jenkins. 
Just asking you to elaborate a little bit on HAIMS and VBMS and 
how you indicate that the integration is not working that well.
    Mr. Jenkins. I do not work with it directly. It usually is 
on the hospital side, VHA side. But dealing with VSRs who 
actually process the pre-development side say that some of the 
information they are getting or some of the STRs, which are 
servicemen's treatment records, are not being uploaded properly 
and sometimes they are mixed with one veteran or veteran's 
information.
    Mr. Runyan. Okay. I know the problems we have been having. 
Obviously, those continue with your experience there.
    Next question, Mr. Manar, in your written testimony, you 
state your concern that over the past year, the focus of 
achieving the secretary's goals of ending the backlog by 2015 
and achieving 98 percent accuracy in the claims processing has 
taken on a life of its own and that the goal is no longer to 
help all veterans but create appearance of success by changing 
the playing field.
    I think this is a concern shared by me and this whole 
committee and not just in the context which arose in your 
written testimony.
    Would you please comment, in your organization's experience 
how VA loses its sight of its mission to help veterans in favor 
of trying to present favorable image of the department. Please 
provide specific examples of how as you noted that the VA has 
changed the playing field in order to effect the appearance of 
success towards its goal of eliminating the backlog.
    Mr. Manar. Thank you, Mr. Chairman.
    Let me start with the second question first, examples of 
how VA has changed the playing field. There have been many 
court cases as well as VA regulations and I believe statute 
that requires the VA to provide reasons and bases for the 
decisions that they make, especially when they are negative 
decisions.
    However, starting with a project that VA initiated two and 
a half or three years ago, they removed a substantial part of 
reasons and bases out of rating decisions. And in the letters 
that are sent to claimants, they tell claimants basically 
conclusions. They do not explain the analysis or reasons why 
certain evidence was found to be wanting or substandard. They 
simply conclude that it was not sufficient to grant the 
benefit.
    This is an example of depriving veterans of the information 
they need in which to determine whether they should appeal a 
case. And as I mentioned earlier, appeals are now at 268,000 
controlled by VA. The lack of information that veterans receive 
when they have received decisions may very well account for 
some of those appeals.
    In addition, we have a recent example, the over two-year-
old case review project, VA letter 201305 issued in April of 
last year directed rating specialists to rate on the evidence 
of record.
    Now, two-year-old claims and many one-year-old claims are 
old. Many of them were old because they were difficult cases. 
They were not able to get all the evidence that was necessary 
and, yet, the VA blatantly told their rating specialists to 
rate based on the evidence of record.
    In some cases, they issued what they called provisional 
ratings and left it up to the veteran to decide whether or not 
they would submit additional evidence throughout the year. If 
they failed to submit any more evidence, the decision became 
final.
    Many of these decisions were negative or, if not negative, 
not at the full benefit level that the individual might have 
obtained had they completed development.
    So these are just two examples of how VA has moved in 
addition to all the things that we said about their proposal to 
change regulations to eliminate informal claims, to change the 
appeals process in this AO81 that we talked about earlier.
    Mr. Runyan. So in your opinion, VA is less helpful to the 
veteran in changing the policy on how they respond?
    Mr. Manar. They have decided or so it appears that it is 
much better for them if they can move cases quickly. They will 
take less flack than if they continue the process of 
deliberately developing and acquiring the evidence necessary to 
make reasoned and substantial decisions.
    And it appears, as one of my colleagues pointed out, that 
VA is more and more moving to make changes not by improving 
their performance but by eliminating policies or procedures 
that affect rights of veterans so that they are making these 
changes seeking to make improvement on the backs of veterans.
    Mr. Runyan. Thank you, Mr. Manar.
    With that, I will recognize the ranking member, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I appreciate all of your concerns about the standardized 
form, and I know that Beto has some legislation that would 
address it. So I would just like to turn my attention to the 
problem of transparency.
    I wonder if you all would address the fact that as we move 
towards this national queue, and as cases are moved from one 
regional office to another. What kinds of problems are you 
having tracking things, getting updates, getting information 
about the case for the veterans that you serve and what 
recommendations do you have for making that better because it 
looks like that is the way it is all moving?
    We can start at this end maybe.
    Mr. Jenkins. It is my understanding, ma'am, that it has not 
taken place yet. They are moving towards it, but the work queue 
has not formally----
    Ms. Titus. That part is true, but they are already 
brokering claims
    Mr. Jenkins. Yes, ma'am.
    Ms. Titus [continuing]. From one regional office to 
another.
    Mr. Jenkins. Yes, ma'am.
    Ms. Titus. That is kind of a similar problem, I think. 
Maybe I am wrong about that.
    Mr. Jenkins. Yes, ma'am. Well, during the two-year 
initiative, our regional office brokered quite a few claims. I 
started off in what was called Quick Start which was a national 
mission. It was similar to benefits on delivery, BDD, if you 
might have heard of that.
    So many of the claims we were working, the two-year-old 
claims were brokered to other regional offices to speed up the 
process to help veterans get the benefits quicker. But in doing 
so, it left a void at our regional office once the two-year-old 
initiative was finished. So that left individuals not having an 
amount of work to work.
    So then we started working cases that are in a service 
center which we are still brokering cases to this day. And it 
leaves people wondering. We have many people saying I do not 
have work today, I do not have any. Although there is a 
backlog, you are still having individuals saying I do not have 
enough work for the day.
    Personally I have emailed my manager saying I need work, I 
need something to do.
    Ms. Titus. That is interesting. That is the opposite 
problem----
    Mr. Jenkins. Yes. It is not an every-day thing, but it does 
happen.
    Ms. Titus. Okay. What about from the veteran standpoint 
when his or her case is brokered to some other place, what is 
your ability to help track it or get information?
    Mr. Hall. Well, I will start. I do not know if anybody 
wants to answer that. But, you know, with brokering claims just 
looking at it from that aspect is not inherently a bad thing. 
It is much worse in the paper form than it is in the electronic 
form it would seem.
    Now, that would be because when you are taking a file and 
you are transferring the whole file, then I do not have access 
to that file if it is sitting in your VA regional office.
    Ms. Titus. Uh-huh.
    Mr. Hall. So that is something that may be better in this 
particular, you know, electronic system that they are using.
    To answer your question from a veteran's standpoint, sure, 
you know, veterans, they contact us as a representative to find 
out answers. They contact the VA for the same answers whether 
they have representation or they are calling, you know, 
without.
    And they would like to speak to somebody in the RO which 
they filed the claim or which they thought they filed the 
claim, but they may get somebody on the call center that is 
sitting in Cleveland when they filed their claim from New York 
City.
    So that was something that was very difficult to overcome 
and assist a veteran and let them know when you call, you are 
not going to be speaking to somebody in this particular RO 
unless you call our office as a representative. But when you 
call VA, you are going to be talking to somebody in another RO.
    That was a big problem for quite a while because, and it 
may be not that it resolved, but more along the lines that 
veterans just gave up, you know. I am not going to call there 
because I am going to be talking to somebody from somewhere 
else and I want to talk to somebody in the RO that is making my 
decision. That is what veterans like. That is something that is 
at risk with the national work, you know, management model.
    And, again, DAV, we would like to know more about what 
their plan is. And I understand that it may have been something 
that they used, you know, in the process of completing all of 
the oldest claims first, using kind of a brokering style.
    So whether the person is sitting in Reno, you know, when 
the claim was filed on the East Coast, it is really not going 
to matter much on the VA end of it. But, again, as my testimony 
points out, you know, this is going to be at the risk of face-
to-face service to veterans. And it seems like the more 
technology we have, the more fragmented that service to a 
veteran becomes.
    Ms. Titus. Any additional comments?
    Mr. Manar. If I might, one of the problems, one of the big 
problems that we see is that whenever VA develops a new 
software program, VBMS is the most recent example of this, 
their focus is on getting a system up and running for VA claims 
processors and developers and all the people who are going to 
use it on the VA side. And it is almost as if service 
organizations are an afterthought.
    With this Administration, certainly give them credit, they 
have certainly given us more access. We have more interaction 
almost on a weekly basis than we have had under previous 
administrations. But still what we lack today is a really 
functional work queue that we can manage our own work, look at 
cases that may have been brokered either electronically or in 
paper. Finding information or being given notice of decisions 
that have been made at other offices on cases that originated 
in our office is lacking.
    So VA has a long way to go, I think, before we can have 
this true partnership where we are working in sync together to 
help veterans with their claims.
    Mr. Hearn. Yeah. Some of the problem, I think, is when you 
start talking about brokering claims out, you have got several 
issues. People who reside in states or locations where their 
regional office is managed effectively and things go on 
relatively smoothly, they almost feel like they are being 
punished because they are doing things well.
    But the other thing, too, is a lot of the work and 
effective service with an effective regional office is the 
relationship is what the important part is between the service 
officer and VA. If you have a claim now that has gone out to a 
different location clear across the country, that relationship 
is severed.
    When they went to this type of setup with pension and they 
had consolidation models that occurred in Philadelphia and 
Minnesota and other places, that is one of the problems that 
our service officers felt was that this relationship where I 
could go up a flight of steps, talk to a rater, and try to work 
something out that we differed about just at the local level 
there, that is severed.
    And the other thing, too, when you are talking about 
national work queue, and this is something that we have talked 
about internally that we have specific concerns about, is that 
if you have a situation where a veteran is--let's say he is 
trying to get service connected or she is trying to get service 
connected for four or five conditions and there is a way to 
maybe have these conditions interrelate with each other and you 
are just looking at it and you are saying this rater over here, 
you need to work on the feet, this rater over here, you are 
working on the ankles, this rater over here, you are working on 
the knees, and they are going to look on it as a direct service 
connection, but you can grant service connection for one of 
those conditions that could have caused or aggravated the other 
two conditions, if you have got this separated process, who is 
going to go back and look at this and say, well, these things 
could have either manifested secondary or have been aggravated 
by the service-connected condition that somebody at a different 
regional office granted.
    Ms. Titus. My time is out, so I will ask you to be brief.
    Mr. Logalbo. Yes, very brief. One of the direct points I 
would like to make when you look at VA in controlling workload 
and shifting resources to different ROs to manage that 
workload, one thing I would like to point out is making sure a 
training initiative is set out.
    Like as you discussed, PTSD, MST, TBI, if there are 
specialized areas or areas of concern, make sure that there are 
training initiatives, quality review process to make sure that 
the veteran or family member is getting the correct decision 
the first time.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. Runyan. Thank the gentle lady.
    With that, I will recognize Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    I wonder if you could do me a favor, the whole panel. And, 
you know, by the way, I want to thank you all for your service. 
The young marine there, he will kind of realize with me I 
always boil it down to the KISS principle. Keep it simple 
stupid.
    Now, what we have been talking about, if you can bear with 
this dumb marine up here right now, based upon what you say, 
and each one of you I'm going to ask and we'll put it in terms 
of combat ready or non-combat ready, what we are talking about, 
I'm getting the feeling that in most instances, this whole 
evolution, what we have been talking about is non-combat ready.
    And I use that phrase because we are talking about so many 
people. So if you could kind of bear with me and just I am 
putting you on the spot, but--and, by the way, you guys are 
right there with the troops. You know, you hear what is going 
on, everything, and you are our eyes and ears. And so that is 
why I am asking you to do it.
    So if you feel comfortable with making that rating or you 
can do the old A, B, C, D, F or what.
    Sir.
    Mr. Jenkins. Well, as a marine, I would like to take this 
first. As you may be able to relate to, a battalion commander 
does not do anything without talking to his sergeant major.
    Mr. Cook. Absolutely.
    Mr. Jenkins. And the way VBMS has been implemented, 
management saw this, but they did not speak to the people who 
are actually implementing it. And you cannot go to war unless 
your troops are ready. You can send somebody out there, but you 
are going to have a lot of body bags to fill.
    Mr. Cook. Not combat ready?
    Mr. Jenkins. Not combat ready.
    Mr. Cook. Thank you.
    Sir.
    Mr. Logalbo. And, yes, I do agree with Mr. Jenkins as well, 
is you need to speak to the folks on the ground. You need to 
speak to the RVSRs. You need to speak to the VSRs. You need to 
speak to the folks on the ground to get the input not only to 
go through some of the challenges with the system but also make 
the system that much better. So I agree in the same analogy.
    Mr. Cook. Thank you.
    Yes, sir.
    Mr. Hearn. The American Legion conducts regional office 
review visits periodically throughout the year and we have 
heard similar concerns by service officers and also by 
employees within VA. So, I mean, as far as recent months, I 
cannot say for certain if that shift has changed opinion. But 
over the last year, I would not say that it is combat ready at 
all, no.
    Mr. Cook. Thank you.
    Mr. Hearn. Thank you.
    Mr. Cook. Yes, sir.
    Mr. Hall. Well, as you know, especially in combat, if you 
do not have effective communication, somebody is going to die. 
So from a combat ready perspective, I would say this. There is 
a lot of positives going on in VA as my testimony points out, 
but combat ready and putting it in that terms, I would not send 
it.
    Mr. Cook. Thank you, sir.
    Yes, sir.
    Mr. Manar. I have to agree with my colleagues. VA is doing, 
despite the negative nature of my oral testimony, VA is doing 
many things simultaneously and they are working hard. They are 
doing a lot more than any of their predecessors ever did, but 
we are not ready for prime time.
    Mr. Cook. And, by the way, I appreciate your candor. And to 
do this, that is a tough question to respond to. And as I said, 
I appreciate that.
    What I would also like in the remaining time, not right 
now, but if your organizations that you represent, I do not 
want a five, ten-page analysis of this, I basically want 
something very, very simple, five things that are working 
correctly, five things that are not working correctly, and five 
recommendations.
    Now, as I said, no acronyms. If you can put it in military 
jargon. You are dealing with Paul Cook here. I am not a rocket 
scientist. But by doing that, and I try to do this when I talk 
to veterans and what have you, and it is like you got to talk 
to the troops and you got to put it in the language of the 
troops, and then you can do something in the language of the 
troops.
    Thank you.
    Mr. Runyan. I thank the gentleman.
    With that, I recognize Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I first want to thank you and the ranking member for your 
leadership on this committee. The fact that we are hearing from 
all the folks who are in the front lines on these issues, the 
VSOs who are helping out, their members and other veterans to 
make sure that they have the advocacy necessary to complete 
their claims, get a reasonable response in a reasonable amount 
of time including coming up to Congress to testify is greatly 
appreciated.
    Hearing from those who are actually working within the VA 
on the front lines is also appreciated, and then to have that 
followed up by our representatives from the VBA is great. So I 
really appreciate the format and the content of this hearing.
    And I want to follow-up on Mr. Cook's request and just ask 
that as you respond to him, you respond to everyone on this 
committee. We could all benefit from the response and the 
experience and wisdom that you can share with us. So I look 
forward to getting that.
    I wanted to thank you for the very critical but I think 
very constructive feedback on where we are with the VBA right 
now.
    And to Mr. Manar, I think you essentially made the point in 
your testimony that we are dealing within the confines of a 
zero sum game. And so if we prioritize resources to resolving 
the disability claims that are in need of a rating, we suffer 
in other key areas that VBA is working on. And we can put more 
resources into that system, but ultimately we are going to have 
to prioritize, decide what is important and what we are going 
to follow and look at.
    And you gave some examples of, I believe, if I am quoting 
you correctly, dependency claims going from 40 to 235 thousand 
outstanding.
    Mr. Manar. That is correct.
    Mr. O'Rourke. I am looking at the IDES backlog for soldiers 
who are transitioning out and I especially think of those who 
are at Fort Bliss in El Paso, Texas at the WTU who are 
languishing when we have, I believe, a 15-day goal that is now 
averaging 143 days before we can get a response. So those are 
some other examples.
    But given that system, how would you better prioritize the 
work that VBA is doing? If it is not correct to prioritize 
disability claims awaiting ratings over these other areas, what 
is the best way to do this?
    Mr. Manar. Thank you.
    First of all, it is important to recognize that until the 
last five or six years, seven years, VBA was chronically short 
changed over decades in terms of staffing it needs to process 
claims. One of the reasons why the workload and backlog grew in 
the 1990s and then accelerated after the turn of this century 
is because of staffing levels that existed at least back into 
the 1970s. I hate to be a historian about that, but that is 
what brought us to this point in time, I think.
    Congress has done an awful lot to up the staffing of VA and 
they have made a lot of progress because of the additional 
people, FTE that you have given them. And all of us are 
grateful for that. More veterans have been served because of 
your actions than would have been without it.
    But that does not mean that VBA is staffed at the 
appropriate levels even now. Now we live in a world where there 
are tight budgets and I doubt that you all can scrape together 
a whole lot more people to give to VA to process claims.
    So to your question, what can VA do? It is a question of 
managing the workload. They have in terms of appeals, they have 
designated decision review officers and support staff in each 
regional office and, yet, because of their drive to work over 
two-year-old cases and then over one-year-old cases, many of 
those people have not worked a significant number of appeals 
in, well, it is going on a year, more or less.
    The Board of Veterans' Appeals is running out of appeals 
work to work as are staffed at the board because work is not 
flowing to the board. VA needs to release those people and let 
them get back to work.
    A business practice that has been ongoing which caused this 
drastic increase in dependency claims, VA for decades had this 
policy that you could not close out an end product on a rating 
decision until you not only notified the veteran about what 
they were going to get, but you worked every issue that was 
related to that including dependency.
    Well, what has been going on for the last three years is, 
and it may have started in the regional offices, but it has 
never been corrected by central office, to the best of my 
knowledge, and that what has been going on is that people have 
got to the point where they are notifying the veteran about the 
decision and they just roll that dependency issue over into a 
separate end product.
    And they do not deal with it. They have got the evidence. 
In most cases, they have got, you know, the marriage dates and 
birth certificates and all the rest of the stuff that they need 
to pay benefits, but they just roll over for another day. And 
that accounts for a large number of those things.
    But the problem is that managers are not managing their 
work. They are being driven by the directives of central 
office. This is what you are going to do and these are the 
goals that you are going to reach, and they are not allowed to 
do the things that they should have been trained to do and many 
of them want to do and that is to manage the work.
    In Reno, as an example, I learned just the other day fully 
developed claims which are supposed to be fast tracked average 
263 days in Reno to be completed and that if it is one or two 
issues, they will put them in a fast track lane. If it is three 
or more issues, then it just gets mixed in with the regular 
work.
    Well, what is the point of all of that? How does that help 
veterans? How does it help VA? You have got claims that are in 
many instances ready to rate at that point, to resolve, and, 
yet, you just throw them in the mix where they get older and 
older.
    Mr. O'Rourke. Mr. Manar, let me interrupt for just a 
minute----
    Mr. Manar. Sure.
    Mr. O'Rourke [continuing]. Only because my time is expired 
and it is obviously a question that deserves a longer answer 
than we have time to give today. And I would love ultimately to 
hear from everyone. If there is a second round of questioning, 
I will pose that same question to everyone else.
    But I really would like to know whether there, because you 
spoke a lot about process improvements, whether there is any 
wisdom to prioritizing certain workload over other workload 
within the VBA as it appears that we are doing to the point 
that you made earlier or whether it can be handled through 
other means.
    And so look forward to getting that back from the other 
panelists and also your recommendations per Mr. Cook's request.
    With that, I will yield back to the chair. Thank you.
    Mr. Runyan. Thank the gentleman.
    With that, I will recognize Mr. Ruiz.
    Mr. Ruiz. I would like first of all to thank you all for 
coming here and for being so honest in your assessment and 
willing to roll up your sleeves and get this fixed.
    At this point, I can yield my time to Beto O'Rourke so that 
you can get your answers from the other members.
    Mr. O'Rourke. I appreciate that. Thank you.
    If the other members of the panel would like to answer that 
question about prioritization of certain claims or work 
activities within the VBA over others, I would love to get your 
answer. Thank you.
    Mr. Hearn. Last year, The American Legion started working 
pretty heavily with VA and the White House on this FDC process. 
And one of the things that we discovered when we would go out 
to these different regional offices, and it was a common line 
that was used whether it was in Indianapolis or Oakland or 
Nashville, was if everything is a priority, then nothing is a 
priority.
    That was a line from the employees. That was not a line 
from a VSO. It was not a line from a department service 
officer. So there appears to be some consternation, and maybe 
Mr. Jenkins can explain that a little bit further, too, that 
even internally that there is not a recognition.
    We believe and we have bought in on this fully developed 
claim process. However, if, like what Mr. Manar said, if it is 
going to go into a 235-day chute to get the claim done, then it 
serves nobody any good.
    I mean, as far as we are concerned, if the veteran is 
giving everything to VA to rate the claim and it is ready to 
go, go ahead and make that a priority. I mean, I am really kind 
of surprised that it has expanded to that point in roughly 12, 
14 months.
    Thank you.
    Mr. Hall. Could I just elaborate on one thing that Zach had 
said and that is, you know, the FDC program, it is probably one 
of the more exciting things happening that is making a positive 
difference.
    And you can look directly at the Chicago VA regional office 
and see the time lines and how long it takes for a claim.
    At the same time, you know, I think VA's overall is 
somewhere near 25 percent of all claims are fully developed. 
But let's not forget they are fully developed because of the 
veteran and because of the VSOs. So we are doing a lot of the 
legwork, the majority of it, and presenting it to the VA where 
it makes their job much easier. We are happy to do that. We 
hope to gain even more of that.
    In DAV, our number of FDC claims is increasing more. I 
mean, that is what we do. Educate the client or the veteran to 
make sure that they know the most advantageous way to help them 
navigate the system, number one, but also tell them, listen, if 
you can do all of this, you are not going to have a year to 
wait. You will be much quicker in your decision, maybe 120 
days, depending on that RO.
    So that is something that needs to be constantly promoted 
not just through the VSOs to the people that we serve, but VA 
needs to do a much better job in getting that message out.
    Mr. O'Rourke. I do not know if anyone else would like to 
comment. I do want to follow-up on your remarks by saying that 
we had hoped that the VA would elect to administratively 
implement the Faster Filing Act, which recently passed the 
House of Representatives, which would require them to notify 
veterans and VSOs that are assisting them in filing their 
claims of the fastest response time based on the different kind 
of claims you choose.
    So I do not like the new rule making from the VBA and I do 
not like this forcing veterans and VSOs to use these 
standardized forms. I believe in empowering the VSOs and the 
veterans with the information being perfectly transparent and 
allowing them to make the decision that is in their best 
interest given what they are willing to do, realizing the 
average wait times.
    In El Paso where we recently had wait times up to 470 days 
to hear back from the Waco Regional Office, it is now down much 
lower than that. We wanted to be able to tell veterans if you 
file a fully developed claim and you file it online, you can 
get that back in under a hundred days on average and you are 
eligible for a full year's retroactive--retroactive benefits.
    I would love the VA to do a much better, more aggressive 
job of pushing that information out there. If we cannot get 
them to do it administratively, we hope that will become law 
soon and do exactly what you are asking us to do.
    I have got about 30 seconds left on Mr. Ruiz's time for 
anyone who would like to add.
    Mr. Logalbo. Yes, I would like to.
    And what we are discussing is how we are empowering and 
embracing the warriors and the veterans as we look forward face 
and helping them with claims. When you are actually out there 
as helping a warrior with a fully developed claim or guiding 
him through the process and teaching him how to navigate and 
understand the process, that is where you are going to get more 
buy-in and the claims are going to be done a lot quicker.
    When folks, as you see in Houston, when they reached out to 
a number of folks regarding appeals to clarify issues to be 
that forward-facing, veteran-centric focus, they were able to 
reduce time lines because now the veteran understands the 
process, the evidence needed. They work hand-in-hand not 
creating a process that is separate and distinct.
    Mr. O'Rourke. Thank you, and thank you for the responses.
    It looks like the time has elapsed. I guess parliamentarily 
speaking, I yield back to Mr. Ruiz.
    Mr. Ruiz. Thank you very much.
    Mr. Chairman.
    Mr. Runyan. The gentleman yields back.
    In the essence of time in getting to the next panel, I am 
going to ask all members to submit any additional questions for 
the record and we will ask the gentlemen to please respond in a 
timely manner and also please respond to the subcommittee with 
Mr. Cook's request. We would like to get that to all of our 
members here.
    So with that, thank you all for your testimony and your 
service, and you are now excused, and we welcome the second 
panel to the table.
    At this time, I welcome panel two including Ms. Diana 
Rubens, deputy under secretary for Field Operations, U.S. 
Department of Veterans Affairs, accompanied by both Mr. Richard 
Hipolit, assistant general counsel, and Ms. Lorraine Landfried, 
deputy chief information officer for Product Development.
    I also welcome Major General Richard Thomas, director of 
Healthcare Operations of the Department of Defense Agency or 
Department of Health Agency who is accompanied by Mr. David 
Bowen, director of Health Information Technology.
    We appreciate all of your attendance here today. Your 
complete and written statements will be entered into the 
hearing record.
    And, Ms. Rubens, you are now recognized for five minutes 
for your oral testimony.

STATEMENTS OF DIANA RUBENS, DEPUTY UNDER SECRETARY FOR FIELD 
    OPERATIONS, U.S. DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF DIANE RUBENS

    Ms. Rubens. Good afternoon, Chairman Runyan, Ranking Member 
Titus, members of the subcommittee. Thank you for the 
opportunity to discuss VA's transformation initiatives.
    I would like to start by providing an update on our 
progress in eliminating the backlog. During fiscal year 2013, 
VA completed a record 1.17 million claims with a 90 percent 
accuracy at the claim level and 96 percent accuracy at the 
medical-issue level. Since its peak in March of 2013, the 
backlog has been reduced by 35 percent and the overall 
inventory has been reduced by 22 percent.
    Also important, the average number of days rating claims 
have been pending has also been reduced, meaning that today, 
veterans are waiting 111 days fewer than they were last year at 
this time for a decision.
    None of this progress would be possible without the 
tremendous support from our partners, including this 
subcommittee, the remainder of Congress, our veteran service 
organizations, and, of course, our unprecedented effort and 
dedication of the VBA employees, 52 percent of whom are 
veterans themselves.
    I would like to update you on a few key initiatives. Our 
veterans relationship management initiative is providing 
veterans with seamless, secure, and on-demand access to 
benefits, information, and services. Veterans now have improved 
access to benefits information from multiple channels, on the 
phone, online, and through our shared VA DoD portal called e-
benefits.
    From fiscal year 2009 to 2013, the number of contacts with 
VA through these channels increased from 9.1 million to 56.3 
million. Currently VA has over 3.3 million e-benefits users 
representing a 51 percent increase from fiscal year 2012.
    Our stakeholder enterprise portal is a secure Web-based 
entry point that complements e-benefits and gives VSOs access 
to assist veterans with electronic claims submissions. Over 
1,200 registered users across 75 organizations can check the 
status of claims, review payment history, and upload 
documentation on behalf of the veterans they represent all 
within a digital environment.
    Our digits-to-digits initiative scheduled for 
implementation this fiscal year will enable VSOs to submit 
claims directly using their own claims management systems.
    Our Veterans Benefits Management System was deployed six 
months ahead of schedule in June of 2013. After development 
over the course of 18 months with side-by-side end users and 
our SMEs with programmers, we continue to monitor and solicit 
feedback from partners as well as end users.
    In December of 2013, VBMS entered generation three of our 
system development increasing system functionality, adding more 
complex automation capabilities, reducing dependency on legacy 
systems, and enabling the capability to accept veterans' 
electronic service treatment records from DoD through HAIMS so 
that STRs will be available for servicemembers separated after 
January 1st, 2014 when they file their claims.
    VBA also established our Veterans Claims Intake Program to 
streamline the process for receiving paper records and data in 
VBMS. As of January 10th of this year, VCIP had converted from 
paper and uploaded into VBMS more than 430 million images.
    As I turn to our national work queue, VA transitioning into 
a paperless process, we are in a better position to adopt a 
national workload strategy that is boundary-free and improve 
our capacity to serve veterans.
    In April of 2013, VBA's oldest claims initiative aimed at 
expediting decisions for veterans who had waited the longest, 
we redistributed claims across the Nation to best utilize 
resources of all regional offices. The success of this 
initiative demonstrates the potential for a national workload 
management strategy by optimizing every member of our VBA 
workforce.
    Our national work queue is being developed in a two-phase 
approach. In phase one, claims will be managed from a central 
location and routed, based on individual station capacity, with 
the first filter for a claim being the one in which the state 
where the veteran resides, as well as other national 
priorities. In phase two, claims can be routed to individual 
employees based on the nature of the claim and the skill set of 
the claims processor.
    Our employee performance standards are routinely evaluated 
and revised to keep pace with changes in process and 
technology. With VBA's transition to electronic claims 
processing, it is more important than ever to consider the 
impact of technology on employee performance and ensure that 
the expectations of our workforce align with the tools 
employees have to complete their work.
    Revised standards were most recently implemented in 2013 
and a further revision to VSR and rating VSR standards were 
last week presented to our national labor partners and is in 
the final stages prior to implementation.
    A recently proposed rule is intended to get benefits to 
veterans quickly with the most accurate decision possible. The 
rule would require claims to be filed on a standard form and 
would require appeals to be initiated using a standard form 
whenever one is provided for that purpose. The proposed rule 
does not require veterans file electronic claims in order to 
receive benefits.
    VA gave interested members of the public the opportunity to 
comment on the proposed rule from October 30th through December 
30th. We are currently carefully reviewing the 53 comments that 
we received from stakeholders and will be responding to them in 
accordance with the Administrative Procedures Act.
    While we know there is more work to be done to reach our 
goals, we know that the gains we are making in information 
technology and automation of our processes are critical. In 
going forward, we will need to sustain the resources for 
programs like VBMS in order to eliminate our backlog in 2015 
and achieve our quality goals.
    This concludes my statement, Mr. Chairman. I would be happy 
to entertain any questions you or other members may have.

    [The prepared statement of Diana M. Rubens appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Rubens.
    With that, I recognize Major General Thomas for his 
testimony.

                 STATEMENT OF RICHARD W. THOMAS

    Major General Thomas. Well, good afternoon.
    Chairman Runyan, Ranking Member Titus, distinguished 
members of the subcommittee, thank you for the opportunity to 
discuss the department's successful implementation of a new 
capability which claims adjudicators may electronically request 
and receive complete electronic DoD service treatment records, 
or STRs, for newly separated servicemembers.
    I would also like to recognize and thank the previous panel 
members, the VSO members for their continuing service to our 
country.
    I am accompanied today by Mr. Dave Bowen to my left, the 
chief information officer for the military health system, and 
this oral statement is provided on behalf of both Mr. Bowen and 
myself.
    Just last month, the DoD delivered on our commitment to 
make certified, complete, electronic STRs available in support 
of the Veterans Benefits Administration's transition to a fully 
digital environment for claims processing.
    We are now providing the VA with access to electronic STRs 
for servicemembers who separated or were discharged after 
January 1st, 2014 in our Health Artifact and Image Management 
Solution, or the HAIMS, repository.
    Now, to achieve this goal, the DoD significantly revised 
our HAIMS deployment strategy. Working closely with our VA 
partners, the DoD established a tiger team of experts to plan 
and develop the required secure system interface needed to 
allow the VA to query the HAIMS repository for relevant STRs. 
Now, this tiger team is critical to ensure that the resulting 
solution would align with the disability benefits claims 
adjudication workflow.
    Now, the process for digitizing a servicemember's STR and 
making it retrievable by the VBA begins with the DoD personnel 
scanning any paper-based elements of a newly separating 
servicemember's service treatment record. The digitized STR 
comprised of both scanned information and existing digital 
content from the servicemember's DoD electronic health record 
is then submitted into the HAIMS repository and made available 
to the VA as a single record.
    When a separated servicemember or a veteran files a claim, 
a VBA claims adjudicator then establishes a claim in the 
Veterans Benefits Management System. The system initiates an 
automated request for the STR and when the requested record has 
been located and retrieved, the system alerts the claims 
adjudicator that the STR is available to support the claims 
process.
    The process I just described supports probably the most 
important contribution the DoD makes to the VA's effort to 
expedite the claims processing for our veterans. By providing 
the VA with the complete, certified, electronic STRs at the 
point of a servicemember's separation, the DoD helps to ensure 
the claims adjudicators have the military service-related 
healthcare evidence needed to adjudicate a VA disability claim.
    Now, we are quite pleased with the successful and ongoing 
collaboration with our VA colleagues to deliver this needed 
service to our veterans.
    Chairman Runyan, Ranking Member Titus, and distinguished 
subcommittee Members, this concludes my oral statement. Mr. 
Bowen and I would be happy to answer any questions that you or 
the subcommittee members may have. Thank you.

    [The prepared statement of Richard W. Thomas appears in the 
Appendix]

    Mr. Runyan. Thank you, Major General Thomas.
    And with that, I will start a round of questioning, and my 
first question is for Mrs. Rubens.
    Although in your introduction to testimony you note that 
veterans may submit claims electronically through e-benefits' 
Web site, you glossed over the recent e-benefits system defect 
in which thousands of veterans may have had their personal 
information broadcast to other users.
    Have there been any other problems such as outages, 
glitches, or information compromises associated with the VA's 
e-benefits portal since the most recent breach of the veterans' 
personal information on January 15th of 2014?
    And I know for a fact yesterday there was actually an 
outage of e-benefits because I received it about 4:40, 4:45 
last night. So I would like to hear your response to that 
question.
    Ms. Rubens. Mr. Chairman, thank you.
    Obviously we take very seriously the security of our 
personally identifiable information of our veterans. Ms. 
Landfried is prepared to speak to the specifics of last week, 
but I will tell you that we continue to work very closely from 
a business and OIT side as we identify these kinds of issues.
    Ms. Landfried.
    Ms. Landfried. Thank you.
    First, before I start, I would like to apologize to any 
servicemember, any veteran, or their family member who may have 
had their information viewed by another veteran who was on the 
system on the evening of January 15th. We hold ourselves to a 
very high standard in the Office of Information Technology and 
during that incident, we did not meet that standard.
    The specifics of what happened, we were doing an update to 
a system that feeds into e-benefits. We completed the update. 
After an install, we verify to see if it is working. During 
that verification, we discovered that users on the system were 
able to see information about other users.
    As soon as we found out that the newly installed software 
was the cause, we removed that software from the system and 
verified that the potential to see another person's information 
while you were viewing your own no longer existed.
    Then as a further precaution, we took the e-benefits system 
offline so that we could do a review end-to-end to make sure 
that there were not any other vulnerabilities. We waited until 
that Sunday morning to bring the system back online working 
with our VBA colleagues to make sure that when we did bring the 
system online that the VBA call center was staffed. Even though 
it was on a weekend, we did this just in case any of the 
veterans using the system coming back online had any questions 
or concerns or saw anything out of the ordinary.
    Mr. Runyan. Have there been any other issues? The committee 
received notification of an outage as of last night, so what 
are the other issues?
    Ms. Landfried. The incident last night, although e-benefits 
was impacted, it was actually an issue at the Austin data 
center with domain controllers. If users were able to refresh 
their browser a few times, the issue cleared. The duration of 
the impact really was dependent on how long it took for that to 
reset.
    So the issue was not with the e-benefits system, but to an 
end user that does not really matter because they were not able 
to get to the system at the exact time that they needed it.
    Mr. Runyan. A department official also stated that up to 
5,351 people may have been affected by this defect. How was 
this number determined and is VA confident that this number is 
accurate?
    Ms. Landfried. Sure, I will take that. Yes I am confident 
that that number is accurate. Whenever there is an incident, as 
I explained the first thing we look at is, what was the cause, 
so that we can get systems back and operational for VBA and our 
veterans.
    As soon as we did that and determined that we had stopped 
the problem, we then examined all of our audit logs so that we 
could determine exactly who was on the system at the time that 
the incident occurred and what functions they were using. The 
problem was contained to four or five functions on the system, 
so it was not every system or every function that you could get 
to on the e-benefits portal.
    I am confident in that number because that is the maximum 
number of people who were on the system at that time. They were 
the maximum number of people who could have potentially viewed 
another veteran's information.
    According to, all of the logs that have been examined at 
this point, the actual number of veterans whose information was 
potentially seen by another veteran on the system was 1,362.
    I failed to mention before that, whenever there is a 
potential Pll loss there are two things that we do at the 
department. One is, we communicate it. We notify Congress. We 
work with our VSO partners to get the message out to them. I 
put out a blog post.
    And then in parallel, we have a data breach core team that 
looks to make sure that all of the material is complete and 
then determines what the remediation should be for the people 
that were potentially impacted.
    Mr. Runyan. Thank you.
    With that, I will recognize the Ranking Member, Ms. Titus.
    Ms. Titus. Thank you.
    I would like to continue that, Ms. Landfried, if you do not 
mind. I appreciate what you do when a problem like that 
happens, but I would ask you two things. One is, has that data 
breach team completed its investigation and made any 
recommendations, and what safety provisions have you put in 
place to keep this from happening again?
    Ms. Landfried. Sure. First of all, the data breach core 
team is wrapping up their review and they have begun the 
notification process. Letters have started going out to the 
impacted people, and part of the remediation that has been 
offered is how to get free credit monitoring in the event that 
any of the information that was viewed by other people on the 
system falls into the wrong hands.
    In terms of how we respond to the event, as Ms. Ruben said, 
we take very seriously our obligation to protect veterans and 
their personal information as if it were our own. So we have a 
multilayered defense in place to combat, you know, whatever the 
issue might be.
    That includes monitoring outside the VA network by external 
partners; monitoring internally of the VA network; monitoring 
of our servers, our applications, as well as desktop devices. 
It is sort of a defense in-depth type of strategy to make sure 
that information is protected to the best of our ability.
    Ms. Titus. So is it just back to business as usual or are 
you putting in place something new to keep this problem from 
recurring?
    Ms. Landfried. With this particular problem it was a 
combination of events that happened. There was the software 
that we put in that did not behave which caused e-benefits to 
expose information that it shouldn't have. We have put 
additional error handling in e-benefits to make sure that 
should it ever see that same error condition, that we won't 
have that same condition.
    We have also reviewed all of our other applications that 
have similar features to make sure that they also have 
appropriate error handling in case they ever encounter this 
problem.
    Ms. Titus. Thank you.
    Now, I will go back to my previous problem which is the 
brokering of cases. I know in Reno 5,000 cases have been 
brokered to other places around the country. And my question 
is, that is kind of lipstick on a pig. I mean, you are dealing 
with the symptoms, but not the causes of the problem. Now, in 
the short term, those 5,000 cases may get decided quicker, but 
still there is a problem at the Reno office if they couldn't 
handle it.
    Also, I wonder, does a case have to get to be stale or get 
to sit around for a long time or almost be at the status of 
being part of the backlog before it is brokered? You know Reno 
is not going to be able to do it. Why don't you just broker 
those cases up front and then figure out some way to fix the 
Reno office? Would you answer that for me.
    Ms. Rubens. Sure. Thank you, ma'am.
    I understand your concern that brokering them out is not 
necessarily addressing the issues that we have got in Reno and 
I want to assure you that we are doing two things.
    First and foremost, obviously, is working to get veterans 
who have been waiting the longest their decisions, and at the 
same time, working with the Reno regional office to ensure that 
we are maximizing the efficiency and ensuring the 
accountability throughout the chain so that the work being done 
in Reno continues to work. They have got great quality today, 
but also work to improve timeliness and output to ensure that 
they are capable to providing the service to the veterans of 
Nevada.
    We will continue to use that approach so that we are, one, 
taking care of veterans, and, two, ensuring that the systems 
that are in place in Reno are working the way that they should 
to improve the output in the performance of the Reno regional 
office itself.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Runyan. I thank the gentle lady.
    With that, I recognize Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Ms. Rubens, thank you for your answers so far and for being 
responsive to me and to our office, accompanying us to the Waco 
regional office to look at the backlog issue there, which, as I 
noted earlier, has gone from something like 470 days on average 
to, I guess, close to 250, which is not yet near where it 
should be, but much better than where it was. And so we hope 
that it continues to move in that direction.
    I have three questions that I hope to be able to get you to 
answer today. There are so many issues brought up by the 
representatives from the VSOs and the gentleman from the AFGE, 
but one that I want to focus on is the assertion made by Mr. 
Manar that in prioritizing disability claims that need to be 
rated, we are not committing the necessary resources to take 
care of other critical VBA responsibilities. He mentioned a 
few. I mentioned a few in my response to him.
    Could you comment on that and let us know whether or not 
that is the case?
    Ms. Rubens. Thank you, sir.
    And I would tell you that as we are prioritizing not only 
the aging claims, I will remind us all that we also 
established, of course, those priorities for the Congressional 
Medal of Honor recipients, our former POWs, homeless, terminal, 
extreme financial hardship, as well as our fully developed 
claims, in an effort to ensure that we were addressing all of 
those.
    When you talk about the fact that we had a record year for 
claims processed in the rating bundle, I would draw to your 
attention that we have also had a record year for the number of 
non-rating claims that we completed, and so I would tell you 
that we are continuing to work, whether it is across non-rating 
or appeals work to ensure we are accomplishing work across the 
spectrum.
    I know we talked at some length about where we are at with 
our IDES work. I would tell you that VBA has also worked to 
improve the outcomes on behalf of those servicemembers going 
through the IDES program. Our Seattle regional office is 
processing for the army. We have added resources, 180 folks 
last year, and, of those, we recently promoted and sent to 
training another 36 rating specialists who are going to make 
those decisions on the claims on both preliminary and final 
ratings in the decisions, working with the army to agree on our 
approach as to how we work towards those claims. And so we are 
taking a holistic approach and working all of the veterans' 
claims.
    Mr. O'Rourke. So if I could just summarize it to a one-word 
answer, it would be, no, we are not suffering in other areas 
for prioritizing the disability claims and the other issues 
that you raised?
    Ms. Rubens. Correct.
    Mr. O'Rourke. Okay. How would you then explain how far off 
the mark we are when it comes to IDES, and I realize the steps 
that you just outlined that you are going to take to rectify 
the problem, but if our goal is 15 days and we are at 143 days, 
how did that happen and how soon or can you make a commitment 
to the date on which we will be back to 15 days or get to 15 
days in the first place?
    Ms. Rubens. So I would tell you that the outcome of being 
as far behind as we are is a number of issues to include our 
inability to keep up with the surges in work that we began to 
receive through the IDES program. As we made those adjustments, 
our ability to turn claims processors from other work and into 
the IDES work and get them trained up is something that has 
taken us some time. We are very much engaged in doing that.
    We have plans in place that will get us for both pre-lim 
and final decisions caught up by March and October of this year 
in conjunction with the agreement that we have got with the 
army. I have continued to have regular and ongoing calls with 
our folks in Seattle to ensure that we are working to those 
goals and we continue to anticipate meeting them. We have also 
used some resources from our Providence IDES processing center 
to help back down that time and age for our army participants 
in the IDES program.
    Mr. O'Rourke. And to put a point to it, we will be at 15 
days at what point?
    Ms. Rubens. So I guess the 15 days, if I recall, really is 
the up-front component and there are pieces of the IDES program 
that start with the claims intake, the getting the exam 
accomplished. And I would like to make sure that I am referring 
to the right target of 15 days with you so that I am not 
misleading you.
    Mr. O'Rourke. The VA has two parts of this; the Department 
of Defense has the rest. I am looking at the VA rating which is 
one of those parts which--the first VA rating which has a goal 
of 15 days. The actual in the case that we are looking at is 
191 days. The Army average is 143 days. That is the one I want 
to know when we are going to be able to get to our goal.
    Ms. Rubens. So as we work to the agreement with the army 
about which we would, I will say tackle first, we determined 
that we would complete the final rating initially. Those are 
the servicemembers who have gotten not only the preliminary 
from us, but finished the work with the army on the MEB/BEB 
process. That target is March and it is August of this year 
that we are targeting the preliminary rating in 15 days.
    Mr. O'Rourke. Okay. And then we won't have time for your 
response because I have run out of time, so I will just pose my 
third question as an appeal. You heard from the VSOs in terms 
of their feelings about the standardized form, and I understand 
the logic behind implementing that and the rule, but I think 
you have heard about the discomfort and distress and the 
disservice that we might end up doing to our veterans with that 
rule. So I would appeal to you to use something like the Faster 
Filing Act to allow veterans, VSOs to file a claim in whichever 
way they think is best.
    But make sure that we are very transparent with the 
information about how soon that claim is likely to be resolved 
based on current trends, which, again, you can elect to 
implement administratively. The VA has chosen not to, so the 
legislation has passed the House. Before that becomes mandated 
by law, we just appeal to you to implement that 
administratively. I think that could do a world of good given 
how much harm we fear this rule may do.
    So, with that, I will yield back to the chairman.
    Mr. Runyan. I thank the gentleman.
    With that, I recognize Mr. Ruiz.
    Mr. Ruiz. Thank you all for coming today and thank you for 
your efforts in trying to fix this problem. I am interested in 
the e-benefits program and initiative and I am assuming that 
this program will allow users to file and follow their claims 
from their own home, correct, Ms. Rubens?
    Ms. Rubens. Yes, sir.
    Mr. Ruiz. Okay. So the whole purpose is to have our 
veterans log on so they can have an easier way to file and 
follow their claims.
    So what are you doing to train and educate our veterans and 
our volunteer veteran service officers and those in the 
community who work with veterans to utilize this e-benefits, 
and how is it getting all the way into the community at the 
grassroots level?
    Ms. Rubens. Terrific. Thank you very much.
    And, yes, in fact, we believe that e-benefits is going to 
give us that, and our veterans, frankly, that simpler process 
for them to come in online, upload documents, check their 
status of claims, as well as 58 other self-service initiatives.
    As we work to get the word out, frankly, it has been an 
across-the-board push educating--starting here with members of 
the committee and staff, with our VSO partners, and press 
releases, as well as information that we regularly post up 
online.
    Any outreach event, frankly, sir, that we go to, we also 
have members, whether it is from our benefits assistance 
service here in Washington or our regional offices across the 
country, out at those outreach events with an e-benefits site 
working to get folks informed about e-benefits, and for those 
that are not registered for a premium account so that they can, 
in fact, make use of all of those online services.
    Mr. Ruiz. A lot of our veterans are more senior and not 
very computer savvy, so they would require some hands-on 
training walking through with computers. Do you have those 
training workshops, not just lectures or panels or flyers, but 
actual training for veterans?
    Ms. Rubens. So I would refer back to the veterans who 
participate in our outreach events. If they come in, we will 
work with them to show them, whether that is in our outreach 
event or in our regional office, to show them how to get into 
e-benefits and use it. I would tell you we are very much 
engaged and our VSO partners have been awesome in helping to 
ensure knowledge about e-benefits and utilizing e-benefits is 
there.
    Also, for our veterans who are not computer literate, as we 
continue to build that functionality for our stakeholder 
enterprise portal, it will allow our VSO partners who hold 
power of attorney for those veterans to come in and submit 
claims online on behalf of those veterans who are not computer 
friendly.
    Mr. Ruiz. Now, we are starting a veterans university in our 
district where we are going to train and educate a lot of our 
veterans and our veteran service officers in the area to really 
help them learn the system and learn what they qualify for and 
train them on how to help other veterans.
    I would like to invite your experts into the district to do 
a series of these for our VFWs, our American Legion, and our 
other VSOs, and our veterans in my district so that we can help 
them access their claims better.
    Ms. Rubens. Wonderful. We would like to be at any outreach 
event you might hold.
    Mr. Ruiz. Okay.
    Ms. Rubens. Great.
    Mr. Ruiz. Thank you.
    I yield back my time.
    Mr. Runyan. I thank the gentleman.
    With that, I am actually going to have another round of 
questions. We are going to have votes here pending in the next 
five, ten minutes maybe.
    I have two questions, one for Ms. Rubens and one for Major 
General Thomas, and I will start with Ms. Rubens because some 
of the VSO testimony contradicts some of the things you 
actually said in your opening statement. All of the VSOs had 
testimony that contained some negative feedback on the proposed 
rule to require the use of standardized claims forms.
    In part, some of these concerns include the elimination of 
all informal claims, the creation of a new, arbitrary--burden 
on claimants to submit a completed claim suggesting that the VA 
will not work a claim until the veteran complies with certain 
bureaucratic hurdles.
    Can you explain from the department's perspective how this 
new rule would benefit the veteran?
    Ms. Rubens. Thank you, Mr. Chairman.
    And I will start and if Mr. Hipolit has something to add, I 
will turn to him. I will tell you that organizationally VBA 
continues to look at how do we gain efficiencies in processing 
claims because we think that will help us process claims more 
quickly and to a higher degree of quality for our veterans if 
we can readily identify the veteran and the issues claimed in 
evidence that is either available or attached.
    To that end, we have gone through the regulation proposal. 
We have gathered 53 sets of comments, many from our VSO 
partners, and many with great, thoughtful information that we 
are going to cull through very closely. And as we work to 
publish the final rule, obviously, we will work to address 
every one of those comments.
    Mr. Hipolit, is there something that you might add to that?
    Mr. Hipolit. I would just like to add that although the 
proposed regulation would do away with the term informal claim, 
there are still certain aspects of the old system that would be 
preserved in the rule to the benefit of veterans, particularly 
in the electronic filing environment. If a veteran comes in and 
starts to develop a claim and has what we would call an 
incomplete claim under the rule, that would still serve to 
preserve their effective date.
    We have also made it clear that in cases where there is 
medical evidence that would allow an increase in benefits, a VA 
exam or whatever that could be the date of a placeholder that 
could then be the basis for an effective date if the veteran 
came in and filed a claim within a year there after.
    So some aspects of the old system are still preserved, even 
though the term informal claim is no longer used. As was 
mentioned, though, a lot of the VSOs did have concerns about 
the impact of the rule, and there may be changes to what has 
been proposed in a final rule.
    We have greatly appreciated receiving those comments. We 
are in the process of analyzing those in depth now and we are 
going to certainly take those into account moving forward.
    Mr. Runyan. Every single VSO that sat up there had a 
concern about it.
    I think, Mr. Hipolit, you have addressed it, and, Ms. 
Rubens, you have addressed it a little bit, but it is a concern 
that they all have. And just make sure when you go through the 
process that you are weighing concerns the way they should be 
weighed.
    My next question is for Major General Thomas.
    Both DoD and VA state in written testimony, the deadline 
for implementing HAIMS transfer of digital STRs to the VA was 
met, but at a the recent oversight visit, subcommittee staff 
was informed that there had been some complications with the 
rollout.
    Can you detail these complications and then state what has 
been done to fix those problems?
    Major General Thomas. Yes, sir, absolutely.
    You know, I think the initial rollout here is really to get 
the system to IOC or initial operating capability. They have 
goals and milestones to get to the FOC and there is a targeted 
date for that.
    And I know that, specifically, there were some issues 
working with the VA here to address a certain timeout issue 
affecting subscription service to obtain the--or to retrieve 
the full service treatment record.
    And I will defer to Mr. Bowen, if you want to give any more 
specific details about complications?
    Mr. Bowen. Yes, sir.
    Mr. Chairman, we do have some issues we are working 
through. They are involved around some of our workflow 
processes on the DoD side still needing to be refined. I know 
we have had one instance where a document was misclassified and 
so it showed up in the wrong section of the service record that 
transferred over to the VA, but, nonetheless, was there. The 
system worked as planned. We just put the document into the 
wrong section. So we are working on that.
    We have some issues around duplicate records showing up on 
the VA side. We are working through those issues. We believe 
that may be a user education issue on the VA, where the 
claimant has actually requested multiple times, so working 
through that.
    Teams are looking at the details of all of these issues. We 
are logging them. We are tracking them, and the teams are 
meeting every single day to work through these issues, research 
the problems, and get them resolved.
    Mr. Runyan. Thank you.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I would just ask Ms. Rubens how station targets are set for 
VA regional offices? We have discovered, of course, especially 
in Reno, that they are not being met. I wonder if those targets 
are realistic and what happens to hold offices accountable that 
do not meet those targets?
    Ms. Rubens. Yes, ma'am. Thank you.
    Targets are based on the resources within each regional 
office. The expectation that a resource from one office will be 
equivalent to the resources in another office, and so from one 
RO to another, it is based on how many individuals they have 
working within the service center to make decisions. And I 
would tell you that in any instance where a regional office is 
not meeting its targets, feedback is ongoing and appropriate 
accountability measures are taken.
    Mr. Runyan. I thank the gentle lady, and thank all of you 
for being here with us today.
    The panel is excused. I appreciate the time and attention 
that went into preparing your remarks for today.
    VBA is moving forward in a positive direction with 
technological updates to its processes, but it is obvious that 
there will be continuing growing pangs along the way. It is 
frustrating when the department delivers a message that 
everything is going as planned when we know that is not always 
the case.
    Accordingly, I would ask you all to, again, keep 
communication open with this subcommittee.
    I would also ask unanimous consent that all members have 
five legislative days to revise and extend their remarks and 
include any extraneous material. Hearing no objection, so 
ordered.
    I thank the Members for their attendance today, and this 
hearing is now adjourned.

    [The Statement of Paralyzed Veterans of America appears in 
Appendix]

    [Whereupon, at 6:26 p.m., the subcommittee was adjourned.]
                                APPENDIX
                 Prepared Statement of Gerald T. Manar
Deputy Director, National Veterans Service Veterans of Foreign Wars of 
                           the United States
    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, I would like to thank you 
for the opportunity to present our views on the current status of 
Veterans Benefits Administration (VBA) transformation and secondary 
effects of VBA technology.
    The wide ranging focus of today's hearing on the status of VBA's 
transformation and intended and unintended consequences of these 
changes is both apt and timely. VBA is moving forward so quickly and on 
so many fronts to modernize its claims processing tools that it is only 
appropriate that all of us pause from time to time, and determine where 
the Department of Veterans Affairs (VA) is at in the process and 
examine the effects of this massive effort.
    While the VFW is both an observer of these changes and a 
participant in many of them, and we have some knowledge and 
understanding of all the topics you are interested in today, we will 
confine our comments to three issues which concern us the most: VA's 
national work-queue strategy within Veterans Benefits Management System 
(VBMS); how that strategy will affect VFW representational activities; 
and the recently proposed rule mandating electronic forms and its 
potential impact on veterans and veterans' rights.

VA's National Work-Queue Strategy

    VA has one of the most geographically diverse claims adjudication 
operations of any federal agency or department in the federal 
government. Claims processing occurs in VA regional offices found in 
every state. Several states have two regional offices; California has 
three. Regional offices also exist in Puerto Rico and the Philippines. 
In addition, claims processing has been further dispersed to other 
locations, including Sacramento and Orlando. Claims intake sites, and 
some claims processing personnel, are also located on scores of 
military bases around the nation.
    Even with this widespread diffusion of personnel, claims processing 
is still largely worked on by staff in the office with jurisdiction 
over the geographic area in which the veteran lives. Except for several 
counties in the southern part of the state, for instance, New Jersey 
claims are processed in Newark; claims submitted by residents of Nevada 
are processed in Reno; and claims from veterans living in California 
are adjudicated in San Diego, Los Angeles or Oakland. However, for at 
least 30 years, VBA has increasingly transferred cases from offices 
with high workloads to those more capable of processing the work more 
quickly--a process called brokering. VBA has developed tools to assess 
the capacity of offices to handle more work and moved the work to those 
locations.
    The VFW has often been critical of the practice of brokering work. 
All too often, VBA has chosen to move work around rather than address 
the problems extant in overburdened offices with overworked staff. 
Inadequate training, poor management and other factors have not always 
been addressed in a timely manner in order to fix known problems and 
ameliorate the need to transfer work to another office.
    Further, the practice of brokering work has the unintended 
consequence of undermining the ``ownership'' of claims that many VA 
employees feel, which has a subtle but real effect on the quality of 
development and decisions in cases not from their state. Poor quality 
of decisions in brokered claims has been a common complaint of veteran 
service officers and VA employees alike. While VBA claims that quality 
of brokered work is no different than work that is not brokered, the 
near constant cacophony of reports to the contrary makes us question 
VBA's claims.
    We are in the midst of a great and long overdue renaissance in 
claims processing technology. While we may still talk about the 
electronic transfer of claims from one office to another, the reality 
is that the only thing transferred is the authority to work a claim, or 
pieces of that claim, to an office other than the one with jurisdiction 
over it. For the first time in its history, VBA has the capability to 
develop a claim in Phoenix, rate a claim for PTSD in Pittsburgh and 
evaluate the other claimed conditions in Jackson. The question is not 
whether they can do this. It is, rather, how they can do this while 
ensuring that veterans receive quality correspondence from Phoenix and 
legally correct decisions from Pittsburgh and Jackson.
    The VFW generally supports VBA's modernization efforts, recognizing 
full well that in order to be effective, it must take advantage of all 
the resources and assets it has available to it. The VFW has worked 
with VBA administrators, innovators and contractors over the past three 
years, often on a daily basis. The VFW, along with other major Veteran 
Service Organizations (VSOs), have cooperated with VBA by providing not 
just our time, ideas and observations, but also by providing personnel 
to work side by side on specific projects.
    Even though we are living through an unprecedented period of 
cooperation and transparency, we find that significant gaps exist in 
what we are allowed to see and comment on. For instance, other that 
talking to us about the vision of developing a national work-queue, of 
truly nationalizing the work to more effectively deal with workload 
peaks and valleys, VBA leadership has not yet presented us with a 
coherent picture of their vision nor have they sat down to explore with 
us how representatives from veterans service organizations fit into 
that plan.

Impact of A National Work-Queue Strategy on Service Organization 
Representation

    Over the past few years, as the major VSOs sat with VBA personnel 
and contractors to discuss how accredited service officers will access 
and use VBMS, SEP, D2D and other programs, they often seem confounded 
and occasionally confused by the divergent business models that exist 
between VSOs. There are two basic business models between the major 
VSOs. The VFW and the American Legion service programs generally follow 
a federal model: most representational activity is performed at the 
local regional office level by service officers employed by the 
respective organizational Departments or states. For instance, the VFW 
Department of Michigan employs the VFW service officers who work in 
Detroit. While the national VFW contributes to Michigan's service 
program, the employees do not work for the national organization.\1\
---------------------------------------------------------------------------
    \1\ The national VFW employs service officers at the Board of 
Veterans Appeals supporting claimants who have appealed to the BVA. 
Other national service officers work at over 16 military installations 
helping service members understand VA benefit programs and, where 
appropriate, file a claim for compensation.
---------------------------------------------------------------------------
    This business model works best when local service officers work 
with and support local veterans and other claimants. The claims are 
worked in the regional office where they are collocated which allows 
them to develop professional relationships with local VA personnel. 
This close proximity allows them to get problems corrected quickly and 
informally, helping veterans receive the benefits to which they are 
legally entitled and avoiding unnecessary appeals.
    Other VSOs, such as the Disabled American Veterans and the Military 
Order of the Purple Heart, employ a cadre of national service officers. 
While these service officers may be stationed in the various regional 
offices, they work for the national organization. The national 
organization in this business model may find it easier to repurpose or 
redirect their service officers and can tell them which cases they are 
to review regardless of geographical boundaries. While there are 
significant differences in these two business models, under the current 
work processing system employed by VA, both models work similarly. In 
both, local service officers assist claimants, review decisions made by 
VA and work to get mistakes corrected without the need to appeal.
    Today the work queue provided to service officers only shows the 
work in the office where they are situated. While the service officer 
can search for a specific claim and view whatever information is 
available in VBMS and Virtual VA for any case in the VA system, they 
must do this on a case by case bases since the current work queue does 
not show work outside the geographical boundaries of the office in 
which they work.
    There are over 4,000 Illinois cases brokered from the Chicago 
regional office to other offices around the United States. Our service 
officer currently has no way to obtain a list of all Illinois VFW cases 
being worked in another VA office. Although he may have helped many of 
these claimants file a claim with VA, he is unable to identify which 
cases have been brokered or what is being done with them unless he 
searches these cases one by one. VA can and should do better.
    Under a national work-queue plan, VA must accommodate the service 
organizations which have represented veterans for decades. It is not 
enough to allow service officers in Detroit to review a file and rating 
for a claim brokered to Detroit from Fargo. VA must allow the service 
officer in Detroit to review a Michigan claim which was developed three 
states away and rated in Utah. VA is developing this capability for its 
claims personnel. It is critical that VSO service officers are not left 
behind.
    This, then, comes full circle to our previous comments about VBA's 
failure to sit down with VSOs, discuss the needs of each service 
organization, explore in a robust and frank manner how VBA systems can 
be modified to allow for the various business models employed by the 
various VSO's and then commit to making these system changes concurrent 
with developing a national work-queue.

VA Proposed Rule AO81-Standard Claims and Appeals Forms

    VA published a proposed rule on October 3, 2013, which caught the 
attention of the veteran community. Disguised as a proposal to require 
claimants to complete standardized forms, it actually proposed to:

        <bullet> Eliminate all informal claims----
        <bullet> Create a new and arbitrary burden on all claimants to 
        submit a ``complete claim'' before VA is required to take any 
        notice of a claim.
        <bullet> Advance the concept that VA will work no claim until a 
        veteran first complies with every arcane bureaucratic 
        requirement it creates.

    The comments of the VFW, along with over 60 other responses, were 
submitted by the December 30, 2013, deadline. Every major veteran 
service organization, and virtually all of the other respondents, 
opposed these changes.
    Over the past five years, the VFW has been generally supportive, 
both publicly and privately, of the focus and vision of both Secretary 
Shinseki and Under Secretary for Benefits Hickey. Together they have 
accomplished more, and advanced VBA further than all of their 
predecessors for at least the previous decade combined. However, we 
have become increasingly concerned over the past year that the focus on 
achieving the Secretary's goals of ending the ``backlog'' by 2015 and 
achieving 98 percent accuracy in claims processing has taken on a life 
of its own; that the goal is no longer to help all veterans but to 
create the appearance of success by changing the playing field.
    These regulatory proposals change the playing field for veterans. 
In order to force them to use specifically designated forms, VA makes 
it demonstrably harder for veterans to begin a claim. Under current 
law, a claimant need only submit a communication to VA indicating his 
or her intent to file a claim for one or more benefits. If a formal 
application is not of record, VA is obligated to send the claimant an 
application to complete. The claimant has one year in which to return 
the completed application. If benefits are awarded, benefits may start 
as early as the date of receipt of that first communication.\2\ 
---------------------------------------------------------------------------
    \2\ ``Any communication or action, indicating an intent to apply 
for one or more benefits under the laws administered by the Department 
of Veterans Affairs, from a claimant, his or her duly authorized 
representative, a Member of Congress, or some person acting as next 
friend of a claimant who is not sui juris may be considered an informal 
claim. Such informal claim must identify the benefit sought. Upon 
receipt of an informal claim, if a formal claim has not been filed, an 
application form will be forwarded to the claimant for execution. If 
received within 1 year from the date it was sent to the claimant, it 
will be considered filed as of the date of receipt of the informal 
claim.'' 38 CFR 3.155(a)
---------------------------------------------------------------------------
    If these changes go into effect, that first communication can no 
longer act as an effective date, nor does it compel VA to respond to 
the veteran. VA may eventually send a letter to the veteran stating the 
communication was received. However, VA will not take any action until 
the veteran fully completes and returns a required form. Omission of a 
single required entry means that the veteran has not submitted a 
``complete claim'' and VA will continue to do nothing.
    While surely not intended by Secretary Shinseki, the implementation 
of these changes will result in substantial delays in veterans being 
able to file a ``complete claim'' and a substantial reduction of 
benefits because the date of claim is delayed by months while veterans 
are forced to comply with arbitrary administrative requirements. The 
backlog will be reduced, not because VA is more efficient, but because 
it tells thousands of veterans that they have not filled out VA forms 
to its satisfaction. Because a date of claim is not established until 
VA accepts an application as ``complete,'' veterans will lose months of 
benefits. These proposed changes are not in keeping with the veteran 
friendly laws enacted by Congress over the last four score years.
    The VFW believes that there is an alternative to this draconian and 
heavy handed approach. The acceptance of an informal claim in the 
absence of a ``complete claim'' does not harm VA. It is nothing more 
than a place holder. If a claimant submits a ``complete claim'' within 
one year, then VA can use the date of receipt of the informal claim as 
a possible effective date as is currently allowed by law and 
regulation, allowing VA to obtain the data it wants from claimants in 
the form it wishes to receive it, regardless of the initial informal 
claim. However, claimants are not harmed because, under current law, 
they have one year in which to submit a claim form satisfactory to VA.
    The authors of these proposed changes must believe themselves to be 
clever, because while doing away with informal claims they create the 
concept of an ``incomplete claim'' only for claims started 
electronically. Incomplete electronic claims can be completed at any 
time within a year after they are started, and VA may use the date the 
claim was started electronically as the date of claim. They create a 
special incentive for claimants who are aware of, and comfortable with 
the online application process. VA elects to penalize claimants who do 
not have a computer, access to the Internet, an e-Benefits account, or 
just like to sit at the kitchen table and complete a paper form.
    It is strange that VA chooses to not just incentivize the filing of 
an electronic claim; instead they have decided to penalize veterans who 
write a letter or fill out most of a prescribed form by delaying the 
start of any earned benefits by many months. The Internal Revenue 
Service incentivize Americans to file electronically by processing 
refunds with lightning speed. However, they do not reduce a refund 
simply because the filer chooses to send in a paper form 1040.
    VA has proven that it can process claims submitted electronically 
much faster than those received on paper. Many dependency claims filed 
electronically today can be worked in minutes while over 235,000 
previously filed paper claims continue to wait.\3\  What more incentive 
do people need? It is VFW's contention that these draconian measures 
are unneeded to encourage many thousands of veterans to file 
electronically.
---------------------------------------------------------------------------
    \3\ Monday Morning Workload Report, http://www.vba.va.gov/reports/
mmwr/, January 27, 2014. VA reported that dependency claims, controlled 
by End Product (EP) 130 totaled 235,189; 74.2 percent were pending over 
125 days. In the last 42 months the number of dependency claims has 
grown 474 percent from 40,990 in June 2010.
---------------------------------------------------------------------------
    There is one other consequence of the elimination of the informal 
claim. The Fully Developed Claim (FDC) program, created by VA to 
encourage veterans to accomplish all required development before 
submitting a claim to VA in exchange for expedited claims processing, 
will be dealt a severe and likely fatal blow. In Fast Letter 10-22, 
Fully Developed Claim Program (June 15, 2010), specifically addresses 
and endorses the use of informal claims in FDC claims. Veterans may 
notify VA that they intend to file a claim under the FDC program. VA 
acknowledges that notification and tells the veteran that they have one 
year in which to submit a complete FDC.\4\
---------------------------------------------------------------------------
    \4\ Fast Letter 10-22, Fully Developed Claim Program, June 15, 
2010, states in part: Consider any communication or action that shows 
intent to apply for benefits under the FDC Program as an informal FDC. 
[emphasis supplied] Upon receipt of an informal FDC: Advise the 
claimant to complete and return a formal claim within one year to 
receive benefits from the date of receipt of the informal claim.
---------------------------------------------------------------------------
    Implementation of the changes proposed by VA to eliminate informal 
claims will take away a major incentive offered to veterans for 
accomplishing their own development. Without the ability to file an 
informal claim, veterans stand to lose months of retroactive benefits 
if they chose to submit an FDC. We fully anticipate that veterans will 
decide that the cost of delay in filing a claim is too great. Without 
the ability to file an informal claim they will elect to file a 
standard claim and forgo the FDC program. Currently, over 27 percent of 
disability claims submitted to VA are accepted as Fully Developed 
Claims. Implementation of this rule will eliminate this vast savings of 
VA manpower overnight.
    The VFW does not oppose the use of standardized forms, nor do we 
oppose the required use of such forms in order to complete a claim for 
benefits. However, the proposed elimination of the ability to file an 
informal claim will have a profound impact on every veteran who does 
not or cannot use a computer to start a claim.
    This proposed rule will take away a basic and fundamental right 
that has existed for many decades. It unnecessarily increases the 
complexity of starting a claim with VA, and will substantially reduce 
the amount of compensation awarded to veterans and other claimants. 
Further, because VA will not count any attempt to file a claim until 
the veteran has filled out every form to VA's satisfaction, it will 
have the effect of reducing pending claims, making VA appear to be more 
efficient than it really is.
    The VFW opposes these proposed changes. We believe them to be 
unnecessary to accomplish VA's stated objectives and harmful to 
veterans and other claimants. We have talked to VA leadership about 
these proposed changes with little apparent result. We ask Congress to 
take action to protect the ability of claimants to file an informal 
claim, whether electronically or on paper.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions you or the committee may have.

Information Required by Rule XI2(g)(4) of the House of Representatives

    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>

                 Prepared Statement of Jeffery C. Hall
              DAV Assistant National Legislative Director
    Chairman Runyan, Ranking Member Titus and Members of the 
Subcommittee:

    On behalf of the DAV (Disabled American Veterans) and our 1.2 
million members, all of whom are wartime wounded and injured veterans, 
thank you for asking DAV to testify before the Subcommittee today 
regarding the current status of the many technological initiatives 
occurring in the Veterans Benefits Administration (VBA), including the 
Veterans Benefits Management System (VBMS) 6.0, Veterans Relationship 
Management (VRM), e-Benefits, Stakeholder Enterprise Portal (SEP), the 
work-credit system in an electronic environment, national work-queue 
strategy, and the potential impact of the proposed rule mandating the 
use of standardized forms within the Department of Veterans Affairs 
(VA). As the nation's leading veterans service organization (VSO) 
assisting veterans seeking disability compensation and other benefits, 
DAV has tremendous experience and expertise relating to the processing 
of claims as well as the various ways veterans may appeal adverse 
actions and decisions.
    Mr. Chairman, I recently had the opportunity to accompany DAV 
National Service Director Jim Marszalek on a visit to the Newark, New 
Jersey, VA regional office (VARO). As you may know, the Newark VARO is 
the only fully electronic regional office within the VA, also known as 
an ``e-VARO.'' All claims processing performed in Newark today is fully 
electronic and for all intents and purposes, completely paperless.
    Upon receipt of a claim for benefits on a standard VA Form 21-526 
by the Intake Processing Center (IPC), employees first check the system 
to determine if an electronic record already exists. If no electronic 
record exists, the IPC begins building the veteran's electronic file 
(e-File) by first establishing where the paper file is currently 
located and then requesting the file be sent to the scanning facility 
where it will be converted digitally and become the base of the e-File. 
IPC employees then input the basic information from the paper claim 
into a newly created VBMS record, including the specific contentions or 
issues being claimed. Based upon the number and/or complexity of the 
issues being claimed, IPC employees then assign the claim to one of the 
corresponding processing lanes: Express for one or two issue simple 
claims, Core for most standard claims with less than eight issues, and 
Special Ops claims with more than eight issues or complex claims, such 
as post traumatic stress disorder (PTSD), military sexual trauma (MST), 
or traumatic brain injury (TBI). After the IPC has created the VBMS 
record, the paper claim is sent to the centralized scanning facility to 
be converted digitally in the same manner as the paper claims file.
    For veterans who visit the Newark VARO wishing to file a claim, 
computers are available so the individual can create an e-Benefits 
account and file their claim electronically. Help is available if 
needed. Should that individual have paper evidence to submit along with 
the claim, it can be scanned and uploaded in Newark or it may follow 
the same path as above, being sent to the scanning facility, depending 
on the amount of the paper evidence. Clearly, for those submitting 
claims electronically via e-Benefits, the less cumbersome initial 
processing is for VBA. For veterans who want DAV to represent them and 
file their claim through SEP, we also begin that process by having them 
establish an e-Benefits account.
    Once the now electronic claim has been received in the 
corresponding lane by an assigned Veterans Service Representative 
(VSR), development can begin. Each day, the VSR opens his or her work 
queue, selects a case, and begins undertaking the necessary 
development. The VSR may be requesting service or private treatment 
records, a VA physical examination and Disability Benefits 
Questionnaire (DBQ), or other necessary development. Not only does this 
assist greatly with organization during claims development and working 
with the veteran's information, it provides tremendous benefit in 
productivity and output, having everything electronic and at a person's 
fingertips.
    Being able to actually watch a working demonstration from a Rating 
Veterans Service Representative (RVSR) proved to be invaluable during 
the visit to Newark. When RVSRs come in each day, they are greeted with 
a much more harmonious working environment, with neat work spaces 
instead of the customary mountains of paper and files that used to be 
there waiting for them. Now all of a veteran's claims and related 
information has been converted electronically within the VBMS system to 
be process or searched; and by more than one user at a time if 
necessary. When the RVSR opens the work queue, he or she is able to 
quickly ascertain what has been done and what needs to be done in each 
respective case. The RVSR is able to review the veteran's e-File and 
see all of the development as it relates to the claim, tab certain 
information and make notes. When the case is ready for rating, the RVSR 
opens the VBMS rating program (VBMS-R) on a second screen program to 
prepare the actual rating. Gone are the stacks of paper and cumbersome 
files laid in front of an RVSR, replaced with two computer screens, one 
for the VBMS showing the veteran's e-File with tabbed notes to review 
for quick reference, and the other opened to the actual VBMS-Ready for 
the RVSR to input pertinent information and produce a final rating with 
much greater ease than in the past.
    In speaking with many employees at the Newark VARO, including the 
leadership, they uniformly told us that employee morale is higher than 
in the past and growing every day. Employees feel VBMS and the new 
organizational model, while not perfected, allow for greater 
productivity, speed, accuracy and accountability in completing their 
work. Employees realize there will be continuous upgrades and 
improvements to the VBMS system, but they believe that as their 
proficiency using the new system rises, they will be able to 
demonstrate further increases in all measurable activities.
    It is important to note that no modern IT system or software is 
ever truly ``finished'' and therefore it is vitally important to 
continue making significant investments in VBMS development in order to 
allow this system to be capable of meeting VBA's needs. For example, 
the coding and embedding of rating calculators inside the VBMS remains 
a labor-intensive, time-consuming process and one that needs to 
continue as the VA Schedule for Rating Disabilities (VASRD) is 
continually updated in the future. Furthermore, as new IT technologies 
emerge, and new requirements for the VBA are identified, the VBMS must 
evolve to address those needs and opportunities, requiring an 
aggressive development program that has sufficient resources, in 
addition to funding just required to maintain the current IT hardware 
and software.
    Mr. Chairman, while a backlog of claims pending longer than 125 
days still exists in Newark and nationally, there are measurable signs 
of progress resulting from VBA's transformation efforts. The number of 
claims in the backlog is down by about one-third, the total number of 
pending claims has been reduced by about one-fifth and the average days 
pending continues to drop as the oldest claims are now being processed 
first. Questions remain as to whether this progress can be sustained 
two, five or 10 years from now, and based only on the currently 
available data and information from the VBA, it is not certain whether 
this level of progress will be sufficient to meet the Secretary's 
ambitious 2015 goals. Nonetheless, DAV continues to support VBA's 
transformation efforts through our working partnership and we remain 
optimistic that the documented progress is not simply short-term 
progress that will stall; rather, it is progress that must be sustained 
and accelerated if VBA is to finally eliminate the backlog.

Veterans Relationship Management (e-Benefits & SEP)

    Although not as well known as VBMS, the VRM systems are equally 
important to the current transformation. The VRM system provides both 
veterans and VSOs the ability to file claims electronically. Like VBMS, 
the e-Benefits system with VONAPPS Direct Connect (VDC) has been in 
place for more than a year. While VBMS is the paperless, rules-based 
system VBA uses to create electronic files, manage workflow, and 
determine ratings, the e-Benefits and SEP systems were created to allow 
veterans to file claims electronically and manage benefits online.
    Notwithstanding the recent problems related to the security of the 
e-Benefits system, in general over the past two years it has been 
working as intended. More and more claims are being submitted and 
received electronically; however, there have been obstacles to be 
overcome, some of which still remain. One of the first obstacles 
veterans encountered in e-Benefits was problems with inaccurate 
information maintained by the Department of Defense in the Defense 
Enrollment Eligibility Reporting System (DEERS). When a veteran's 
personal information is inaccurate in the DEERS system, such as one 
incorrect digit in a birth date, the veteran is unable to set up an e-
Benefits account until that information is corrected. The system does 
not provide adequate support and correction. Such a problem can be a 
daunting task that causes some veterans to become frustrated, abandon 
the process and possibly not file a claim at all. Although this seems 
to occur more frequently with older veterans less familiar with 
computers and the Internet, it is nonetheless a major obstacle that 
must be corrected immediately.
    Many of our DAV clients have reported problems trying create an 
account and file a claim electronically. DAV service officers work 
diligently with our clients to find solutions, but it can take a great 
deal of time to resolve these issues with DEERS before the e-Benefits 
system will allow a veteran to create an e-Benefits account and file a 
claim electronically.
    Mr. Chairman, VBA wants more veterans to file claims electronically 
and DAV has been the leader among VSOs in increasing the number of 
claims filed electronically. However, regardless of the level of 
interest from veterans for electronic filing, if access continues to be 
a problem for many veterans, particularly when they are not given 
information or tools to resolve those problems, there will be too many 
veterans who walk away from e-Benefits. Nonetheless, DAV is fully 
committed to promoting electronic filing of claims through e-Benefits, 
or on their behalf through the SEP with the assistance of our National 
Service Officers (NSOs). Even SEP, however, is dependent upon a veteran 
having an e-Benefits account in order to receive official information 
from VBA, thus heightening the need for VBA to resolve the issue with 
VSOs' ability to file claims directly in SEP without the need to do so 
through e-Benefits.
    The SEP is a crucial IT component for reforming the claims process 
because it allows our NSOs the ability to file a veteran's claim 
electronically, accept a power of attorney (POA), and upload evidence, 
while being fully integrated with VBMS. The SEP allows DAV and other 
VSOs to do for veterans what the VDC and e-Benefits allows veterans to 
do for themselves, but with the benefit of assistance and expertise of 
an experienced representative. Early problems with the SEP development 
were encountered with access as well. Essentially, VSOs were not able 
to access any information about a claimant they represented through 
VBMS unless the POA box was properly checked. Although this issue has 
been addressed and resolved to a degree, the problem still persists in 
certain locations and leaves our VSOs unable to assist a client even 
with simple matters such as obtaining the status of a claim in VBMS. 
Like e-Benefits, the VBA must continue to address and resolve these 
types of problems in VBMS with immediacy to ensure that DAV and other 
VSOs are able to fully represent veterans in this electronic 
environment.

Work Credit in an Electronic Format

    DAV has long said that the only real solution to the claims backlog 
is the development of a new claims processing system that focuses on 
quality and accuracy, not just production and timeliness. While 
accuracy has been and remains one of the performance standards that 
must be met by all employees, current performance standards adopted in 
recent years have done little to create new incentives to promote 
quality above production. As new processes and technologies come 
online, such as VBMS and the new organizational model, it is vital for 
the VBA to make timely adjustments to outdated performance standards to 
ensure that production pressures not outweigh the goals of accuracy and 
quality, while creating a systematic accountability for work-credit 
that would function with the new organizational model and within the 
electronic environment. Implementation of the new organizational model 
has changed the roles and workloads of VSRs and RVSRs, which requires 
consistent adjustments to be made to performance standards. For 
instance, employees handling complex Special Ops claims should not be 
held to the same performance levels in terms of claims completed per 
day as those handling simpler Express claims. Although VBA revised its 
performance standards and work credit system, further refinement is 
needed to create the proper system of work incentives.
    DAV believes it to be absolutely imperative for the VBA to develop 
a scientific methodology for measuring the resources (primarily 
personnel) required to accurately and timely process the current and 
future anticipated workload as well as develop a new data-driven model 
for allocating those resources among VAROs. Crucial data needed to 
establish a sound performance plan or work-credit system is readily 
available in the VBMS and includes such information as specific 
development or rating actions, workload management, quality, accuracy, 
output, as well as the correct application of pertinent laws and 
regulations.
    Mr. Chairman, as the transformation to a completely paperless 
system changes the dynamics of the daily business of assembling, 
developing and processing claims, VBA must also change VBA's work-
credit strategy to ensure each employee is properly credited for the 
work they complete. DAV believes VBA must take the time now to ensure 
development of a new performance plan and work-credit system within an 
electronic environment , not only to hold management and employees 
accountable, but perhaps more importantly to ensure proper resources 
and staffing can be calculated and provided. It is also essential for 
the proper allocation of those resources and staffing in the most 
prudent and forward-thinking manner. Additionally, it is absolutely 
crucial for VBA to look back at claims accuracy rates using STAR and 
other reviews to continually adjust these standards so that they have 
sufficient resources not just to process the workload of claims, but to 
make sure that they are doing them right the first time.

National Workload Management Model

    Another top priority for VBA, VSOs and veterans is the timeliness 
of processing claims. While demonstrated progress was achieved last 
year in reducing the backlog of claims, other VBA initiatives such as a 
national workload management model, Centers of Excellence and 
centralized mail centers, are being proposed, developed and tested.
    Although we have not yet seen detailed information of any national 
workload management model, our understanding is that this will allow 
all claims to be processed nationally by VSRs and RVSRs, regardless of 
their physical location or the origin of the claim. This is essentially 
the same approach VBA took last year when they processed all claims 
pending more than two years within a short period. With all claims now 
being submitted and/or converted electronically, claims processing can 
be done by any fully trained VSR or RVSR regardless of their location. 
This approach is not unlike the process of brokering claims from one 
VARO to another when assistance is needed, which VBA has relied heavily 
upon over the years. So taking the basic concept of brokering claims 
and VBA's ``all hands'' strategy they used last year to process the 
oldest claims and applying it to national workload may have the 
potential for success; however, we would like to know more details of 
how this type of model would work.
    For the past several years, VBA has discussed the general concept 
of establishing Centers of Excellence, wherein specific VAROs would be 
designated to process specific types of claims for the entire country. 
For example, a particular VARO would be designated as a Center of 
Excellence for claims involving PTSD, MST, and TBI, and all claims 
containing such conditions would be processed by that facility for the 
entire country.
    While Centers of Excellence could relieve the majority of VAROs 
from processing some of the more time consuming, complex claims, it 
must be done properly, with certain principles guiding such a model. 
One key question is whether claims split by issues and processed by 
multiple centers. What would happen when a VARO receives a claim for 
PTSD and an orthopedic condition - would the origin VARO process the 
orthopedic condition or would a PTSD Center of Excellence process all 
issues? Such questions are crucial and we believe that VBA must move in 
a deliberate and thoughtful manner to ensure that Centers of Excellence 
are truly ``excellent,'' not just ``centers.''
    VBA has already begun progress towards testing centralized mail 
centers, each designated to perform all initial intake processing for a 
designated group of VAROs. For instance, there may be one such mail 
center located in Wisconsin to receive all incoming mail from five or 
six VAROs, wherein all initial intake processing will be accomplished 
in the same manner as each respective VARO does at present. Eventually, 
claimants may no longer send paper documents to their respective VAROs, 
instead sending all documents directly to the mail center, as is done 
for some other government agencies, such as for passports.
    As we have done for nearly 100 years, DAV will continue to evolve 
and adapt to any changes in the claims process; however, such 
fundamental, structural change to the claims process should include 
VSOs in the planning process from the earliest planning stage possible. 
When considering a major change to the claims process such as a 
national workload management model or anything of a centralizing 
nature, thoughtful deliberation must be given to the impact of removing 
the benefit of face-to-face interaction between highly-trained VSO 
service officers and VBA, which at the very least would be hindered.
    Mr. Chairman, the process of veterans submitting claims and 
receiving personal assistance from VBA has been around much longer than 
computers and automation. Many wounded, ill and injured veterans have 
relied heavily upon personal assistance to help them navigate the 
complexity of the claims process. While a national workload management 
model may be a potentially important strategy for VBA's goal of 
reducing the backlog, equal consideration must be given to the effect 
it will have on individual veterans. We know that many veterans rely 
heavily on personal interaction and assistance to help navigate VBA's 
complex system; how will service be affected when a claim is filed by a 
veteran residing in one state but processed by a VBA employee in 
another state?
    We have already seen the challenges of creating the national call 
center, wherein veterans often call and end up speaking with someone 
far removed from the VARO of original jurisdiction. DAV NSOs routinely 
receive complaints from veterans who are unable to speak to a person in 
the call center or if they are able to get through, someone who is 
unable to answer basic status questions. Such problems with VBA's call 
centers have caused many veterans to lose some confidence in VA and the 
claims process.
    Would a national workload management model, centralized mail 
center, or Centers of Excellence further fragment personal contact for 
veterans? DAV understands the need for and embraces change; however, 
these changes must be done thoughtfully to ensure that they are equally 
positive for veterans and VBA alike. Some of the changes, like e-
Benefits, involve ``self-service,'' wherein veterans, especially those 
without representation, can be much more immersed in the claims 
process; however, there are and will always be many who cannot and must 
rely heavily upon personal contact with their local VARO. This is not 
to say a national workload management model or anything of a 
centralizing nature will not work, but we believe every effort must be 
made to preserve the benefit of local claims processing first, and then 
perhaps allowing all claims over a designated amount for each VARO to 
be processed within a national workload management model.

Standardized Forms

    Finally Mr. Chairman, VA is proposing to amend its adjudication 
regulations and the appeals regulations and rules of practice of the 
Board of Veterans' Appeals (Board), in order to require all claims to 
be filed on standard forms prescribed by the Secretary, regardless of 
the type of claim or posture in which the claim arises; and, to require 
that VA would only accept an expression of dissatisfaction or 
disagreement with an adjudicative determination by the agency of 
original jurisdiction as a Notice of Disagreement if it is submitted on 
a standardized form provided by VA for the purpose of appealing the 
decision, in cases where such a form is provided.
    DAV understands the stated intent of VA's proposed amendments as an 
effort to improve the quality and timeliness of processing claims and 
appeals. The purpose of the regulatory change is to promote submission 
of claims and appeals in standard formats in order to capture data for 
a paperless claims and appeals system. Nonetheless, we have concerns 
about the proposed rulemaking and the consequential adverse effect upon 
veterans.
    First, requiring a veteran to submit a claim on a standardized form 
is not a new concept. In fact, claim for disability benefits is defined 
under title 38, Code of Federal Regulations, section 3.151(a) as ``[a] 
specific claim in the form prescribed by the Secretary must be filed in 
order for benefits to be paid.'' So requiring a veteran to file a claim 
on a standardized form is the current practice; however, the real 
question is how the new proposal would impact the effective date of a 
claim received.
    Currently, when a claim is received on a form not prescribed by the 
Secretary, it is an informal claim, which, by definition under title 
38, Code of Federal Regulations, section 3.155 is ``[a]ny communication 
or action, indicating an intent to apply for one or more benefits . . 
.'' provided the informal claim identify the benefit sought. Upon 
receipt of an informal claim, if a formal claim on a prescribed form 
has not been submitted, VA will then provide the veteran the proper 
application for execution and the veteran would have one year to 
complete then submit the required form(s). Should the veteran submit 
the required form(s) seven months later, benefits would be payable 
retroactively to the date the informal claim was received by VBA. This 
proposal goes much further than requiring a standardized form to be 
used; it effectively removes the preservation of date of claim by 
eliminating the informal claim from the process. Under this proposed 
rule, if a veteran does not submit a claim in the standardized format, 
they too will be provided the form; however, if that same veteran does 
not submit the proper forms until seven months later, that will be the 
effective date of the claim--not the actual date the veteran submitted 
his or her non-standard form claim, thereby losing entitlement to seven 
months of benefits.
    DAV takes no issue with veterans being required to submit their 
claims on standardized forms, because that is not the root of what is 
being changed. This proposed rule will cause many veterans, who may 
have needed that seven months due to illness or other reasons, to lose 
the benefit of the informal claims process, unless they file their 
claim electronically; for those individuals their effective date will 
be preserved. Whether this is meant to entice veterans to file their 
claims electronically, clearly there will be veterans who stand to lose 
their rightful benefits. We have submitted our comments to the proposed 
rule and call upon Congress to further examine this matter, as it will 
have a major adverse impact on veterans and the benefits they need and 
earned.
    This proposed rule also seeks to require veterans to submit their 
notice of disagreement on a standard form. As we have stated, DAV does 
not have an issue with requiring the use of a standard form, which may 
make it easier for VA to extract pertinent information as to what the 
veteran disagrees with; however, this proposal will cause many veterans 
to lose their appeal rights. Quite simply, under this proposal if a 
veteran does not use the standard form and complete exactly as 
directed, no additional time period will be provided to the veteran for 
correction. The appeal period will simply end. Currently, veterans are 
allowed one year to appeal any VBA decision. If a veteran submits his 
notice of disagreement on day 365, he or she will still have 60 days 
from the date of the Statement of Case to submit the actual appeals 
form, VA Form 9, Appeal to Board of Veterans' Appeals. We have 
submitted our comments to this proposal as well; however, this is 
another example of making this non-adversarial process adversarial and 
unnecessarily complicated, especially for veterans.
    Mr. Chairman, there is a distinction being created between those 
who possess the resources and capabilities to meet the electronic 
claims filing requirements, and those who are not able to do so. VA 
serves veterans and claimants of all diverse backgrounds, with varying 
physical and mental capabilities, education, and financial resources. 
Some claimants, particularly those of limited financial means and those 
with severe mental or physical impairment, will be penalized by not 
retaining some measure of accommodation for allowing an effective date 
for entitlement to benefits to be based upon the receipt of 
communication expressing such belief.
    Setting aside special consideration for claimants capable of filing 
electronically, and excluding those who cannot, will cause a certain 
portion of the eligible claimant population to be treated differently. 
Based on resources, electronic access and capabilities, one group of 
claimants will receive special consideration for the effective date of 
a claim, while the other group, of limited resources, will be penalized 
with a later date based on receipt of a complete application.
    Because of this disparity, and its effect on a claimant population 
that may require extra assistance, we recommend that an incomplete 
electronic or non-electronic claim, to be considered a request for an 
application of benefits under the proposed provisions of title 38, Code 
of Federal Regulations, section 3.155(c), be established as the 
effective date of entitlement if an appropriate complete application is 
received within one year of the date the Secretary notifies the 
claimant and the claimant's representative, if any, of the information 
necessary to complete the application.
    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions from you or members of the Subcommittee.

                                 <F-dash>

                  Prepared Statement of Zachary Hearn
    Deputy Director for Claims Veterans Affairs and Rehabilitation 
                     Division, The American Legion
    The Department of Veterans Affairs (VA) is in the midst of a 
massive transformation of the manner in which they do business, the 
business of processing disabled veterans' claims for benefits. In an 
attempt to move beyond the legacy system of paper files that threatened 
the physical integrity of their own buildings under the massive weight 
of backlogged disability claims, \1\  VA has promised an electronic 
operating environment, the Veterans Benefits Management System (VBMS) 
that will move the agency into the 21st century and eliminate many 
problems that have caused the current backlog of claims.
---------------------------------------------------------------------------
    \1\ VA Office of the Inspector General (VAOIG) Report 12-00244-241 
``Claims Folder Storage at the VA Regional Office, Winston-Salem, North 
Carolina'' August 9, 2012
---------------------------------------------------------------------------
    While The American Legion has long maintained no electronic system 
can be a complete panacea for the myriad problems that plague the 
disability claims system, VBMS will offer some improvements and does 
offer opportunities to help alleviate some problems that contribute to 
lengthy delays for disabled veterans. However, the change to the new 
system also presents new concerns, new challenges, and without careful 
consideration of the impact of these changes, veterans could be 
negatively affected by the changes. The most important consideration 
moving forward is that VA must include veterans as stakeholders in the 
decision making process about how to proceed into this brave new world 
of electronic claims processing. Nobody is better placed to see the 
impact on veterans than Veterans Service Organizations (VSOs) such as 
The American Legion, who provides accreditation to over 2,900 service 
officers across the nation to serve the needs of veterans navigating 
the complex disability claims process. Our American Legion service 
officers have already helped nearly 11,000 veterans file new claims 
this fiscal year, and are proud to serve and represent over 720,000 
veterans nationwide.
    It goes without saying that any changes to the process need to 
focus, not on what makes things easier for VA, but on what makes the 
process best able to serve veterans. After all, the entire purpose of 
the VA is to serve those who have borne the battle for this nation, and 
their surviving spouses and orphans.
    While there are many areas potentially affected by the changes to 
the new electronic system, The American Legion would like to focus on 
three areas for the purposes of this testimony. The American Legion is 
concerned about recent attempts by VA to force veterans into options 
which may not be in their best interest; about how a move to divide 
work hinted at in testimony from VA may impact the claims process; and 
how splitting claims and opening up the processing to a cloud network 
may negatively impact the ability to communicate between VA and the 
VSOs who represent veterans, to the detriment of those veterans' 
claims.

Veterans Losing the Ability to Choose

    Recently, in the Federal Register, VA promulgated a proposed rule 
change \2\  which, though potentially innocuous on the surface, could 
negatively impact veterans. The change, insisting that all initial 
claims must be filed on a specific VA form, effectively eliminates the 
current ``informal claim'' which has been important for protecting the 
effective dates of veterans' claims.
---------------------------------------------------------------------------
    \2\ ``RIN 2900-AO81-Standard Claims and Appeals Forms''-78 Fed. 
Reg. 65,490 (October 31, 2013).
---------------------------------------------------------------------------
    Through the elimination of the traditional informal claim, VA 
eliminates the opportunity to create an effective date at the point 
where the veteran opts to pursue a disability claim. Our understanding 
of the proposed regulation affects only the veterans seeking disability 
compensation through non-electronic means. If a veteran applies for 
disability compensation through electronic means through the submission 
of an ``incomplete application'', VA will establish an effective date 
at the time of the incomplete application submission as long as the 
veteran submits a complete application within one year.
    Through adoption of these changes, VA will essentially create a 
division between veterans with Internet access and those without 
Internet access. According to the National Center for Veterans Analysis 
and Statistics, the average age of male veterans was 64 years old in 
2011; \3\  the United States Census Bureau reported that only 45.5 
percent of Americans (veteran and non-veteran) age 65 and older have 
access to the Internet from any location. \4\  Assuming these 
statistics are similar in the veteran community as the non-veteran 
community regarding Internet accessibility, VA could be potentially 
eliminating for millions of veterans an appropriate effective date 
simply by virtue of whether the veteran has access to the Internet.
---------------------------------------------------------------------------
    \3\ http://www.va.gov/vetdata/docs/SpecialReports/Profile-of-
Veterans-2011.pdf 
    \4\ http://www.census.gov/prod/2013pubs/p20-569.pdf
---------------------------------------------------------------------------
    Beyond the issue surrounding informal claims is the status of 
inferred claims. The proposed regulation suggests that the veteran 
would no longer be permitted to receive a grant for service connection 
based upon an inferred claim as the veteran never filed for the claim. 
Frequently, a veteran may have secondary or aggravated conditions by a 
service connected condition the veteran is seeking. If the veteran 
receives the appropriate nexus statement supporting this relationship 
either from a VA medical professional or an outside medical 
professional, the veteran under current regulations is entitled to 
receive these benefits; however under this proposal, this would not 
occur.
    Ultimately, The American Legion is concerned VA is sacrificing 
veterans' choices and options in the interest of making the claims 
system easier for VA to work with. However, the disability claims 
system does not exist to serve VA; it exists to serve the veterans 
disabled through service to their country.
    While it may be beneficial, both for veterans and the VA, to have 
veterans submit claims in a certain fashion, such as through the Fully 
Developed Claims (FDC) process or through the e-Benefits portal, not 
every veteran is going to find that choice in their best interest or 
find that choice to be the one that meets their particular set of 
needs. There are better ways to approach channeling veterans towards 
the proper path for receiving benefits. Legislation such as the 
``Veterans Benefits Claims Faster Filing Act'' (HR 1809/S 1148) 
provides information to veterans and allows them to make the choice 
that best suits their needs. Through this information, many veterans 
will see the benefits of applying through the FDC program, or of filing 
electronically. Veterans will still be encouraged and channeled towards 
the better options, but only if that's the option that works best for 
that veteran. We cannot take away veterans' rights to choose the 
options for their claims that best suit their needs.
Splitting The Issues

    In his testimony before this committee on December 4, 2013, VA's 
Director of Compensation Service Tom Murphy edged toward the notion in 
his responses to questioning that VA may soon be able to split multi-
issue claims and send the individual issues to those best able to 
process that medical concern. This sort of proposal, seemingly simple 
at the outset, has potential ripple effects both good and for ill.
    In his testimony, Director Murphy notes VA's concern about the 
rising complexity of VA claims. According to Murphy the average VA 
claim now contains 7.2 medical issues for consideration.\5\  In 
conversations with claims raters, many American Legion Department 
Service Officers (DSOs) report they are told VA employees are expected 
to process five claims per day to meet their work product goals. Even 
simple math means a VA employee is expected to read, analyze and apply 
all existing rules and regulations to 36 distinct medical issues in a 
single day, or 180 medical issues per week. Clearly, it's worth looking 
at how work credit is counted if this is the workload raters are 
expected to accomplish.
---------------------------------------------------------------------------
    \5\ Witness Testimony of Mr. Tom Murphy, Director, Compensation 
Service, Veterans Benefits Administration, U.S. Department of Veterans 
Affairs--December 4, 2013
---------------------------------------------------------------------------
    However, the solution cannot be as simple as merely splitting the 
issues off into individual chunks and distributing the work amongst 
many. In addition to the more traditionally understood method of 
service connection for a disability--that the injury or disease had its 
onset during the veteran's period of active service--veterans are also 
entitled to service connection for a disability `` . . . which is 
proximately due to or the result of a service-connected disease or 
injury.'' \6\  If a veteran's multi-issue claims are to be split up, 
with the individual issues farmed out to multiple VA employees, there 
must be a mechanism in place that will still look at the whole picture 
of the veteran and determine the possibility of secondary service 
connection. Exactly what this means or how it could be best implemented 
still requires consideration.
---------------------------------------------------------------------------
    \6\ 6 38 CFR Sec.  3.310(a)
---------------------------------------------------------------------------
    It may be as simple as providing each overall claim with an 
overseer to ensure the entirety of the veteran's claim remains in 
focus. It may be more complicated, such as issuing instructions to the 
physicians who examine the veterans and provide opinions, as well as 
the raters who render the final determination along the lines of:

        This veteran is being evaluated for service connection for [X] 
        condition. Service connection is allowed through direct linkage 
        to an event or disease occurring during active duty service 
        and/or through secondary service connection, wherein the 
        current disability is caused or aggravated by a service 
        connected condition. The veteran is ALSO being evaluated for 
        service connection for [Y] and [Z] conditions. In your opinion/
        decision, please address whether those conditions, individually 
        or in concert, are as likely as not contributory to the cause 
        or aggravation of [X] condition.

    In essence, such a divided process would likely need to expand the 
reliance on hypothetical consideration within the claims system. 
Whether this would be effective or not, or whether it would ultimately 
be in the best interest of veterans will require a good deal of further 
discussion. Suffice to say, while there may be some benefit to ensuring 
that VA's 100 best evaluators of mental health disorders work on the 
lion's share of mental health claims, the implementation of such a plan 
is unlikely to be a simple or smooth transition process. There are 
going to be many questions raised, and the needs of veterans must be 
considered at every step along the way. The VSOs must be included in VA 
and congressional decision making along this road.

Processing In The Cloud

    One of the other concerns raised by VBMS's ability to split claims 
into individual issues and redirect them throughout the entire cloud of 
the nationwide system is the breakdown in communication between VA 
employees and the VSOs that represent veterans, as well as the 
communication factor for veterans themselves. Past VA experiments in 
moving claims out of the Regional Offices (ROs) in which they are filed 
have caused problems.
    In 2008 and 2009 respectively, VA's Pension Management Centers 
(PMCs) took on the additional task of processing responsibilities for 
death pension applications and Dependency and Indemnity Compensation 
(DIC) claims.\7\ In addition to the problems caused increasing the 
backlog on these death pension and DIC claims because the PMCs were not 
equipped to adequately process the volume directed to them,\8\  The 
American Legion Department Service Officers (DSOs) reported an even 
greater problem. Whereas when these claims were still located in the 
ROs, the DSOs were able to communicate regularly with the VA staff 
processing the claims and ease the process along for the widows and 
widowers, in the PMCs communication was next to impossible. When the 
delays started piling up, DSOs, working on behalf of the recently 
widowed surviving spouses, some of the most vulnerable clients, 
couldn't even get basic information about the claims.
---------------------------------------------------------------------------
    \7\ VAOIG Report 10-00639-135 ``Veterans Benefits Administration 
Review of Pension Management Centers'' March 30, 2011
    \8\ VAOIG Report 10-00639-135 ``Veterans Benefits Administration 
Review of Pension Management Centers'' March 30, 2011
---------------------------------------------------------------------------
    In a successful RO, the relationship between the VA staff and the 
VSOs working for veterans in that office is one of open communication. 
Often, the people involved can talk together and solve a lot of 
problems quickly and without extra bureaucratic red tape. When people 
work together as partners it is a lot easier to get things done, to the 
benefit of veterans. It's a mutually beneficial relationship.
    An American Legion DSO can spot a situation where a veteran's claim 
was denied because VA failed to consider important evidence and raise 
that issue with the rater and coach before the decision is promulgated. 
Often times VA and the VSOs agree and can save a lot of time for the 
veterans, who otherwise would have to submit to a lengthy appeals 
process that can add years, not months to the total claim time. 
Furthermore, this helps keep claims off of VA's active inventory if the 
situation can be resolved reasonably. Similarly, sometimes a VA 
employee working on rating a claim will notice a veteran, despite being 
prompted by a letter, has failed to submit critical evidence. Many 
employees will pick up the phone, or jog down a flight of stairs or two 
to find the veteran's service officer and see if they can rapidly 
acquire the evidence and help move the process along. They can speak to 
each other in short hand because they both know exactly what's needed 
in the complicated claims system. It helps the VSOs and it helps VA, 
but most importantly, it helps the veterans get timely, accurate 
decisions.
    What The American Legion found in the consolidation of death 
pension and DIC claims to the PMCs was that this easy communication was 
shut down. Even though VA intended to help the claims process by 
consolidating, when they ran into trouble, the communication with the 
key partner--the VSOs--was hindered by geography and lack of 
infrastructure to address this vital back and forth between rater and 
DSO.
    The American Legion believes this would not happen if VSOs were a 
vital part of the planning stages of any consolidation or workflow 
change plans.\9\  Currently, the VSOs are not as included in that 
process as we would like them to be. Before VA lunges forward with 
another scheme to alter the manner in which they process claims, it 
would behoove them to ensure they have on board all the partners who 
could help them to be successful and fully supportive.
---------------------------------------------------------------------------
    \9\ American Legion Resolution No. 25: ``The American Legion Policy 
on Department of Veterans Affairs (VA) Consolidation Efforts''--MAY 
2009
---------------------------------------------------------------------------
    On behalf of National Commander Dan Dellinger and our 2.4 million 
members, The American Legion would like to thank the Committee for 
their consideration of the many ramifications of VA's electronic 
transformation. The American Legion looks forward to working with the 
Committee, as well as VA, to ensure the new electronic system is 
effectively implemented to fulfill the most important goal: getting 
veterans the benefits they deserve in a timely manner. For additional 
information regarding this testimony, please contact Mr. Ian de Planque 
at The American Legion's Legislative Division, (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94fdf0f1e4f8f5fae5e1f1d4f8f1f3fdfbfabafbe6f3ba">[email&#160;protected]</a>

                                 <F-dash>

                  Prepared Statement of Frank Logalbo
           National Service Director, Wounded Warrior Project
    Chairman Runyan, Ranking Member Titus, and Members of the 
Subcommittee:
    Thank you for holding this hearing relating to VBA technology, and 
for inviting Wounded Warrior Project (WWP) to provide testimony.
    As an organization that works daily with wounded warriors, to 
include advising and assisting them in securing VA benefits to which 
they are entitled, we believe we can provide a helpful perspective to 
your inquiry this morning.
    WWP recognizes and appreciates the advances technology can bring to 
claims adjudication. All of our benefits staff gained adjudication and 
advocacy experience in an era of paper-filled claims files and manual 
processes. Yesterday's development and adjudication processes are not a 
model for the 21st century, and it would be foolish for us to insist 
that VBA roll back the changes it has instituted and cling to last 
century's processes and systems. But as VBA continues to build out 
streamlined, technologically-based systems and capabilities, it must 
also be mindful of those it serves.
    VA's troubled experience with a longstanding claims backlog is an 
inescapable reminder of the need for changes. The backlog has certainly 
highlighted both inefficiencies in the system and opportunities for 
shrinking that backlog through smart use of technology and 
streamlining. Certainly the system should become much more efficient. 
But efficiency is not an end in itself. Fundamentally, this system must 
serve veterans who have incurred disability in service. And even as the 
computer and internet-based tools have largely become the predominant 
mode of communication and commerce, they are not necessarily the means 
by which each of our veterans communicate or transact business. Some 
wounded warriors do not have ready access to this technology, some may 
not be computer-literate, and some may be anxious about or otherwise 
uncomfortable with using these technologies. It may not ``optimize 
efficiency,'' but VBA must accommodate those warriors, not the other 
way around.
    Let me provide some context to amplify the point, by reference to 
our most recent annual survey, which is based on almost 14 thousand 
responses (more than 50% of the nearly 27 thousand wounded warriors we 
surveyed).\1\  Nearly all respondents (98.7%) reported that they 
experienced at least one injury during their post 9/11 service. Almost 
60% of these warriors' injuries resulted from blasts, including IEDs, 
mortar, grenades, and bombs. The survey showed that the most commonly 
reported injuries were PTSD (75%), anxiety (74%) and depression (69%). 
More than 44% reported traumatic brain injury (TBI). Among those 
reporting multiple injuries or health problems, more than two-thirds 
reported between three and seven injuries or health problems.\2\ 
---------------------------------------------------------------------------
    \1\ Franklin, et al, 2013 Wounded Warrior Project Survey Report, 
July 2013.
    \2\ Id.
---------------------------------------------------------------------------
    My staff and I have found that some warriors who have sustained 
invisible wounds, like PTSD, anxiety, and TBI have comprehension-
difficulty with, or experience anxiety or a high degree of frustration 
with computer technology. It is also not unusual for warriors with 
these conditions to have higher levels of concern with, or even serious 
anxiety relating to, information-security. The recent data-breach on 
VA's e-Benefits Web site \3\ will very likely heighten that concern, 
perhaps irreversibly.
---------------------------------------------------------------------------
    \3\ See J. Hicks, ``VA software glitch exposed veterans' personal 
information,'' Washington Post (Jan. 22, 2014), accessed at http://
www.washingtonpost.com/blogs/federal-eye/wp/2014/01/22/va-software-
glitch-exposed-veterans-personal-information/.
---------------------------------------------------------------------------
    We raise these examples to highlight a point. This system must meet 
these veterans where they are. Even as technology provides VBA the 
means to do its work with greater efficiency, its highest obligation 
must be to the veteran. It would follow that VA must accommodate those 
who, for whatever reason, cannot or choose not to, employ that 
technology in filing or appealing claims, even at some modest cost to 
peak ``efficiency.''
    Such a principle would seem beyond question in a system long 
celebrated for its pro-claimant, veteran-friendly policy. But a recent 
VA notice of proposed rulemaking, ``Standard Claims and Appeals 
Forms,'' \4\ (hereinafter, ``the NPMR'') would abandon a core tenet of 
that policy.
---------------------------------------------------------------------------
    \4\ 78 Fed. Reg. 65,490 (Oct. 31, 2013).
---------------------------------------------------------------------------
    VA would eviscerate ``current rules [which] are meant to minimize 
the burden associated with initiating a claim, and allow benefits to be 
paid from the earliest possible date if the claim is ultimately 
granted.'' \5\  At the heart of the current system is VA's longstanding 
acceptance of an ``informal claim'' for benefits, that is, ``[a]ny 
communication or action, indicating an intent to apply for one or more 
benefits.'' \6\  VA now proposes to redefine what is meant by a claim 
for benefits. While 38 C.F.R. sec. 3.1(p) currently defines the term 
``Claim-Application'' to include an ``informal communication in writing 
. . . '', that ``informal communication'' would no longer be recognized 
as a ``claim,'' under VA's proposal. Instead, VA would require all 
claims to be filed on standard forms. It proposes to ``incentivize'' 
submission of claims to facilitate efficient processing by establishing 
new rules governing effective dates of awards that for the first time 
would draw a distinction between ``electronic'' and ``non-electronic'' 
claims. VA's rule changes would actually penalize veterans who do not 
submit claims online.
---------------------------------------------------------------------------
    \5\ Id.
    \6\ 38 C.F.R. sec. 3.155(a).
---------------------------------------------------------------------------
    We offer an illustration of how these proposed rules would work. A 
warrior who suffered multiple injuries from an IED explosion might have 
difficulty with the question on VA's application for compensation, Form 
21-526, that asks for a listing of specific disabilities, and might 
instead simply answer ``multiple injuries.'' VA would likely deem that 
an ``incomplete claim.'' Under the proposed regulation, if the veteran 
had submitted that claim electronically, VA would allow the veteran to 
preserve the filing date as the effective date for an award of 
benefits. But if the veteran had submitted that same incomplete claim 
on paper, he or she would be penalized. Instead of allowing the veteran 
that early effective date, VA would defer the effective date until the 
claim had become ``complete,'' with the result that the veteran could 
lose thousands of dollars.
    Under the VA's NPRM, what has long been hailed as ``the pro-
claimant policy'' \7\  underlying the veterans' benefits system would 
give way to an overriding emphasis on achieving ``efficiency,'' 
``speed,'' and a ``modernized process.'' WWP does not contest the 
challenges facing the Department in managing a claims backlog, nor are 
we opposed to achieving greater efficiency and timeliness of claims 
processing and appellate review. We certainly appreciate as well that 
the Department has statutory authority to prescribe rules and 
regulations and to prescribe forms of application for benefits. But the 
Department's exercise of that authority must remain faithful to a 
statutory scheme that is centered on serving the veteran. In our view, 
if efficiency and modernization are to be given primacy over 
longstanding rights that have been afforded veterans under the 
Department's benefits system, Congress must make those changes. 
Consistent with that view, our comments to the NPRM urged that the 
Secretary withdraw the proposed rulemaking.\8\ 
---------------------------------------------------------------------------
    \7\  See, R. Riley, ``The Importance of Preserving the Pro-Claimant 
Policy Underlying the Veterans' Benefits Scheme: A Comparative Analysis 
of the Administrative Structure of the Department of Veterans Affairs 
Disability Benefits System,'' 2 Veterans L. Rev. 77 (2010).
    \8\ Wounded Warrior Project, Comments on RIN 2900-AO81--Standard 
Claims and Appeals Forms (Dec. 24, 2013) at http://www.regulations.gov/
#!documentDetail;D=VA-2013-VBA-0022-0027.
---------------------------------------------------------------------------
    In essence, the proposed rule would upend important principles 
cemented in law and regulation. Among them, it would abolish a 
principle and practice that permits a veteran to file an informal claim 
and receive benefits paid from the date that informal claim is filed. 
The proposed rule would also for the first time effectively create a 
two-tier system that distinguishes substantively between veterans who 
have the capability of interacting with VBA online and those who do 
not, rewarding one and penalizing the other. (Under the NPRM, a 
claimant who by reason of disability, lack of computer access, or 
otherwise is unable to file a claim online would forfeit a statutory 
entitlement to an early effective date under circumstances where that 
initial claim was incomplete.) Procedural rules critical to 
safeguarding appellate rights would also fall under the NPRM. 
Regulations that now permit any expression of disagreement to be taken 
as a notice of disagreement would be discarded, to be overtaken by a 
first-time requirement that a veteran must file any notice of 
disagreement on a specified form. Moreover, omitting required 
information would render the veteran's NOD ``incomplete,'' and were the 
veteran unable to complete the form (or unsuccessful in doing so) 
within a 60-day ``grace period,'' the veteran would forfeit the right 
to appeal.
    In our view, these changes go much too far, and cannot be squared 
with the statutory framework the Secretary is charged to administer. 
Moreover, with the Department's seemingly single minded pursuit of 
speed and ``efficiency,'' its rulemaking pays insufficient attention to 
other critical interests here at stake. Of great concern, the NPRM 
fails even to acknowledge that applicants for veterans' benefits have a 
constitutionally protected property interest in their application for 
benefits and are entitled to constitutionally prescribed procedures in 
connection with their claims for benefits under the Due Process clause. 
\9\  Rather than protecting that property interest, the NPRM proposes 
to establish procedures that would literally shrink it.
---------------------------------------------------------------------------
    \9\ Cushman v. Shinseki, 576 F. 3d 1290 (Fed. Cir. 2009).
---------------------------------------------------------------------------
    In striving for efficiency, the proposed rule would create real 
barriers that risk denying veterans benefits to which they are 
entitled. While Congress may elect to take steps to streamline claims' 
and appellate processes, a Department charged with administering the 
laws providing benefits and other services to veterans \10\ may not 
unilaterally block statutory pathways to veterans' benefits. While the 
Secretary has authority to prescribe rules and regulations necessary or 
appropriate to carry out the laws administered by the Department, those 
rules must be ``consistent with those laws.'' \11\
---------------------------------------------------------------------------
    \10\ 10 38 U.S.C. sec. 301(b).
    \11\ 11 38 U.S.C. sec. 501(a).
---------------------------------------------------------------------------
    Those laws are clear. Section 5102 of title 38 codifies the 
principle of an informal claim, namely a ``request made by any person 
claiming or applying for, or expressing an intent to claim or apply 
for, a benefit . . .'' \12\  (Emphasis added.) Such an expression of 
intent to apply for or claim a benefit triggers an obligation on the 
Secretary's part to ``notify the claimant and the claimant's 
representative, if any, of the information necessary to complete the 
application.'' \13\  Under section 5102(c), the veteran has one year 
within which to complete that application. Where that veteran 
ultimately submits a fully developed claim within that year, section 
5110(b)(2)(A), (as amended by Public Law 112-154) allows the veteran to 
preserve the date of submittal of that application as the effective 
date of an award of benefits. (``The effective date of an award of 
disability compensation to a veteran who submits an application 
therefor that sets forth an original claim that is fully-developed (as 
determined by the Secretary) as of the date of submittal shall be fixed 
in accordance with the facts found, but shall not be earlier than the 
date that is one year before the date of receipt of the application.'') 
\14\ 
---------------------------------------------------------------------------
    \12\ 38 U.S.C. sec. 5102(a).
    \13\ 38 U.S.C. sec. 5102(b).
    \14\ 38 U.S.C. sec. 5110(b)(2)(A).
---------------------------------------------------------------------------
    The Department's proposal is tantamount to a plan to graft onto 
this statutory framework an utterly novel distinction between claimants 
who file completed electronic claims--who would gain the benefit of 
such earlier effective date--and non-electronic filers who would not. 
We see no basis in law for such a two-tiered system, or any reasonable 
basis to discriminate between these two classes of claimants.
    The NPRM runs similarly afoul of the law in proposing to limit 
substantially the manner in which a claimant may initiate appellate 
review. The statutory provisions governing the initiation of appellate 
review are prescriptive only insofar they impose a time limit within 
which a notice of disagreement (NOD) must be filed, \15\  and provide 
that the NOD ``must be in writing.'' \16\  The Department, by 
administrative fiat, would effectively rewrite that clear statutory 
provision to redefine the phrase ``in writing'' to mean a completed and 
timely submitted copy of a mandatory form where (under proposed new 
section 38 C.F.R. sec. 19.24(c)) ``a form may be considered incomplete 
if any of the information requested is not provided, including . . . 
for compensation claims . . . if it does note enumerate the issues or 
conditions for which appellate review is sought, or does not provide 
other information required on the form to identify the claimant, the 
date of the VA action the claimant seeks to appeal, and the nature of 
the disagreement . . .'' \17\  The NPRM would convert what is a 
permissive statutory pathway to appellate consideration into a closed-
door policy under which the ``VA would not accept as an NOD any other 
submission expressing disagreement with an adjudicative determination'' 
\18\  than the fully completed form.
---------------------------------------------------------------------------
    \15\ 15 38 U.S.C. sec. 7105(b).
    \16\ 16 Id.
    \17\ 78 Fed. Reg at 65495 (October 31, 2013).
    \18\ 18 Id.
---------------------------------------------------------------------------
    As with other changes it seeks to institute through the NPRM, VA 
characterizes the regulations it seeks to revise or abolish entirely as 
involving time-consuming processes or as barriers to processing cases 
more expeditiously. We see nothing in the statutory fabric to suggest 
that speed is an end in itself. While WWP would welcome greater 
timeliness of claims processing and appellate review, those objectives 
should not be achieved at the expense of longstanding, statutorily-
based procedural safeguards.
    VA's statutory authority to establish online tools to facilitate 
claims-filing and processing is not in doubt. Its authority to develop 
standard forms is not questioned. Many veterans may see benefit to 
employing such tools-at their option. But VA goes much too far in 
seeking to impose procedural requirements under which some veterans 
will lose benefits to which they are entitled. It runs that grave risk 
under circumstances where its rationale is at odds with the very 
statutes the Secretary is to carry out as well as with a longstanding 
pro-claimant regulatory framework that it proposes to abandon in 
significant part in the name of ``modernization'' and efficiency.
    In the final analysis, the Department's determination to 
effectively reinvent some of the most fundamental elements of the 
claims-filing and appellate-review-initiation to achieve greater speed 
and efficiency are, in our view, simply beyond the Secretary's powers. 
Mr. Chairman, we trust you would agree that the Secretary's duty is to 
administer the law, not to rewrite it.
    Many interests are at stake here: adherence to law; preserving a 
pro-claimant adjudication system; protecting veterans who--for reasons 
including disability, hardship, remoteness, or fear--do not have 
effective online computer access or cannot reasonably be expected to 
communicate through that modality; and preserving congressional 
prerogatives. Given the importance of each of those interests, we ask 
the Subcommittee to press VA to withdraw its proposed rulemaking.

                                 <F-dash>

                   Prepared Statement of Eric Jenkins
   American Federation of Government Employees, AFL-CIO and the AFGE 
                          National VA Council
Executive Summary

    The American Federation of Government Employees and the AFGE 
National VA Council (hereinafter ``AFGE''), the exclusive 
representative of employees processing disability claims at the 
Department of Veterans Affairs (Department) Veterans Benefits 
Administration (VBA) Regional Offices (ROs) supports the Department's 
transformation efforts and appreciates the opportunity to share views 
on behalf of our members working on the frontline processing claims. 
AFGE appreciates the opportunity to share our views on the 
implementation problems associated with VBMS.
    Our greatest concern with transformation is VBMS' regular shut 
downs. AFGE urges the Committee to require VBA to create a national 
plan in conjunction with AFGE when VBMS is inoperable as well as 
provide employees with excluded time. AFGE also urges the Committee to 
address VBA's broken work credit system that is currently not based on 
data. AFGE also urges the Committee to ensure that AFGE has a more 
active role in discussions related to new initiatives.

VBMS Updates

    AFGE consistently receives reports from members at ROs nationwide 
regarding shutdowns and technical problems with VBMS. AFGE would like 
to remain a strong partner with VBA to improve VBMS to better process 
claims and to make the system more user friendly. AFGE requests the 
establishment of a working group to improve VBMS, which would include 
AFGE, management, and VSO stakeholders.
    Since the program's expansion, the additional users have 
exacerbated existing latency problems with VBMS. Employees on the east 
coast report that the system experiences latency as more users log on 
to VBMS (as the other time zones begin arriving to work). AFGE has 
reported the latency issue to VBA management consistently throughout 
VBMS' rollout.
    AFGE members also report that VBMS shuts down on roughly a weekly 
basis. AFGE regularly receives reports from ROs nationwide of VBMS shut 
downs. For example, during the last month, VBMS shut down on roughly a 
weekly basis. The shut downs varied from just over an hour to spanning 
multiple days.
    During each of these shutdowns, the majority of employees were not 
provided with excluded time. Excluded time protects employees from 
missing performance standards based on situations beyond their control. 
Inoperable software should qualify for excluded time since employees 
are being judged during shut downs on their performance within VBMS.
    When VBMS shuts down, employees are directed to use VBA's legacy 
software (RBA 2000) that does not use electronic files. However, newer 
employees have no training in RBA 2000, meaning they cannot be 
productive during shutdowns. New employees must be trained in RBA 2000 
in the event of a VBMS shut down. Employees also receive far lower work 
credit when completing work in RBA 2000 (or any other work that is not 
completed in VBMS), meaning their performance standard will be even 
more difficult to achieve when VBMS is experiencing shut downs and 
technical problems. There is also limited work to complete in RBA 2000 
since most claims are now paperless. AFGE fully agrees with VBA that 
when system shut downs threaten the service we provide to our veterans, 
every effort must be made to remain productive during the work day. 
AFGE urges the Committee to require VBA to develop a plan for when VBMS 
is inoperable, and AFGE must be at the table when creating this plan.
    Offices also report inconsistencies in how managers deal with 
completing work when VBMS is shut down. As mentioned above, some 
managers direct their employees to begin work in RBA 2000 or other non-
electronic work. We also urge other ROs to follow the lead of the San 
Diego RO where employees received training when VBMS is not 
functioning, which is a productive use of time.
    Beyond shut downs, AFGE members reported other issues with VBMS. 
Claim authorization is not yet completed in VBMS, so VSRs cannot 
complete promulgation of claims. For development and rating, VBMS 
separates these two tasks in different programs, meaning employees must 
exit the program and reenter in order to switch from development to 
rating. This extra step inhibits efficiency, slows down employees, and 
hurts veterans.
    Another malfunction reported by VSRs and RVSRs occurs when 
additional paperwork enters the system from a claim that is being 
processed; sometimes, the information disappears for several days. The 
employee's performance is impacted by this malfunction and the veteran 
may receive a claim decision with an error. If information is not 
present when an employee completes a claim due to a system malfunction, 
VBA should not punish the employee for that error.
    AFGE remains frustrated with the lack of success of VBMS. Our 
members are all motivated to serve veterans as quickly and effectively 
as possible. AFGE believes that when VBMS is shutdown, VBA must make 
all efforts to ensure that any production slowdown is avoided while not 
punishing employees for any inadequacies of the system.
    Undersecretary Hickey has mentioned the opportunity for employees 
to provide feedback to her regarding VBMS' functionality through weekly 
conference calls. While AFGE applauds Undersecretary Hickey for stating 
her interest in hearing directly from front line bargaining unit 
employees (BUEs), this phone call does not include sufficient input or 
participation from AFGE, resulting in too few BUEs on the calls. The 
phone calls should include AFGE as the exclusive representative of 
these employees. Without the union present, many employees fear 
retaliation from management for any negative feedback related to VBMS. 
Undersecretary Hickey has stated clearly that she would like to hear 
any negative feedback related to VBMS so that we can all continue to 
improve the system. With active, ongoing union involvement, this 
information sharing can be accomplished. We urge VBA to work directly 
with AFGE to ensure sufficient participation of BUEs on these calls.

AFGE Recommendations

        <bullet> AFGE urges the Committee to require VBA to provide 
        employees with excluded time when VBMS is not operational.
        <bullet> The Committee should require VBA to develop a 
        contingency plan for operations when VBMS is shutdown to 
        maintain productivity and not negatively impact employees' 
        performance ratings. AFGE should have a seat at the table when 
        creating this plan.
        <bullet> AFGE should have an ongoing, meaningful role in 
        providing feedback to VBA and the Committee must involve AFGE 
        in the feedback loop for improving VBMS.

Current Work Credit System Problems
    VBA has never had a formal work credit system based on actual data 
that reflects the amount of time required to process specific types of 
claims and their components. VBS should not deprive employees of the 
proper credit for critical work needed to process claims accurately and 
timely the first time. The broken work credit system creates 
performance standards that are arbitrary, inconsistent, and focus too 
much on quantity over quality.
    The agency has made a few perfunctory efforts to establish a more 
reliable set of measures over the years. However, AFGE has not seen any 
work credit study or work credit system based on actual data. Given 
VBA's current transformation and the national rollout of VBMS, AFGE 
believes the timing is ideal for a scientific based time motion study 
to create a formal work credit system.
    The first essential step is to develop an inventory of tasks that 
employees must complete on a daily basis. The current work credit 
system does not include an inventory of employees' daily tasks.
    Some of the main problems with the current work credit system 
include:

        <bullet> Lack of consistency
        <bullet> Lack of a solid methodology
        <bullet> Failure to update its ``system''
        <bullet> Lack of participation from the front line employees 
        and veterans service officers with direct knowledge of the work 
        process
        <bullet> Lack of work credit for a variety of tasks

    The only study AFGE is aware of is the 2008 IBM Gap Analysis study. 
However, the study is outdated now with VBMS' implementation.
    In 2013, AFGE conducted an informal survey of Regional Offices to 
identify how well the current work credit system measures (or does not 
measure) the hours and skills required to complete different tasks. 
Responses from employees working in approximately a dozen different 
offices indicated widespread inconsistencies in how much work credit is 
awarded for the same tasks. Perhaps more troubling, employees in every 
Regional Office and position are required to perform daily tasks for 
which they are provided zero credit or only partial credit. By denying 
credit for significant tasks, the current work credit system increases 
workplace stress, puts pressure on employees to rush through claims, 
and results in unwarranted negative performance ratings.
    AFGE encourages the House of Representatives to endorse the 
approach set forth in Chairman Sanders' S. 928, which is currently in 
the Senate VA Committee's Omnibus legislation S. 1950. Chairman 
Sanders' approach brings the major stakeholders to the table, including 
management, employees, and VSOs, into a working group. The working 
group would be tasked with evaluating and recommending changes to the 
current work credit system based on data. This approach encourages 
productivity, while ensuring employees will be evaluated fairly and 
accurately.
    More specifically, employees reported that they receive inadequate 
or zero work credit for the following tasks:

        <bullet> Productive time lost due to breakdowns in VBMS: As 
        noted earlier, VBMS still has frequent and significant 
        malfunctions, at both the RO and national levels.
                <all> VBA must create a standardized plan to keep ROs 
                productive during VBMS shutdowns, as well as grant 
                excluded time. Employees must not be evaluated based on 
                the system becoming inoperable.
        <bullet> Deferred ratings: Deferred ratings occur on a daily 
        basis in Regional Offices. It is important to spend time on 
        these issues since the veteran should be assisted and informed 
        accurately about additional medical evidence they will need for 
        their claim. RVSRs do not receive any credit for cases where 
        there is a deferred rating an RVSR may work on a case where the 
        veteran has claimed ten issues, but only two can be rated. The 
        RVSR must spend significant time on the other eight issues, but 
        will receive no credit for this.
                <all> VBA must provide credit for employees giving 
                deferred ratings.
        <bullet> Multi-issue and complex cases: VSRs are not given 
        adequate credit for rating a case with significantly more 
        issues or complexity. Given VBA's segmented lanes initiative 
        with VBMS, this problem is now exacerbated. Employees receive 
        additional credit for completing cases with at least three 
        issues. VSRs do not receive any additional credit for 
        developing a case with thirty issues versus a case with three 
        issues. Employees also are denied sufficient credit for 
        processing cases involving complex claims such as military 
        sexual trauma and TBI.
        <bullet> RVSRs Working Development: RVSRs regularly work on 
        developing cases. Sometimes, RVSRs will receive a case to rate 
        that needs additional development. Other times ROs do not have 
        the proper ratio of VSRs to RVSRs; consequently, there are not 
        enough cases to rate. When a case needs additional development, 
        RVSRs do not receive credit for this work.
                <all> VBA must provide credit for VSR work done by 
                RVSRs.
        <bullet> Mentoring: Experienced processors often mentor newer 
        employees, an essential role for ROs. Congress and VBA have 
        long recognized the benefits of mentoring from experienced 
        employees, yet claims processors receive no credit for 
        assisting or mentoring newer employees.

                <all> VBA must provide adequate credit for mentoring by 
                experienced employees.

        <bullet> Training: Employees are not given sufficient work 
        credit for time spent during training. Often times, training is 
        shifted away from classroom instruction to reading slides or a 
        packet at their desk with less time allotted by managers than 
        required by the curriculum.

                <all> VBA must provide adequate time and work credit 
                for training.

    The absence of a valid work credit system exacerbates the well 
documented problem of VBA managers manipulating backlog data to improve 
performance measures. Veterans who fought for this nation deserve to 
have their claims processed in a timely manner, and waiting over two 
years for a decision from VBA is unacceptable. While undergoing 
transformation, VBA must accurately determine productivity and quality 
and judge an employees' performance based off of data driven metrics.
Veterans Relationship Management Initiative

    VBA has not provided AFGE with an opportunity to play an active 
role in the implementation of the majority of aspects with the Veterans 
Relationship Management (VRM) initiative. It is both good policy and 
required by our labor management contract to engage in meaningful 
discussions and bargain over changes to the workplace and new 
initiatives. AFGE did sign a memorandum of understanding with VA on the 
Customer Relations Management and Unified Desktop aspects on February 
9, 2012, two of the VRM aspects. AFGE urges VA to approach us with 
other initiatives for employee input moving forward and to comply with 
its contractual obligations to notify us of new pilot projects and 
initiatives.

Contracting

    AFGE recently learned that VBA is considering the use of an outside 
contractor for dependency claims, work which is currently completed in 
ROs nationwide. VBA plans on beginning the program in March. AFGE 
strongly urges Congress to prohibit this counterproductive and illegal 
solution to the claims backlog. The FY2009 Omnibus Act, P.L. 111-8, 
Division D, Sec. 735 prohibits work last performed by federal employees 
from being given to contractors without first conducting a formal cost 
comparison. Past evidence with other contracts, such as the ACS 
contract, demonstrates that contracts can actually add to the backlog. 
With the ACS contract, the files set for development were not processed 
for 9 months and then were sent back to the ROs where they were 
processed. This contract hurt taxpayers, wasted VA resources, and 
forced veterans to wait longer for their benefits.

HAIMS and VBMS

    Currently, HAIMS, DoD's file system, and VBMS are not well 
integrated, resulting in unnecessary delays and a worsening of the 
backlog. The number of delays in claims for veterans would be greatly 
improved if these two systems were in sync. AFGE encourages VA and DoD 
to integrate their two files systems for greater ease in transmitting 
medical evidence for claim processing.

National Work-Queue Strategy

    VBA plans on using a national program to assign work to ROs 
nationwide, once all of the files have been digitized. For example, if 
a veteran submits a claim with ten contentions, and one is PTSD, the 
PTSD claim may be sent to a different RO than the rest of the claim. 
AFGE remains cautious regarding VBA national work queue strategy.
    Specifically, AFGE has concerns over how VBA plans on assigning 
work through the national work queue strategy. For example, AFGE has 
not received a definition of an ``under performing office.'' There may 
be discrepancies in the levels of production between offices, but this 
must be clearly defined before VBA begins diverting cases away from an 
RO. If an office is considered under performing by VBA, there are 
concerns that they will now be starved for casework. Also, supposedly 
high performing offices may fall further back in the pack with the 
additional casework.
    Undersecretary Hickey has referred to improving VBA's current 
resource allocation model, where struggling ROs are starved of 
resources (while higher performing offices receive additional 
resources). However it appears that little progress has been made. 
Therefore we urge VBA to review its resource allocation model. While 
implementing any national work queue strategy, VBA must simultaneously 
review and change its resource allocation model.
    Thank you for the opportunity to provide input from AFGE and its 
National VA Council on this important legislation.

Eric Jenkins Bio

    Eric Jenkins works as an RVSR in the Winston Salem RO. Eric has 
worked at VBA for 9 years, first as a VSR for 6 years, and now as an 
RVSR for nearly 4 years. Eric is a 15 year veteran of the Marine Corps 
and a service connected veteran. He is a combat veteran, deployed in 
Afghanistan and in Iraq for both Operation Desert Storm and Iraqi 
Freedom. Eric also works as a shop steward in AFGE Local 1738. Eric 
graduated from North Carolina State University with a degree in 
political science.
                 Prepared Statement of Diana M. Rubens
     Deputy Under Secretary for Field Operations Veterans Benefits 
                          Administration (VBA)
    Good Morning, Chairman Runyan, Ranking Member Titus, and Members of 
the Subcommittee. Thank you for the opportunity to discuss VA's 
transformation initiatives with a focus on technology, workload 
management, and a proposed rule to require standardized forms. I am 
accompanied today by Mr. Richard Hipolit, Assistant General Counsel and 
Ms. Lorraine Landfried, Deputy Chief Information Officer for Product 
Development in the Office of Information and Technology (OIT).

Backlog Update

    I would like to start by providing the Subcommittee with a brief 
update on our progress to date in eliminating the disability claims 
backlog. During fiscal year (FY) 2013, VA completed a record 1.17 
million claims with 90-percent accuracy at the claim level and 96-
percent accuracy at the medical-issue level. Claim-level accuracy 
measures the accuracy of the entire claim, regardless of the number of 
medical issues. The claim is either 100 percent accurate or 100 percent 
in error. However, medical issue accuracy evaluates individual medical 
conditions. Since its peak in March 2013, the backlog has been reduced 
by 211,000 claims, or 35 percent, and the overall inventory of pending 
claims has been reduced by 200,000 claims, or 22 percent, through the 
end of December 2013. The average number of days rating claims are 
pending has also been reduced from a peak of 281 days in March 2013, to 
170 days at the end of December 2013, meaning Veterans are currently 
waiting 111 fewer days for a decision than they were just 9 months ago.
    None of this progress would be possible without the tremendous 
support VA receives from its partners including this Subcommittee, the 
rest of Congress, our Veterans Service Organizations (VSO), and county 
and State Departments of Veterans Affairs. Our progress is also the 
result of the unprecedented effort and dedication of VBA employees, 52 
percent of whom are Veterans themselves, and the support provided by 
our partners in VA's OIT and the Veterans Health Administration. 
Veterans themselves have contributed to our progress by participating 
in the Fully Developed Claims program and submitting claims 
electronically through the e-Benefits Web site. We appreciate the 
support of all of our partners and stakeholders as we continue working 
to eliminate the claims backlog, and we fully expect the reductions in 
backlog to continue.

Technology-Focused Transformation Initiatives

    VA's Transformation Plan includes initiatives to retrain and 
reorganize our people, streamline our business processes, and build and 
implement new secure technology solutions that are getting us out of 
paper-bound, manual processes to improve our service to Veterans, their 
families, and Survivors. The Department takes seriously our obligation 
to properly safeguard personal information. The technology tools being 
developed to transform VBA are accredited as secure under VA's strict 
security standards. These products are protected by VA's numerous 
scanning tools, firewalls, and network and host intrusion prevention 
systems, as part of VA's arsenal to ensure a strong, multi-layered 
defense to combat evolving cyber security threats to VA's sensitive 
personal information and VA information systems.
    At the Subcommittee's request, I would like to update you on a few 
key technology initiatives that have had a significant impact on our 
increased production and quality and show promise for the way ahead.

Veterans Relationship Management (VRM)

    VRM continues to engage, empower, and serve Veterans and other 
clients with seamless, secure, and on-demand access to benefits 
information and services. Veterans now have improved access to benefits 
information from multiple channels--on the phone, online, and through 
our shared Department of Defense (DoD)/VA portal called e-Benefits. 
From FY 2009 to FY 2013, the number of contacts with VA through these 
channels increased from 9.1 million to 56.3 million.
    Currently, VA has over 3.3 million e-Benefits users, representing a 
51-percent increase from FY 2012. Through 58 self-service features, e-
Benefits users have generated over 410,000 requests for official 
military personnel documents, 405,000 requests for VA guaranteed home 
loan certificates of eligibility, 31 million claim status requests, and 
over 3.4 million self-service letters. Additionally, there has been a 
steady increase in electronic claim submissions for disability 
compensation benefits. Since October 2012, over 40,000 compensation 
claims and 44,000 dependency claims have been submitted online, and VA 
expects electronic claims submissions to continue to increase. Over 50 
percent of dependency claims submitted online via the automated Rules 
Based Processing System are now processed in 1 business day.
    VA is relying on VSOs to continue to perform their vital advocacy 
and assistance role within VA's transformed benefits delivery model. 
The Stakeholder Enterprise Portal (SEP) is a secure, Web-based entry 
point that complements e-Benefits and gives VSOs and other authorized 
advocates access to assist Veterans with electronic claim submissions. 
Using the portal, 1,200 registered users can check the status of 
claims, review payment history, and upload documentation on behalf of 
the Veterans they represent--all within a digital environment. When 
filing a claim online in e-Benefits, a Veteran can request the 
assistance of a VSO by choosing from a list of accredited 
representatives in VA's database. When logging into SEP, the chosen VSO 
representative is alerted to the Veteran's request, and upon 
acceptance, is given power-of-attorney authorization to access the 
Veteran's claim and assist with preparation. Once the VSO 
representative believes the claim is ready for submission, he or she 
can send notification back to the Veteran in 
e-Benefits, and the Veteran submits the claim to VA.
    VBA ``Digits to Digits'' is a technology initiative which will 
enable VSOs to submit claims directly to VA using their own claims 
management systems. It is scheduled for implementation in FY 2014. This 
machine-to-machine interaction will benefit Veterans by accelerating 
the speed in which claims are filed. Veterans' representatives will 
also benefit by being able to leverage their current claims management 
systems and reduce printing and shipping expenses. The eight current 
pilot participants include: AMVETS; and the States of California, 
Georgia, Illinois, Kansas, Kentucky, Tennessee, and Virginia.
    Telephone systems improvements have also increased access to 
benefits information and services. Eight call centers now utilize a 
consolidated queue to improve efficiency and utilization of call 
agents. The consolidated queue allows calls to be routed to the next 
available agent with the appropriate skill set. Veterans and other 
callers have also benefited from the Virtual Hold feature, which 
automatically calls the individual back. More than 10 million calls 
have been returned since this feature became available in September 
2011; and in FY 2013, VBA had a 95 percent reconnect success rate. 
Additionally, callers have the option to pick a date and time for VA to 
call back. JD Power and Associates found that callers who use VBA's 
Virtual Hold feature have a customer satisfaction score 11 points 
higher than the customer satisfaction scores for non-Virtual Hold 
callers.
    VBA also improved the tools that call agents use. Unified Desktop 
technology was deployed to over 750 agents at the National Call 
Centers. This technology combined 13 separate applications into one 
consolidated view of the Veteran. Call agents can now access the 
caller's contact history and utilize ``smart scripts'' to provide 
quick, consistent, and high-quality responses to callers. For example, 
Unified Desktop technology has helped VBA reduce the length of calls by 
an average of 30 seconds for 354,000 callers requesting benefits 
letters since June 2012.

Veterans Benefits Management System (VBMS)

    VBMS, VA's Web-based electronic claims processing system, was 
deployed to all 56 regional offices 6 months ahead of schedule in June 
2013. VBA has also successfully deployed VBMS to the Appeals Management 
Center, the Records Management Center, the Board of Veterans' Appeals 
(Board), all National Call Centers, and all VA medical centers. More 
than 25,000 unique end-users throughout VA have access to VBMS. This 
technology helps us move away from paper-based to electronic claims 
processing and begin to gain processing speed within a digital claims 
processing environment. Currently, more than 78 percent of our claims 
inventory which equates to 535,000 claims can be processed 
electronically, which is an increase from 32 percent in June 2013. In 
addition, VBMS improves access, drives automation, and enables greater 
exchange of information and increased transparency to Veterans, our 
workforce, and other stakeholders.
    The evolution of VBMS is occurring across four distinct generations 
of development. Generation One of VBMS began in 2010 with the 
conceptualization, piloting, development, and deployment of baseline 
system functionality with improved quality and efficiency. The 
development of Generation One of VBMS concluded with the successful 
implementation of Release 4.1 in January 2013.
    As we moved into the development of Generation Two of VBMS, the 
focus was on building additional system capabilities while leveraging 
simple automation features. VBA deployed three major Generation Two 
software releases: VBMS 4.2, 5.0, and 5.1. These releases included 
improvements to correspondence and work queue tools, additional rating 
functionality, and more extensive data exchange and system integration 
capabilities.
    In December 2013, VBMS entered Generation Three of system 
development with the Release 6.0. The focus of this generation of 
development are increasing system functionality, adding more complex 
automation capabilities, reducing dependency on legacy systems, and 
enabling the capability to accept Veterans' electronic service 
treatment records (STR) from DoD. VA has been actively working with DoD 
to accelerate development of the Healthcare Artifacts and Image 
Management Solution (HAIMS) so STRs would be available in the HAIMS 
repository for Servicemembers separated from January 1, 2014, forward. 
We have developed an automated interface capability to enable the 
secure electronic transmission of disability benefit claimants' STRs 
between DoD's HAIMS and VBMS. With the HAIMS-VBMS connection, VA can 
now retrieve certified and complete electronic versions of STRs for 
Servicemembers separating on or after January 1, 2014. This major 
milestone for VA and DoD reduces the amount of time it takes VA to 
gather required evidence and helps improve the accuracy of claims 
decisions.
    Release 6.0 also contained the first generation of awards 
functionality, integrated additional correspondence functionality, and 
delivered initial capabilities to the Board. With this release, Board 
end-users now have access to a unique eFolder view with the ability to 
maintain notes on documents and enter bookmarks within the eFolder.
    Release 6.1, which is scheduled to deploy in March 2014, will 
continue to focus on increased automation by mapping and pre-populating 
Disability Benefits Questionnaires and Evaluation Builders. This 
release will also integrate VA's legacy electronic records store, 
``Virtual VA,'' to reduce our dependency on legacy systems. Throughout 
2014, VA will continue to gather end-user feedback on VBMS, assess and 
validate the effectiveness of the claims processing model as a whole, 
and implement improvements as needed.
    Generation Four of VBMS, which is scheduled to be deployed sometime 
in 2015, will capitalize on efficiencies and quality improvements 
gained during the previous year. VA will utilize enhancements made in 
Generation Three to identify additional automation and process 
improvement opportunities that can be incorporated into Generation 
Four, allowing employees to focus on more difficult claims by reducing 
the time required to process less complex claims.
    VBA established the Veterans Claims Intake Program (VCIP) in 2012 
to streamline the process for receiving records and data into VBMS and 
other VBA systems. VCIP converts claims and other paper records into a 
digital format that is usable within VBMS. Under VCIP, documents are 
scanned and converted into electronic format, and important information 
and data are extracted and populated in an electronic folder accessible 
to claims processors through VBMS. As of January 10, 2014, VCIP has 
converted from paper and uploaded into VBMS more than 430 million 
images.

Workload Management

    As we continue to execute our claims Transformation Plan, we are 
adjusting the way we manage and measure our work. Leveraging 
technology, we are finding ways to more efficiently manage claims to 
deliver more timely and accurate decisions to Veterans, their families, 
and Survivors. As workload management is adjusted and new technology is 
introduced, we are also evaluating how work credits and performance 
management should change.

National Work Queue

    Historically, regional offices have been primarily dedicated to 
processing claims of the Veterans living within the state or area of 
jurisdiction. These jurisdictional boundaries were driven by 
limitations of operating a paper-based system, where claims records and 
files were physically stored, processed, or mailed between the Veteran, 
the regional office, and the closest supporting VA medical facility. 
This geography-bound process led to significant inefficiencies and 
variances in timeliness in overall claims production. As VA transitions 
to a paperless claims process, we are in a better position to adopt a 
national workload strategy that is ``boundary-free'' and thus improve 
overall production capacity to serve Veterans in the same way they 
served--side by side without regard to state affiliation.
    VBA's previous ``brokering'' strategy helped balance the inventory 
of pending claims across regional offices to better serve Veterans, 
their families, and Survivors. Dedicated brokering centers were 
established at 15 regional offices to handle claims from regional 
offices with workload challenges and claims associated with national 
priority missions, such as the special processing of Agent Orange 
claims subject to the provisions of the Nehmer court decision. While 
somewhat effective in handling ``surge'' work, these brokering centers 
did not fully optimize capacity that still existed within regional 
offices from a national perspective.
    In April 2013, VBA launched its Oldest Claims Initiative to 
expedite decisions for Veterans who had waited at least 2 years for a 
decision on their claim. VBA redistributed the oldest claims across the 
Nation to best utilize the resources of all regional offices. This 
centralized workload management and redistribution achieved excellent 
results. Within 2 months, we completed more than 97 percent of the 
67,000 claims identified for processing under the 2-year initiative. In 
June, the focus turned to completing all claims that had been pending 
more than 1 year. VBA completed 98.2 percent of the claims that were 
pending over 1 year by October 31, 2013. Over 500,000 Veterans received 
decisions on their claims under this initiative. VBA could not have 
accomplished these results without the capability to nationally manage 
the workload without jurisdictional borders. VBA's experience in 
managing this initiative demonstrates the potential of a national 
workload management strategy for improved benefits delivery by 
optimizing every member of the VBA workforce.
    The new paperless claims processing environment offers even greater 
potential for more streamlined and efficient processing, with claims 
being directed to the right decision makers at the right time, no 
matter where that decision maker is physically located.
    The national work queue is being developed in a two-phased 
approach. In Phase I, claims will be managed from a central location 
and routed based on individual station capacity as well as national 
priorities. With more claims being processed electronically, 
centralized management will enable VBA to more easily adjust workload 
distribution. In Phase II, claims will be assigned to different 
regional offices based on claim-specific data. Assigning claims to 
employees based on specific characteristics of a claim will improve the 
timeliness and accuracy of decisions.
    As VA implements the national work queue, Veterans will still be 
able to visit regional offices or call our National Call Centers for 
personal assistance with their claims. They will also be able to go 
online to check the status of their claims and explore other self-
service features. VSOs and other authorized representatives will still 
have full access to claims information for the Veterans they support 
through SEP. Congressional staff will have access to VBA employees as 
they do today to check on the status of a constituent's claim. The 
electronic claims process provides real-time updates, no matter where 
the claim is assigned for processing.

Work Credit System

    In conjunction with the advancements in technology, VBA is 
diligently working to update performance tracking mechanisms. To create 
organizational consistency, VBA maintains performance standards for 
timeliness and accuracy. These standards are routinely evaluated and 
revised to keep pace with changes. With VBA's transition to electronic 
claims processing, it is more important than ever to consider the 
impact of technology on employee performance and ensure the 
expectations of our workforce align with the tools employees have to 
complete their work.
    In response to organizational and process changes, VBA regularly 
revisits and revises performance standards. These standards have 
historically been developed via a committee consisting of 
representatives from the Compensation Service; Pension and Fiduciary 
Service; Office of Field Operations; Human Resources; our labor 
partners; field managers; and subject matter experts. Revised standards 
were most recently implemented in February 2013, and a further revision 
to Veterans Service Representative (VSR) and Rating VSR production and 
quality standards was recently presented to our national labor partners 
and is in the final stages prior to implementation. VA works diligently 
to ensure standards are developed that accurately align performance 
expectations with the overall organizational mission and goals, as well 
as the current claims processing environment.
    Currently, VBA uses the Automated Standardized Performance Elements 
Nationwide (ASPEN) system. ASPEN is a proprietary software system that 
does not connect to VBA information systems. Because of the existing 
limitations and growing challenges from using a proprietary software 
product in a developing VBA digital environment, VBA is addressing the 
need for performance management services. In November 2013, VBA 
established a team to capture business requirements for new performance 
management services. These new services will enable current, real-world 
scalability and unlimited configurability, with powerful security 
features to provide the support and functionality necessary to 
integrate into our existing and future systems.

Proposed Rule To Require Standardized Forms

    In order to get benefits into Veterans' hands as quickly as 
possible, with the most accurate decision possible, VA has proposed a 
rule that would require claims to be filed on a standard form and would 
require appeals to be initiated using a standard form whenever one is 
provided for that purpose. VA's proposed rule does not require that 
Veterans file electronic claims in order to receive benefits.
    VA gave interested members of the public the opportunity to comment 
on the proposed rule from October 30 through December 30, 2013. VA is 
carefully reviewing the 53 comments it has received from stakeholders 
and will be responding to them in accordance with regular 
Administrative Procedure Act procedures.

Conclusion

    While we know there is more work to be done to reach our goals, the 
combined effects of our Transformation Plan are having a significant 
impact. The gains we are making in information technology and the 
automation of our processes are critical, and going forward, we will 
need to sustain the resources for programs like VBMS in order to 
eliminate the backlog in 2015 and achieve our quality goals. FY 2014 is 
a crucial year in our transformation, and I look forward to your 
continued support and commitment on behalf of Veterans, their families, 
and Survivors.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.
                     Statement By Richard W. Thomas
  Director, Healthcare Operations and Chief Medical Officer, Defense 
                             Health Agency
                                  and
 Mr. David M. Bowen, Director, Health Information Technology, Defense 
                             Health Agency
Executive Summary 
    As a direct result of the collaborative efforts by DoD and VA, 
Veterans Benefits Administration (VBA) claims adjudicators who use the 
Veterans Benefits Management System (VBMS) in all 56 VA Regional 
Offices now have the capability to retrieve certified and complete 
electronic versions of the DoD Service Treatment Records (STRs) for 
Service members who separated or were discharged after January 1, 2014, 
to assist in processing disability benefits claims. This enables VBA to 
process future Veterans' disability claims for newly separating Service 
members in a fully digital claims-processing environment; reduces the 
amount of time it takes to gather required evidence; and helps to 
improve the accuracy of disability claims decisions.
    DoD is responsible for providing VA with Service members' 
information to allow accurate and fair claims adjudication. STRs 
provide the necessary military service related healthcare evidence 
needed to reach a decision of a Service connection on a VA disability 
claim. VA has recently required that these records be certified prior 
to transfer from the DoD to VA. DoD subsequently issued policy to 
ensure compliance.
    The certification process requires that the final military 
treatment facility (MTF) for each military Service verify the 
completeness of each Service member's STR at the point of separation 
from military service. When the MTF certifies the STR, it indicates to 
VA that no further records exist and the STR for the Service member is 
complete as of the date of certification.
    In January 2013, in support of VBA's transition to a fully digital 
environment for claims processing, DoD committed to accelerate the 
deployment of the Health Artifact and Image Management Solution (HAIMS) 
for the purpose of transferring electronic STRs to VA. DoD committed to 
the development and implementation of a secure interface to allow VA to 
query the HAIMS repository for relevant STRs effective not later than 
January 2014. We have achieved this goal.
    To do this, DoD revised its HAIMS deployment strategy, refocused 
its training strategy to deliver training to Patient Administration 
Department (PAD) personnel and clinic administrative staff, and formed 
a VBA interface ``tiger team'' to plan and develop the automated 
interface. The certification process was also modified to ensure that 
the complete STR has been uploaded and is retrievable from HAIMS. In 
DoD, the process begins with authorized DoD personnel scanning the 
paper-based elements of a newly separating Service member's STR. This 
and the Service member's DoD electronic health record, is submitted 
into the HAIMS repository and made available to the VA as a single 
record. HAIMS now fully supports the electronic transfer of digital STR 
information, including military and private-sector treatment records, 
to VA.
    As of December 31, 2013, the Services stopped mailing hard copies 
of STRs to the VA and the STR scanning process commenced on January 2, 
2014.
    Chairman Runyan, Ranking Member Titus, and distinguished members of 
the subcommittee, thank you for extending the invitation to discuss the 
collaborative actions taken by the Department of Defense (DoD) and the 
Department of Veterans Affairs (VA) to enable the secure electronic 
retrieval of disability benefits claimants' certified Service Treatment 
Records (STRs) by VA. As a direct result of our collaborative efforts, 
Veterans Benefits Administration (VBA) claims adjudicators who use the 
Veterans Benefits Management System (VBMS) in all 56 VA Regional 
Offices now have the capability to retrieve certified and complete 
electronic versions of STRs for Service members who separated or were 
discharged after January 1, 2014, to assist in processing disability 
benefits claims. Achieving this milestone represents a meaningful step 
forward - it enables VBA to process future Veterans' disability claims 
for newly separating Service members in a fully digital claims-
processing environment; reduces the amount of time it takes to gather 
required evidence; and helps to improve the accuracy of disability 
claims decisions.
    DoD is responsible for providing VA with Service members' 
information to allow accurate and fair claims adjudication. STRs, in 
particular, are an important part of that information in that they 
provide the necessary military service related healthcare evidence 
needed to reach a decision of a Service connection on a VA disability 
claim. Because of the reliance on this information, VA has recently 
required that these records be certified prior to transfer from the DoD 
to VA. DoD subsequently issued policy to ensure compliance with this 
process.
    The certification process requires that the final military 
treatment facility (MTF) for each military Service, including the 
National Guard and Reserve component, verify the completeness of each 
Service member's STR at the point of separation from military service. 
When the MTF certifies the STR, it indicates to VA that no further 
records exist and the STR for the Service member is complete as of the 
date of certification.
    In January 2013, in support of VBA's transition to a fully digital 
environment for claims processing, DoD committed to accelerate the 
deployment of the Health Artifact and Image Management Solution (HAIMS) 
for the purpose of transferring electronic STRs to VA. Specifically, 
DoD committed to the development and implementation of a secure 
interface to allow VA to query the HAIMS repository for relevant STRs 
effective not later than January 2014. We have achieved this goal.
    In order to accommodate this new requirement, DoD revised its HAIMS 
deployment strategy by realigning technical resources to support HAIMS 
deployment, refocusing its training strategy to deliver training to 
Patient Administration Department (PAD) personnel and clinic 
administrative staff, and forming a VBA interface ``tiger team'' to 
plan and develop the automated interface. The certification process was 
also modified to ensure that the complete STR has been uploaded and is 
retrievable from HAIMS. As a result of this focused effort, HAIMS fully 
supports the electronic transfer of digital STR information, including 
all military and private-sector treatment records, to VA.
    Funding for this effort included Joint Incentive Funds (JIF) used 
to support the Military Departments' procurement of high-volume 
scanning equipment and additional personnel to digitize paper-based 
medical information for newly separating Service members.
    As of December 31, 2013, the Services stopped mailing hard copies 
of STRs to the VA and the STR scanning process commenced on January 2, 
2014. The process for digitizing a Service member's STR and making it 
retrievable by VBA begins with authorized DoD personnel scanning the 
paper-based elements of a newly separating Service member's STR. The 
digitized STR, comprised of the scanned information and digital content 
from the Service member's DoD electronic health record, is submitted 
into the HAIMS repository and made available to the VA as a single 
record.
    Chairman Runyan, Ranking Member Titus, and members of the 
distinguished subcommittee, thank you for the opportunity to testify 
today. The Secretary of Defense is committed to ensuring that 
information is made available to VA when a Service member's status 
changes to civilian status as a Veteran and he or she files a 
disability benefits claim. DoD continues to work closely with VA to 
ensure that important information regarding a Service member, including 
relevant medical information, is available for ongoing healthcare 
delivery or adjudication of VA benefits.
    We look forward to your questions.
                     Paralyzed Veterans of America

    Chairman Runyan, Ranking Member Titus, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to offer our views on the Department of 
Veterans Affairs (VA) current status of its transformation and the 
secondary effects of the Veterans Benefits Administration's (VBA) use 
of technology. While PVA has been encouraged by many of the effects 
that the integration and wide-spread implementation of technology has 
had, we still have concerns that we have expressed in the past, both to 
VBA and to Subcommittee members and staff.
    As VA progresses in its new processing model for disability 
compensation claims, we are seeing a flurry of activity and updates to 
the Veterans Benefits Management System (VBMS). Currently VBMS 6.0 
appears to be on target, but this timeliness does not necessarily 
address the real potential problems. This system has been able to 
accommodate many of the myriad of adjustments designed to standardize 
and automate VA claims processing and access to information. The 
tradeoff has been the often incompatible gateways to retrieve 
information, such as the need to access multiple systems with various 
passwords to retrieve required information. These VBA problems are 
short term, however, because VBMS will ultimately morph into the 
Stakeholder Enterprise Portal (SEP), a secure web-based portal which 
facilitates access to VA systems under a single umbrella. VBMS is 
currently being utilized to implement scheduled program releases at 
this point because SEP cannot be programmed in time to accommodate the 
targeted release dates. Incremental program changes are thus being made 
in VBMS and will be available in the SEP Portal when VBMS effectively 
morphs into SEP. This update will greatly simplify access to all 
available VA systems via a single gateway.
    Supporting the improvements to VBMS is the national work queue 
strategy within VBA which is a critical and reasonable component of 
VBMS. The system was designed to be fluid and to facilitate the 
movement of work where it can best be done. In the past the only way an 
NSO could review a claim was to have the C-file on their desk. The 
significant impact of VBMS will be to expand their capability beyond 
the confines of the office which will help to reduce the backlog and 
maintain the reduction, though PVA still has concerns with the backlog 
simply moving into the appeals realm.
    In conjunction with the queue strategy is the work credit system 
which has always been a problem with VBA, and the automated IT 
component of this issue doesn't change the situation. The issue stems 
from what is measured and how the date is utilized once it is 
collected. This issue has historically steered VBA in the wrong 
direction when it comes to resource allocation, which is the end result 
of the application of work measurement data. Under Secretary of 
Benefits Hickey has been wise not to strip resources from offices that 
place on the lower end of the work measurement graph as that doesn't 
address the real problem.
    One concern that PVA and other Veterans Service Organizations (VSO) 
have recently expressed is VA's recent statements on requiring 
electronic forms submission. This plan, if enacted, would significantly 
disadvantage veterans in seeking their earned benefits. If a veteran 
doesn't express his intention to secure a benefit on the right form, he 
or she won't be recognized as having made a claim. The burden is on the 
veteran and VA's duty to assist will be seriously diluted, potentially 
interfering with a veteran's access to their rightful benefit. This is 
a path that PVA cannot endorse.
    PVA's major concern at this point is the ability of VBA employees 
to effectively comprehend and implement the new transformation 
initiatives as these new programs are rolled out. VA employees are 
conscientious, hard working individuals, however, the ongoing changes 
have always been a challenge, as it would be for any employee. In 
addition, PVA has often testified on the lack of good training programs 
by VA that provide adjudicators with the base of knowledge needed for 
the complicated job of claims processing. Additionally, there often 
seems to be difficulty in getting the new policies, procedures or 
processes down to the lowest staff level. We believe this trend 
continues despite the transformation.
    VBA has implemented a policy of designating super users to receive 
extensive training on new transformation applications, and these 
employees are subsequently directed to train their fellow employees on 
the use of the program. Our concern in this area is that the employees 
selected to receive this training may be highly qualified and may have 
the requisite IT skills to effectively utilize the full potential of 
the new initiative, but the employees that this person is designated to 
train, may not be as IT savvy. The potential for major 
misunderstandings is an aspect that cannot be ignored. PVA is concerned 
that the transformation initiatives can only work if there is adequate 
effective training and this may or may not be correlated with the 
number of documented hours recorded for this purpose.
    The process of transformation has progressed to the point where 
turning back is not an option, nor is redesign of the entire process 
feasible. Unfortunately, if this training plan was a bad decision, it 
will not be known until it is too late. Thus we reiterate our concerns 
that PVA has emphasized in the past that the success of VBMS greatly 
depends on the process design, like rules-based processes, and 
supportive technologies like Special Monthly Compensation (SMC) 
calculators, that undergird the system. This is the challenge for a 
rules-based computer system, it does not have the human interaction to 
fully understand the circumstances of a specific injury, particularly 
for those with catastrophic disabilities. The numerous issues faced by 
veterans with catastrophic injuries create a complex set of outcomes 
that cannot be easily reconciled by logic-based systems that cannot 
appreciate nuance in disability assessments. Calculators used in rules-
based systems historically fail to compute the right ratings for 
persons with multiple issues. This type of decision analysis uses 
decision trees that attempt to enable the rater to simplify and resolve 
complex questions. This technique, however, can be problematic when the 
analysis involves highly qualitative assessments that are reduced to 
binary choices.
    In summary while we see many obstacles to the progress of 
transformation based technologies, we see the potential to overcome 
these problems by empowering first line supervisors to effectively 
manage their employees. This level of management is responsible to 
evaluate the ability of their employees to effectively utilize the 
tools that are available to them. They are the ones who must decide if 
it is necessary to forgo a short term gain by requiring additional 
training for an employee who is not able to effectively utilize the 
potential time savings afforded by any of the new automated features of 
claims processing. While there is great pressure to increase efficiency 
and to reduce the claims backlog, employees must be properly trained 
and motivated by their first line supervisor. If not, they are simply 
moving the backlog downstream to the detriment of the veteran.
    One final concern we have is recognition of the fact that VBA 
transformation initiatives are being scrutinized by multiple interested 
parties, not the least of which is this Subcommittee as well as other 
members of Congress. While oversight is critical, excessive reporting 
requirements and requests for responses to defend actions discovered in 
investigative committee reviews can be unreasonably burdensome and time 
consuming. This can also cause the parties to focus more on protecting 
their own jobs than on providing the best services for our veterans.
    Mr. Chairman, we would like to thank you once again for allowing us 
to address VBA's technology transformation. We continue to hope that 
the advances in technology use will benefit all veterans, but VA must 
remember that technology is not the easy fix many portend it to be. 
This is particularly true when considering those with catastrophic 
disabilities.
    PVA would be pleased to take any questions for the record.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
    Fiscal Year 2013
    National Council on Disability--Contract for Services--$35,000.
    Fiscal Year 2012
    No federal grants or contracts received.
    Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program--
$262,787.

                                 <F-dash>

                      Vietnam Veterans of America
 Submitted by James R. Vale, ESQ., Director, Veterans Benefits Program
    Chairman Runyan, Ranking Member Titus, and other members of this 
distinguished and important committee, Vietnam Veterans of America 
(VVA) appreciates the opportunity to offer our statement for the record 
concerning VBA Technology. Please know that VVA appreciates the efforts 
of this committee for the fine work you are doing on behalf of our 
nation's veterans and their families. There are 5 issues we would like 
to bring to your attention.
I. Scanning Veterans Claims Folders (CFILES)

    VBA has to complete its transformation from paper to electronic 
files if it is going to make significant progress in improving its 
timeliness in claims processing. To accomplish this huge undertaking 
VBA is scanning millions of veterans' claims folders (CFILEs). These 
CFILEs are the agency's official record of the veteran's current claim 
and any past claims and appeals. These CFILEs can range from less than 
50 pages to literally thousands of pages (enough to fill several filing 
cabinet drawers).

Inside a CFILE

    On the left flap is the accounting and payment history. The middle 
section should contain, in chronological order, the initial claim form 
(21-526), reopened claims, private medical records, past rating 
decisions, other evidence submitted by the veteran or the veterans 
representative, evidence added by VA (such as printed pages from the 
Veteran's medical records from VA hospitals), evidence from other 
agencies (such as the Social Security Administration), and all 
correspondence sent to the veteran. The right flap contains the 
veteran's Power of Attorney form (VA Form 21-22), and DD214.
    The service treatment records (STRs) including the veterans 
military medical and dental records are contained in a large envelope, 
usually attached in the middle section of the CFILE. The STRs contain 
the veteran's enlistment physical, contains outpatient treatment 
records, and separation physical. Lab results (usually on sticky notes) 
are stuck on the outpatient treatment notes. X-rays are also included. 
Older records are usually hand-written and hard to read. Records from 
WWII are very delicate and require careful handling.
    Once the first CFILE is completely full a second folder is created 
(Volume II), then a third (Volume III), and so on. Sticky notes are 
used to help flag key parts in the file. Highlighting is also used. All 
the volumes are bound together by large rubber bands.
    Unfortunately, Veteran Service Officers all too often find the 
paper documents in CFILES in complete disarray. For whatever reason, 
these documents are not in chronological order, but in random order, 
much like what is left over after playing a game of ``52 Pickup.'' 
Sometimes documents from other veteran's CFILEs get mixed in. I 
personally have seen a CFILE containing documents from 3 different 
veterans.

Not all CFILEs are Scanned

    VSOs were promised by VA the CFILEs would be scanned and 
searchable. To date, VA says 82% of the CFILEs are scanned. This 82% 
are initial claims, and do not include over 800,000 reopened claims, 
appeals, dependency claims, and claims already decided. We understand 
VA has had to prioritize which CFILES get scanned first, and noticed 
this massive scanning effort has led to delays in veterans claims at 
ROs across the country, but we recognize this is a temporary situation.

CFILEs are not Fully Searchable

    The VA promised efficiencies would be gained by the electronic 
CFILEs being searchable. In practice, what has happened is after each 
page is scanned it is grouped together with similar documents and 
categorized under a specific label. Only the label, and not the 
document's contents, are globally searchable in VBMS. To search within 
the document you must open it and perform a separate search within that 
document (if it was scanned using Optical Character Recognition or 
OCR). What we now have is a pile of paper being replaced with a ``Pile 
of PDFs.''
    VBA should be appropriated sufficient funding to ensure that each 
veteran's electronic CFILE is truly searchable without having to open 
each document separately. Opening each document separately delays 
adjudication, and may actually prevent some VA attorneys and Veteran 
Law Judges from seeing important documents if they rely solely on 
searching the document labels and do not open every single document.

CFILE Pages are Mislabeled

    VVA represents veterans at the Board of Veterans Appeals, and our 
appellate attorneys have noticed a problem with pages in electronic 
CFILES in VBMS being mislabeled. For example, our attorneys' legal 
briefs and third party correspondence have frequently been mislabeled 
as ``Board of Veterans Appeals Decisions.'' Consequently, we are 
concerned this is a much broader problem given the large scale of 
scanning that is taking place across VBA. We suggest this mislabeling 
problem be looked at more closely.
Quality Control Concerns

    As mentioned previously, CFILES range in size and content. Also, 
documents contained in these CFILEs may be single or double sided. Many 
of these pages have staples, paper clips, or sticky notes or flags 
which have to be removed before being scanned. This is a labor-
intensive and mistake prone process. How do we know both sides of each 
page was scanned? How do we know all the pages were scanned? What if 
the scanned image is illegible? Once the paper CFILE is destroyed, 
there is no going back if a quality problem is later discovered with 
the electronic copy. This potentially creates an electronic ``St. Louis 
Fire'' for veterans whose files were either not scanned completely, or 
have illegible scans.
    VBA plans to retire scanned CFILEs, but no official decision has 
been made on what to do with the STRs. They are DoD property, but DoD 
does not want the STRs back. VA does not want to continue paying to 
store them. Prior rating decisions contained in the paper CFILE may not 
be accessible in legacy VBA systems such as Virtual VA.
    VVA recommends retiring the entire CFILE to NARA. That way if there 
is ever a problem with the scanned file the Veteran can go back to the 
paper file. Otherwise, we will have a situation similar to what is 
found within the airline industry where the airlines claim 98% of 
passenger baggage makes it to their destination, but if you are part of 
the unlucky 2% whose bags didn't make it, you are out of luck. Here, 
veterans whose CFILES were not completely scanned or have scanning 
errors may face denials by VA, much like their predecessors whose 
military records were destroyed by the infamous 1973 St. Louis Fire.

II. VA National Work Queue

    VBA has Regional Offices in every state, some states (NY, PA, & TX) 
have 2 ROs, and CA has 3 ROs. VBA is trying to balance its work across 
its 57 regional offices. VBMS will give VA the opportunity to balance 
its workload across all these ROs. It may also allow the creation of 
Centers of Excellence for complex or difficult claim issues such as 
PTSD, TBI, hearing loss, and vision loss. This could improve the 
consistency of rating decisions, especially for those conditions that 
are not adjudicated very often, but are complex. For example, vision 
loss conditions make up only 1.5% of all service connected conditions 
(2012 VBA Annual Report), but tend to be very difficult and challenging 
for RVSRS to adjudicate. Using the National Work Queue vision loss 
claims from around the country could be channeled to specific RVSRs who 
are experienced in rating these types of claims. Furthermore, RVSRs at 
every RO could be incentivized to become Subject Matter Experts in 
particular claims.

Need for Formal Process To Resolve VSO Sign off Issues

    As a service officer I have signed off rating decisions at the 
rating table, and in the cases where I found an error in a rating 
decision I was able to go straight to the RVSR (or the RVSR's Coach) 
and get the issue immediately resolved, thus saving the RVSR a quality 
review error, and saves the veteran a lengthy 2-3 year appeal. This is 
a win/win for the veteran and the VA.
    Not every RO allows service officers access to RVSRs. Some ROs only 
allow the service officer to meet with the RVSR's coach (when the coach 
can be found. They are very busy and can be hard to locate). VVA 
proposes ``office hours'' at each RO so the service officer can get the 
issue resolved without the RVSR or coach being interrupted throughout 
the entire work day by service officer inquiries.
    Now that VBMS is here, VBA needs to establish a formal process to 
deal with service officer sign-offs. If a claim is to be signed off by 
a service officer in VBMS via SEP, how do sign-off issues get resolved 
if a service officer finds an error in a rating decision? This become a 
bigger problem if the service officer is not located at the same RO 
that generated the decision. VVA proposes a ``Dispute Queue'' be 
created where the service officer can send the rating decision for 
review by the RVSR or Coach.
    The advantages of a National Work Queue have to be carefully 
balanced with the disadvantages. The service officer who is on station 
and has face to face contact with the RVSRs and DROs is a more 
effective advocate for veterans than those service officers who are not 
on station or do not have access to adjudicators. If designed 
correctly, the National Work Queue can help effectively balance 
workloads within an RO and across multiple ROs, but carefully planning 
must be taken to ensure the working relationship between service 
officers and RVSRS is not weakened.

III. Issues With Stakeholders Enterprise Portal (SEP)

    SEP allows VSO many benefits including the ability to accept or 
reject a veteran's request for representation, submit a claim 
electronically for a veteran (either take over a claim that was started 
in e-Benefits, or submit a whole new claim in SEP), and check the 
veteran's claims status. It basically allows the VSO to see what the 
veteran sees in e-Benefits. SEP holds great potential to enable VSOs to 
better serve veterans, but it does have a few issues that need to be 
addressed.

Veteran Must Already Have an e-Benefits Account

    In order for a VSO to submit a claim for a veteran via SEP, the 
veteran must already have already created an e-Benefits account. 
Currently it is not possible to submit a claim for a veteran via SEP if 
the veteran does not have an e-Benefits account. VA is working on a 
solution.

POA Request Glitch

    In response to multiple VSO requests to improve VA policy governing 
VA Form 21-22 ``Appointment of Veterans Service Organization As 
Claimant's Representative,'' known as the ``POA Form,'' VA created 
functionality in e-Benefits to allow veterans to select their 
representative online rather than submitting a paper 21-22 form. VSOs 
were told the veteran can submit a POA request in e-Benefits, and that 
this request would appear in the VSO's ``Service Representation 
Request'' queue in SEP where the VSO can click a button to accept or 
decline the request. The veteran's e-Benefits account would receive an 
immediate response from SEP once the VSO accepts or declines the POA 
request.
    Unfortunately, due to a programming bug or glitch, there is a 
communication error between e-Benefits and SEP that is preventing the 
veteran's e-Benefits account from updating with the new POA request 
status after the VSO accepts or rejects the POA request. Thus, the VSO 
must contact the veteran directly by phone, email, or paper letter to 
communicate the acceptance or rejection of the veteran's POA request. 
Imagine a VSO finding 1,000 POA requests to respond to in SEP. That is 
1000 phone calls, emails, or paper letters that need to be generated. 
This creates an unnecessary burden on VSOs, and needs to be corrected 
by VA as soon as possible.

Out of Date POA Database Impacting e-Benefits

    A veteran's ability to find an accredited service officer in e-
Benefits is significantly impacted because the database maintained by 
the VA Office of General Counsel (OGC) used to feed into e-Benefits is 
woefully out of date.
    The VA Office of General Counsel (OGC) only has 4 FTE to monitor 
approximately 30,000 accreditations (service officers, attorneys, and 
VA Agents), and these staff are responsible for maintaining the online 
database that feeds into the POA request feature in e-Benefits (see: 
http://www.va.gov/ogc/apps/accreditation/).
    The lack of resources at OGC to monitor these accreditations is 
well documents by the Government Accountability Office in its report 
``Improvements Needed to Ensure Claimants Receive Appropriate 
Representation.'' The GAO recommended the VA OGC, ``. . . take steps to 
ensure an appropriate level of staff and IT resources are in place to 
implement the requirements of the accreditation program.'' GAO-13-643: 
Published: Aug 1, 2013. Publicly Released: Aug 30, 2013. Available: 
http://www.gao.gov/products/gao-13-643.
    Although some short-term fixes are being made to help clean up the 
database, the long-term solution is for OGC to allocate sufficient FTE 
to this important OGC function so that the database is up to date.

IV. Diffused Accountability

    VBA has to transform its paper-based claims system into a modern, 
electronic-claims based system, and is making great progress. However, 
unless structural changes are made to VBA's organizational structure, 
no amount of technological transformation will fix VBA's underlying and 
deep-rooted problem: the existing separation of VBA's Operations and 
Policy Functions.
    There are at least two major structural/corporate culture barriers 
that need to be changed at VBA. First, the bifurcation of separate 
reporting lines of managers between ``operations'' and ``policy'' does 
not make sense. It only creates too many middle managers and disperses 
accountability. This needs to be corrected at VBA (and at the Veterans 
Health Administration (VHA) as well we might add), for the same reasons 
of reducing managerial slots and affixing clear accountability. The 
second is the fact that nobody ever got in trouble at Compensation & 
Pension for saying ``No.'' The default position needs to change from 
``No'' to ``how do we get to yes?''
    VVA commends VBA on the progress it is making to become an 
electronic claims system, but strongly urges VBA's organization 
structure also undergo transformation.

VVA Proposed Rule Rin 2900-AO81--Standard Claims and Appeals Forms

    VVA understands the VA's stated intent to improve the quality and 
timeliness of the processing of veterans' claims for benefits and 
appeals, and in principle, we do not oppose VA modernizing its claims 
system and use of standardized forms. However, we find many of these 
proposed rule changes in RIN 2900--AO81, as currently written, do NOT 
have the intended effect of increasing efficiency, and are in fact 
adverse to veterans' interests by formalizing the claims and appeals 
processes to the point where benefits are unfairly restricted.
    Although the title of this proposed rule is, ``Standard Claims and 
Appeals Forms,'' the proposed change goes well beyond mandating the use 
of forms. VA proposes to:

        <bullet> Eliminate all informal claims, potentially costing 
        veterans millions of dollars in retroactive payments currently 
        allowed under existing law.
        <bullet> Essentially change a claim from an application of 
        ``formal or informal communication in writing requesting a 
        determination of entitlement or evidencing a belief in 
        entitlement, to a benefit'' to ``a written communication 
        requesting a determination of entitlement or evidencing a 
        belief in entitlement, to a specific benefit under the laws 
        administered by the VA.'' This gives VA the opportunity to 
        raise the bar to an unreasonable level where veterans are 
        denied claims for issues that are not specifically claimed.
        <bullet> Create the concept of a ``complete claim,'' and 
        providing VA the opportunity to unfairly deny claims for 
        failing to meets its arbitrary standards of what it deems to be 
        ``complete.'' Veterans' claims should be decided on their 
        merits, and not summarily dismissed for failing to dot every 
        ``I'' and cross every,``t''.

    Currently, the claims clock starts when a veteran submits an 
informal claim, and the veteran has 365 days to follow up with the 
formal claim and evidence to perfect the claim. VBA policy makers claim 
this hurts and unfairly skews VA's claims timeliness statistics. There 
is nothing in Title 38 that prohibits VBA from starting the claims 
clock from when the formal claim is received. Thus, VA could start the 
claims clock when the formal claim is received rather than eliminating 
informal claims. This would reduce VBA timeliness statistics by up to 
364 days without costing veterans the retroactive awards they are 
currently entitled to under the existing informal claims process.
    VVA has serious concerns that these proposed changes are adverse to 
many classes of veterans--especially Vietnam Veterans--seeking VA 
benefits under Title 38, and some of these proposed changes may be in 
direct violation of existing court rulings. Furthermore, some of these 
proposed changes may not pass Constitutional muster given they appear 
to run afoul with the Due Process and Equal Protection Clauses of the 
U.S. Constitution. The end result of these proposed changes, if 
enacted, would be a significant departure from the longstanding, 
``nonadversarial and pro-claimant'' VA system originally intended by 
Congress.
    Although VA is granted authority under 38 U.S.C. 501(a) to make 
regulatory changes, these proposed regulatory changes appear to be 
ultra vires. Therefore, VVA strongly opposes these proposed changes as 
currently written and urges that they be withdrawn.
    Mr. Chairman, VVA thanks you and this subcommittee for the 
opportunity to present our views for the records regarding today's 
hearing ``Beyond Transformation: Reviewing Current Status And Secondary 
Effects Of VBA Technology''.

    February 5, 2014
    Vietnam Veterans Of America
    Funding Statement

    The national organization Vietnam Veterans of America (VVA) is a 
non-profit veterans membership organization registered as a 501(c)(19) 
with the Internal Revenue Service. VVA is also appropriately registered 
with the Secretary of the Senate and the Clerk of the Senate of 
Representatives in compliance with the Lobbying Disclosure Act of 1995.

    VVA is not currently in receipt of any federal grant or contract, 
other than the routine allocation of office space and associated 
resources in VA Regional Offices for outreach and direct services 
through its Veterans Benefits Program (Service Representatives). This 
is also true of the previous two fiscal years.

    For Further Information, Contact:
    Director of Government Relations Vietnam Veterans of America. (301) 
585-4000, extension 127

    James R. Vale, ESQ.

    Mr. James Vale is the National Service Director and Senior Attorney 
for Vietnam Veterans America. He is a licensed attorney from the State 
of Washington, leads a legal team of 6 appellate attorneys, and 
oversees accreditation, training, and VBP Program compliance for over 
600 accredited service officers. He has been an accredited service 
officer for 10 years and is accredited by the Associates of Vietnam 
Veterans, American Legion, Blinded Veterans Association, and Vietnam 
Veterans of America. He has represented veterans for VA claims at the 
VA Seattle Regional Office and at the Board of Veterans Appeals.
    Mr. Vale is a former Government Relations Intern with the Blinded 
Veterans Association, and a former David Isbell Summer Law Clerk with 
the Veteran Pro Bono Consortium. He is a past-presenter at the National 
Organization of Veterans Advocates (NOVA), has written an article in 
the National Veterans Legal Services Program (NVLSP), The Veterans 
Advocate, and has a column in VVA's Magazine, The Veteran.
    Mr. Vale is a disabled Navy Gulf War-era Veteran and is legally 
blind. He earned his Master of Business Administration (MBA) and Master 
of Aeronautical Science (MAS) from Embry-Riddle Aeronautical 
University, and Master of Public Administration (MPA) and Education 
Specialist Degree (Ed. S.) from the University of Arizona, and Juris 
Doctorate (JD) from Seattle University School of Law. He is also a 
graduate of both the VA Blind Rehabilitation Service and the VA 
Vocational Rehabilitation & Employment Program.
    Mr. Vale resides with his wife Rowena and his daughter Gabrielle in 
the DC metro area.

                                 <F-dash>

                Letter From Hon. Titus To Hon. Shinseki

    February 27, 2014
    The Honorable Eric K. Shinseki
    Secretary, Department of Veterans Affairs
    810 Vermont Avenue, NW., Washington, DC 20420
    Dear Mr. Secretary:

    In reference to our Subcommittee on Disability Assistance and 
Memorial Affairs hearing entitled, ``Beyond Transformation: Reviewing 
Current Status and Secondary Effects of VBA Technology'' that took 
place on February 5, 2014, I would appreciate it if you could answer 
the enclosed hearing questions by the close of business on April 10, 
2014.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Carolyn Blaydes at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="014260736e6d786f2f636d6078656472416c60686d2f696e7472642f666e772f">[email&#160;protected]</a> If you have any 
questions, please call (202) 225-9756.

        Sincerely,
        Dina Titus, Ranking Member Subcommittee on Disability 
        Assistance and Memorial Affairs

                                 <F-dash>

                      Questions For The Record-VA

Production

    1. Can you please explain, in detail, how station targets for VA 
Regional Offices are created? Consistently committee staff has found 
that station targets are not being met. Are the station targets 
unrealistic? If not, what is being done to hold offices accountable for 
not reaching their targets?
    2. The most recent performance data available in ASPIRE is more 
than two months old. Can VA commit to providing Congress and the public 
with timely information regarding the performance of VA Regional 
Offices?
    3. How does VBA define an under performing office?
    4. What are the performance standards for individuals working in 
the various segmented lanes? How many claims is a VSR/RVSR expected to 
complete if the work in the ``express lane'', the ``core lane'', the 
``special operations lane'', and on non-rating work?
        a. Do these standards vary by office or are they the same 
        across the country?
        b. If the standard is the same but actions are weighted, please 
        provide us an index explaining how different actions are 
        weighted.
    5. Can we please receive a briefing and documentation on the NLA 
pilot?
    6. Can VA please provide the formula for determining ``claims 
produced per Direct FTE'' on the executive dashboard as well as the 
figures used in that calculation?
    7. VARO Directors indicated that they are challenged to provide 
incentives to employees. Can you please provide the code/regulation 
that governs RO leadership's abilities to provide such incentives?
    8. How many provisional rating decisions have been made since the 
inception of tactic.
        a. How many of those claims have been appealed?
    9. How many VA Regional Office Director positions are currently 
vacant? How long have they been vacant for?

National Work Queue

    1. One of the concerns raised in the VFW's testimony is the fact 
that service officers are not provided lists informing them of what 
claims have been brokered? How does VA currently inform the VSO's of 
the location of brokered claims, and how does VA expect this to change 
moving forward?
    2. Why was the national work queue not communicated to Congress 
prior to its implementation?
    3. In a National Work Queue, how will poor performing offices and 
employees be held accountable?
    4. How will the resource allocation model be modified in 
consideration of the National Work Queue?
    5. According to the fact sheet provided to the committee on 
February 3, 2014, with regards to the National Work Queue, VBA has 
suggested that they will support medical-issue and skill-based workload 
distribution. Can you please expand upon this; will this be for all 
medical conditions, what are VBA's intended goals?
    6. What is the Area Director's role in the new model and who 
specifically will manage workload at the National level?
    7. VSOs are concerned about losing the ability to have face-to-face 
interaction with the VA employee processing the claim. How is VA going 
to ensure VSO service officers can contact the case workers?
    8. What is VA doing to ensure the ``sense of ownership'' is not 
undermined as the claims are sent to other regions?
    9. Please provide statistics on the quality of brokered and non-
brokered claims.
    10. In the future phase of NWQ, how is VA ensuring that the 
holistic view of complex claims is retained as the individual issues 
are sent off to other regions and employees?
    11. How is the VA going to allocate resources (FTE, budget, etc.) 
to high and low performing ROs?
    12. There is concern that previous attempts to centralize claims 
for death pensions and Dependency and Indemnity Claims (DIC) were 
problematic with high error rates and delays. Is VA incorporating any 
lessons learned from that experience?

e-Benefits

    1. What percent of claims are being submitted through e-Benefits? 
What are VA's goals for online claim submission?
    2. Can you please provide the findings of the breach core data 
team's investigation to the committee?
HAIMS

    1. Is the VBMS-HAIMS interface fully operational? How many service 
and treatment records has VA retrieved using the HAIMS interface? The 
November update to the Transformation Plan indicates DoD committed to 
providing 100% complete searchable electronic records, has DoD now met 
its commitment and is this capability fully rolled out at all 56 VAROs?
    2. Where is HAIMS scanning conducted?

VBMS

    1. What is the total for VA spending on VBMS from inception?

Work Credit

    1. Can VA provide an update on the current work credit system and 
any labor agreements and discussions?
    2. Can VA provide the committee with a copy of the AFGE labor 
agreement?

IDES

    1. In the hearing VA suggested that it would eliminate the backlog 
of IDES claims by March (Final Rating) and August (Initial Rating). Can 
VA please provide additional clarity on its plan to achieve this goal?
    2. Can more claims be brokered to the Providence DRAS to reduce the 
wait times of Servicemembers waiting on rating decision from the 
Seattle DRAS?
    3. Can more IDES ratings decisions be brokered to additional VA 
Regional Offices?
    4. Numerous references have been made to negative experiences from 
the SM's in IDES with regards to QTC physicians and facilities. How is 
VA checking the quality and consistency of the QTC examinations, 
facilities, and personal?

                                 <F-dash>

                  Responses From VA to Hon. Dina Titus
    Question 1: Can you please explain, in detail, how station targets 
for VA Regional Offices are created? Consistently committee staff has 
found that station targets are not being met. Are the station targets 
unrealistic? If not, what is being done to hold offices accountable for 
not reaching their targets?
    VA Response: The performance of regional offices (RO) is evaluated 
against national and RO-specific targets that are based on the Veterans 
Benefits Administration's (VBA) strategic goals. These targets are 
established at the beginning of each fiscal year (FY), across all the 
business lines and for a variety of measures, including quality, 
timeliness, production, and inventory. Challenging performance 
expectations are established that build on the previous year's 
performance, giving consideration to current staffing levels and 
anticipating that each RO is working to ensure the most efficient 
utilization of those resources. RO directors are held accountable for 
their performance, which is reflected in their end-of-year evaluations. 
As appropriate, performance improvement plans are put in place for 
employees and closely monitored by the area director.
    Question 2: The most recent performance data available in ASPIRE is 
more than two months old. Can VA commit to providing Congress and the 
public with timely information regarding the performance of VA Regional 
Offices?
    VA Response: VBA has increasingly been asked for production 
statistics that reflect the status of claims actually being worked at 
each RO, referred as claims at the Station of current Jurisdiction 
(SOJ), instead of the production credited to the station where the 
claim was originally received, referred to as Station of Origination 
(SOO). We acknowledged this requirement in recent changes to the Monday 
Morning Workload Report, which now shows production statistics for each 
RO both before and after any brokering of claims to or from other ROs. 
As brokering will continue to increase in FY 2014 and FY 2015, VBA 
adjusted the data for ASPIRE to reflect SOJ versus SOO in our monthly 
statistics towards achieving our FY 2015 goals. We have recalculated 
the previous months of ASPIRE data in FY 2014 accordingly and reposted 
October 2013 through January 2014. These new files were available 
online on March 7, 2014. February end-of-month data for Compensation 
and Pension was posted to ASPIRE on March 11, and we expect to continue 
publishing prior-month data to ASPIRE no later than the 10th business 
day of the following month. We apologize for any confusion that may 
have resulted during this changeover period.
    Question 3: How does VBA define an underperforming office?
    [GRAPHIC] [TIFF OMITTED] T6727.002
    
    Question 5: Can we please receive a briefing and documentation on 
the NLA pilot?


    VA Response: VBA can provide a briefing at the Committee's 
convenience.

The Veterans Benefits Management System (VBMS) notification letter 
automation (NLA) automates the award notification letter with very 
little manual handling by the end user. The expectation is that the 
implementation of this new process will reduce the time that claims 
await award generation and authorization. This allows VBA employees to 
focus their critical expertise on award processing. The new process 
will facilitate standardization of the letters nationwide in a way not 
previously possible. The new system supports much more rapid language 
changes than legacy products, facilitating timely updates to our 
standardized system language.

This functionality uses rules-based logic to drive generation of 
notification letters based on various inputs as part of a rating 
decision or award action. Prior to this automated process, users were 
required to manually select paragraphs to populate the notification 
letter.

The Portland RO began the VBMS NLA pilot in August 2013, and it is 
being used by two of the RO's teams (Express and Non-Rating). The 
Lincoln RO began piloting VBMS NLA in November 2013.

Program successes include:
        <bullet> 365 automated letters were generated as part of the 
        pilot.
        <bullet> 84percent of automated letters generated after VBMS 
        6.0 release.
        <bullet> The VBMS NLA pilot supported and led to incorporation 
        of NLA functionality in the VBMS-Awards application.
        <bullet> Time-study results showed a 40 percent reduction in 
        letter generation time and resources using the VBMS NLA 
        process, compared to the traditional legacy system processing.

    The Lincoln and Portland ROs are currently piloting VBMS NLA. 
National deployment of the VBMS-Awards application with the embedded 
NLA functionality is currently in the planning stages.

Question 6: Can VA please provide the formula for determining ``claims 
produced per Direct FTE'' on the executive dashboard as well as the 
figures used in that calculation?

    VA Response: Claims produced per direct full-time equivalent (FTE) 
employees represents total claims completed during a given month 
divided by the cumulative FTE employees for that month. Since rating 
claims are processed by both compensation and pension employees, 
cumulative end of month FTEs for both business lines is used.

Direct FTE includes VSRs, RVSRs, Decision Review Officers (DRO), 
Pension and Veterans Service Center field employees such as Claims 
Assistants, Fiduciary employees, National Call Center employees, 
Military Service Coordinators, Homeless Veterans Coordinators, and 
Women Veterans Coordinators. The end of month February calculation was 
based on 14,101 direct FTEs.

Question 7: VARO Directors indicated that they are challenged to 
provide incentives to employees. Can you please provide the code/
regulation that governs RO leadership's abilities to provide such 
incentives?

VA Response: RO directors are allowed to provide performance incentives 
under the following statute, regulations, and publications:

        <bullet> 5 United States Code, Chapter 45 - Incentive Awards;
        <bullet> 5 Code of Federal Regulations (CFR), Part 451 - 
        Awards;
        <bullet> 5 CFR, Part 531, Subpart E - Quality Step Increases;
        <bullet> VA Handbook 5017 - Employee Recognition and Awards; 
        and
        <bullet> Office of Personnel Management publication ``Human 
        Resources Flexibilities and Authorities in the Federal 
        Government.''

VBA utilizes a three-tier incentive program to recognize individuals 
and ROs for excellent performance during the fiscal year.
Individual recognition (level one) awards are given to those employees 
whose performance significantly exceeds their performance requirements. 
All performance requirements for claims processors contain critical 
elements for both quality and timeliness/production. At the heart of 
the performance award program is a foundational focus on quality. Group 
awards (level two) are made to offices or elements of offices that 
achieve and exceed performance targets, including all claims accuracy 
goals. Special contribution awards (level three) are reserved for 
recognition by the Under Secretary for Benefits.

Question 8: How many provisional rating decisions have been made since 
the inception of tactic?

        a. How many of those claims have been appealed?

VA Response: Between April 19, 2013, and November 2013, approximately 
14,500 provisional ratings were completed (7,300 for 2-year claims and 
7,200 for 1-year claims). This represents approximately two percent of 
the rating-related decisions made under the Oldest Claims Initiative 
through November 8, 2013.

In April 2013, the Department of Veterans Affairs (VA) implemented a 
temporary initiative to expedite compensation claims decisions for 
Veterans who had waited one year or longer. Between April 19, 2013, and 
November 8, 2013, VA claims raters made provisional decisions on some 
of the oldest claims in inventory, which allowed Veterans to begin 
collecting compensation benefits more quickly, if they were eligible.

Provisional decisions were based on all evidence VA had received to 
date and during the time the claim had been pending.Provisional rating 
notices noted the evidence;

[GRAPHIC] [TIFF OMITTED] 

already had a decision made on them, and brought to the DRO's attention 
because of some conflict with the facts or law as applied in the case. 
This would also apply to any cases assigned to the DRO by Veterans 
Service Center management based on the complexity/sensitivity of the 
case. This credit does not apply to routine rating development cases 
and, again, can only be claimed exclusive of any other weighted action 
listed above.
    3. The case credit review for an SOC [EP 172 or 174] should be 
taken per the parameters in M21-4 Appendix C. Concerning formal 
hearings (EP 174), a full case credit is only available if the formal 
hearing is actually held; otherwise, the only credit available is the 
1/2 case for preparation time, if applicable.
    4. The term ``DRO decision'' is defined as any rating related to an 
appeal where the DRO has made a favorable decision requiring some type 
of award action. Separate DRO decision and rating decision documents 
for the same issue are not required.
    5. Weighted case credit for non-appeal cases is the same as the 
RVSR weights.
    SUCCESSFUL LEVEL: Three weighted cases per day (cumulative)
    INDICATORS: Production reports
    Leave, union time, special projects or assignments pre-approved at 
the discretion of the supervisor, and 2nd signature reviews (of 
trainees only) are considered deductible time.
    ELEMENT 3 - CUSTOMER SERVICE
    Functions as a team member to enhance resolution of claims and 
customer service contacts by work actions. Maintains professional, 
positive, and helpful relationships with internal/external customers by 
exercising tact, diplomacy, and cooperation.
    Performance demonstrates the ability to adjust to change or work 
pressures, to handle differences of opinion in a businesslike fashion, 
and to follow instructions conscientiously. As a team member, 
contributes to the group effort by supporting fellow teammates with 
technical expertise and open communications and by identifying problems 
and offering solutions. Successful achievement in this element reflects 
support of all scorecard goals.
    SUCCESSFUL LEVEL: No more than three instances of valid complaints 
or incidents.
    INDICATOR: Verbal and/or written feedback from internal and/or 
external customers. Observations by a manager with the complaint 
documented.
    A valid complaint or incident is one where a review by the 
supervisor, after considering both sides of the issue, reveals that the 
complaint/incident should have been handled more prudently and was not 
unduly aggravated by the complainant. Disagreeing, per se, does not 
constitute ``discourtesy''. Valid complaints or incidents will be 
determined by the supervisor and discussed with the employee.
    ELEMENT 4 - TIMELINESS
Works in a manner that supports and contributes to meeting established 
Veterans Benefits Administration timeliness requirements.
At present the timeliness element is not officially measured. Methods 
are currently being discussed concerning accurate and equitable ways to 
measure appeals timeliness. At that time, this element will be 
revisited.
                              ATTACHMENT A
Were all claimed issues addressed?
Were all inferred issues addressed?
Were all ancillary issues addressed?
Was effort to obtain all indicated evidence documented?
Was requested VA exam necessary and appropriate or was a necessary exam 
requested?
Was all evidence received prior to denying claim?
Was the grant or denial of all issues correct?
Were there percentage evaluations assigned correct?
Was the combined evaluation correct?
Were the effective dates correct?
Was all of the applicable evidence discussed?
Was the basis of each decision explained?

                              [all]
                              
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
